<html>
<title> - OVERVIEW OF SCIENCE AND TECHNOLOGY RESEARCH AND DEVELOPMENT PROGRAMS AND PRIORITIES AT THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      OVERVIEW OF SCIENCE AND TECHNOLOGY RESEARCH AND DEVELOPMENT
     PROGRAMS AND PRIORITIES AT THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================



                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2011

                               __________

                            Serial No. 112-7

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-052                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                DAVID WU, Oregon
JUDY BIGGERT, Illinois               JOHN P. SARBANES, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             DANIEL LIPINSKI, Illinois
CHARLES J. ``CHUCK'' FLEISCHMANN,    GABRIELLE GIFFORDS, Arizona
    Tennessee                        BEN R. LUJAN, New Mexico
E. SCOTT RIGELL, Virginia                
RANDY HULTGREN, Illinois                 
CHIP CRAVAACK, Minnesota                 
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                              Hearing Date

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

                                Panel I:

Dr. Tara O'Toole, Under Secretary of Science and Technology, 
  Department of Homeland Security
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    19

Mr. Warren Stern, Director of the Domestic Nuclear Detection 
  Office, Department of Homeland Security
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    28

                               Panel II:

Dr. James Carafano, Director of the Douglas and Sarah Allison 
  Center for Foreign Policy Studies at the Heritage Foundation
    Oral Statement...............................................    43
    Written Statement............................................    44
    Biography....................................................    50

Mr. Marc Pearl, President and Chief Executive Officer, Homeland 
  Security and Defense Business Council
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    57

Mr. David Maurer, Director of the Homeland Security and Justice 
  Team at the U.S. Government Accountability Office
    Oral Statement...............................................    57
    Written Statement............................................    59
    Biography....................................................    68

             Appendix I: Answers to Post-Hearing Questions

Dr. Tara O'Toole, Under Secretary of Science and Technology, 
  Department of Homeland Security................................    78

Mr. Warren Stern, Director of the Domestic Nuclear Detection 
  Office, Department of Homeland Security........................    84

Mr. Marc Pearl, President and Chief Executive Officer, Homeland 
  Security and Defense Business Council..........................    86

            Appendix II: Additional Material for the Record

Testimony From Dr. Michael B. Silevitch, Robert D. Black 
  Professor, Department of Electrical & Computer Engineering and 
  Co-Director, Awareness and Localization of Explosives Related 
  Threats (ALERT), A Dept. Of Homeland Security Center Of 
  Excellence, Northeastern University............................    90


 OVERVIEW OF SCIENCE AND TECHNOLOGY RESEARCH AND DEVELOPMENT PROGRAMS 
         AND PRIORITIES AT THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        Tuesday, March 15, 2011

                  House of Representatives,
         Subcommittee on Technology and Innovation,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Benjamin 
Quayle [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                     U.S. HOUSE OF REPRESENTATIVES

             An Overview of Science and Technology Research

               and Development Programs and Priorities at

                  the Department of Homeland Security

                        tuesday, march 15, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, March 15, 2011 the Subcommittee on Technology and 
Innovation of the Committee on Science, Space, and Technology will hold 
a hearing to review activities at the Science and Technology 
Directorate of the Department of Homeland Security (DHS S&T) and the 
Domestic Nuclear Detection Office at the Department of Homeland 
Security (DNDO). There will be two panels; one panel will include 
Administration witnesses from DHS S&T and DNDO providing testimony for 
each agency, and the other panel will include stakeholders of the DHS 
enterprise.

Witnesses

Panel I

        <bullet>  Dr. Tara O'Toole, Under Secretary of Science and 
        Technology, Department of Homeland Security.

        <bullet>  Mr. Warren Stern, Director of the Domestic Nuclear 
        Detection Office, Department of Homeland Security.

Panel II

        <bullet>  Dr. James Carafano, Director of the Douglas and Sarah 
        Allison Center for Foreign Policy Studies at the Heritage 
        Foundation.

        <bullet>  Mr. Marc Pearl, President and Chief Executive 
        Officer, Homeland Security and Defense Business Council.

        <bullet>  Mr. David Maurer, Director of the Homeland Security 
        and Justice Team at the U.S. Government Accountability Office.

Brief Overview

    The hearing will examine various elements of DHS S&T including the 
recent reorganization of the Directorate, the strategic planning 
process, stakeholder involvement in setting research priorities, and 
the role of research and development in the DHS S&T portfolio. Many of 
the areas reflect ongoing interest from Members of the Technology and 
Innovation Subcommittee.

Background

    The Department of Homeland Security's research and development 
portfolio is concentrated in DHS S&T and DNDO. DHS S&T is responsible 
for carrying out research on behalf of federal homeland security needs 
and coordinating this research with other federal research entities.

<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The FY 12 budget request for DHS S&T is $1.2 billion and would 
increase by $170 million or 16.9 percent from the FY 10 enacted. Most 
of this increase reflects the transfer of research and development 
programs from DNDO to DHS S&T, which will consolidate all DHS basic 
research within DHS S&T. The FY 12 budget request for DNDO is $331.7 
million, an overall reduction of $51.3 million or 13.4 percent. This 
includes a transfer of $108.5 million from the Transformational 
Research and Development account to DHS S&T. This transfer was also 
proposed in FY 11. If the DNDO transfer and funding for the 
construction of the NBAF is removed, the DHS S&T budget request 
represents an 11 percent decrease from FY 10 enacted.

Organization of the Science and Technology Directorate

    DHS S&T is currently comprised of four groups that address basic 
research through advanced technology development and transition. An 
organizational realignment took place effective in late 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Issues and Concerns

Science and Technology Research and Development Prioritization
    Witnesses will discuss the methods and criteria used to develop 
long-term basic research and development priorities at DHS S&T and how 
these methods and criteria may be improved. Concerns continue to emerge 
in the current budget environment that in responding to immediate 
needs, DHS has experienced challenges in pursuing basic research and 
development that could potentially help aid the development of the 
innovative long-term capabilities needed to protect the homeland years 
down the road. In addition, witnesses will assess how research 
priorities align with the needs of DHS stakeholders, and how the 
Department coordinates its efforts with other federal research 
entities.

Reorganization Impacts and Implications
    The Subcommittee has requested that witnesses address the impact of 
the changes that have occurred at DHS S&T following the Quadrennial 
Review \2\ and the Bottom-Up Review \3\, including the 2010 realignment 
of DHS S&T, and the recent portfolio analysis.
---------------------------------------------------------------------------
    \2\  Department of Homeland Security, Science and Technology 
Directorate, Quadrennial Homeland Security Review Report: A Strategic 
Framework for a Secure Homeland, February 2010,
    \3\ Department of Homeland Security, Science and Technology 
Directorate, Bottom-Up Review Report, July 2010, http://www.dhs.gov/
xlibrary/assets/bur--bottom--up--review.pdf.

Stakeholder and Private Sector Engagement
    DHS S&T has cited an increased emphasis on partnerships to increase 
the efficiency and timeliness of delivering needed capabilities. 
Witnesses will address the manner in which DHS S&T and DNDO 
collaborates throughout the various DHS offices, as well as the 
relationship and interaction between DHS science and technology 
programs and the private sector. Also, the Subcommittee has asked 
witnesses to discuss the manner in which DHS responds to customer and 
stakeholder needs through collaborative agency partnerships.

Science and Technology Informing DHS Program Decisions
    The Subcommittee has requested that witnesses address the DHS 
research and development information provided in the recent GAO report: 
``Opportunities to Reduce Potential Duplication in Government Programs, 
Save Tax Dollars, and Enhance Revenue''. \4\ The GAO has identified 
concerns regarding the manner in which DHS completes testing and cost-
benefit analyses in the acquisition process. One of S&T's FY 12 
strategic initiatives is focused on acquisition support. Specifically, 
DHS S&T has established an Acquisition Support and Operations Analysis 
group. The Subcommittee has asked witnesses to discuss the current and 
potential role of science and technology research and development 
programs at DHS in supporting the technology acquisition programs of 
the Department and whether a more active role for DHS S&T could assist 
with reducing costs affiliated with acquisition programs.
---------------------------------------------------------------------------
    \4\  http://www.gao.gov/new.items/d11318sp.pdf
---------------------------------------------------------------------------
    Chairman Quayle. The Subcommittee on Technology and 
Innovation will come to order.
    Good morning, everybody. Welcome to today's hearing 
entitled ``An Overview of Science and Technology Research and 
Development Programs and Priorities at the Department of 
Homeland Security.'' In front of you are packets containing the 
written testimony, biographies and truth in testimony 
disclosures from today's witnesses.
    Before we get started, this being the first meeting of the 
Technology and Innovation Subcommittee for the 112th Congress, 
I would like to ask the Subcommittee's indulgence to introduce 
myself and welcome Members. It is an honor and a pleasure for 
me to chair the Technology and Innovation Subcommittee for this 
Congress and it is a position that I do not take lightly. I 
want all Members of this Subcommittee to know that my door is 
always open and that I will endeavor to serve all Members 
fairly and impartially. I will also work to serve the best 
interests of all Americans and this Congress to ensure that the 
agencies and programs under our jurisdiction are worthy of the 
public's support.
    Today's hearing includes two panels. Our first panel will 
feature Department of Homeland Security Under Secretary for 
Science and Technology Dr. Tara O'Toole, and Mr. Warren Stern, 
Director at the Department's Domestic Nuclear Detection Office. 
Our second panel will feature Dr. James Carafano from the 
Heritage Foundation, Mr. Marc Pearl from the Homeland Security 
and Defense Business Council, and Mr. David Maurer, Director of 
the Homeland Security and Justice Team at the U.S. Government 
Accountability Office.
    I now recognize myself for five minutes for an opening 
statement. I would like to welcome everyone to today's hearing, 
my first as chairman of the Subcommittee on Technology and 
Innovation. I look forward to working with you. We have a 
distinguished panel of witnesses before us who will discuss the 
Department of Homeland Security's research and development 
programs. At the outset, I wish to extend my appreciation to 
each of our witnesses for taking the time and effort to be here 
and appear before us today. Please know that your testimony 
will help the Members of this Subcommittee understand the 
strategic direction of research and development at the 
department, and determine how Congress can support efforts to 
ensure the security of our homeland.
    I am pleased to discuss activities at the Science and 
Technology Directorate and the Domestic Nuclear Detection 
Office at the Department of Homeland Security. The hearing will 
examine the recent reorganization of the Science and Technology 
Directorate, the strategic planning process, stakeholder 
involvement in setting research priorities and the role of 
research and development in the DHS S&T portfolio. Many of 
these areas reflect ongoing interest from Members of the 
Subcommittee. There will be two panels. The first panel will 
include Administration witnesses from DHS S&T and DNDO, and the 
second panel will include stakeholders of the DHS enterprise.
    This Subcommittee has always encouraged Administration 
witnesses to testify on panels with non-governmental witnesses, 
allowing for a beneficial interaction amongst stakeholders. 
While it is unfortunate that the two panels couldn't have 
served together this morning to provide a more cohesive 
conversation, the Subcommittee appreciates the opportunity to 
hear from both industry experts and senior agency officials.
    I note that the budget requests for DHS S&T and the DNDO in 
fiscal year 2012 cumulatively represent more than $1.3 billion. 
DHS S&T's budget would increase by 17 percent, however, most of 
this increase reflects the transfer of research and development 
programs from DNDO to DHS S&T. Excluding the DNDO transfer and 
new funding for the construction of a National Bio and Agro-
Defense Facility, the DHS S&T budget request represents an 11 
percent decrease.
    In the current budget environment, there continue to be 
concerns that DHS is having difficulty responding to immediate 
needs, while also pursuing basic research and development that 
can help with the long-term capabilities needed to protect the 
homeland in the future.
    In my home State of Arizona, violence and security issues 
along the border are, tragically, a regular occurrence. In a 
recent study conducted by the Government Accountability Office, 
the Border Patrol reported that only 44 percent of the border 
was under operational control. This has to be improved. I am 
particularly interested in learning about the research and 
development activities conducted by the DHS components before 
us today that support border security, as well as border 
crossing efficiency. How can we find ways to reduce the cost of 
maintaining our safe borders? Are technologies being developed 
to help support safe and secure crossings?
    Thanks again to our witnesses, and I look forward to a 
productive conversation.
    [The prepared statement of Mr. Quayle follows:]
               Prepared Statement of Chairman Ben Quayle
    Good morning. I'd like to welcome everyone to today's hearing, my 
first as Chairman of the Subcommittee on Technology and Innovation. I 
look forward to working with you all.
    We have a distinguished panel of witnesses before us who will 
discuss the Department of Homeland Security's research and development 
programs. At the outset, I wish to extend my appreciation to each of 
our witnesses for taking the time and effort to appear before us today. 
Please know that your testimony and wisdom will help the Members of 
this Subcommittee understand the strategic direction of research and 
development at the Department, and determine how Congress can support 
efforts to ensure the security of our homeland.
    I am pleased to discuss activities at the Science and Technology 
Directorate (S&T) and the Domestic Nuclear Detection Office (DNDO) at 
the Department of Homeland Security. The hearing will examine the 
recent reorganization of the Science and Technology Directorate, the 
strategic planning process, stakeholder involvement in setting research 
priorities and the role of research and development in the DHS S&T 
portfolio. Many of these areas reflect ongoing interest from Members of 
the Subcommittee. There will be two panels; the first panel will 
include Administration witnesses from DHS S&T and DNDO; and the second 
panel will include stakeholders of the DHS enterprise. This 
Subcommittee has always encouraged Administration witnesses to testify 
on panels with non-governmental witnesses, allowing for a beneficial 
interaction amongst stakeholders. While it is unfortunate that the two 
panels couldn't have served together this morning to provide a more 
cohesive conversation, the Subcommittee appreciates the opportunity to 
hear from both industry experts and senior agency officials.
    I note that the budget requests for DHS S&T and the DNDO in fiscal 
year 2012 cumulatively represent more than $1.3 billion. DHS S&T's 
budget would increase by 17 percent; however, most of this increase 
reflects the transfer of research and development programs from DNDO to 
DHS S&T. Excluding the DNDO transfer and new funding for the 
construction of a National Bio and Agro-Defense Facility, the DHS S&T 
budget request represents an 11 percent decrease.
    In the current budget environment, there continue to be concerns 
that DHS is having difficulty responding to immediate needs, while also 
pursuing basic research and development that can help with the long-
term capabilities needed to protect the homeland in the future.
    In my home state of Arizona, violence and security issues along the 
border are, tragically, a regular occurrence. In a recent study 
conducted by the Government Accountability Office, the Border Patrol 
reported that only 44 percent of the border was under operational 
control--this has to be improved. I am particularly interested in 
learning about the research and development activities conducted by the 
DHS components before us today that support border security, as well as 
border crossing efficiency. How can we find ways to reduce the cost of 
maintaining our safe borders? Are technologies being developed to help 
support safe and secure crossings?
    Thanks again to our witnesses, and I look forward to a productive 
discussion. With that, I now recognize the gentleman from Oregon, Mr. 
Wu, for his opening statement.

    Chairman Quayle. With that, I now recognize the gentleman 
from Oregon, Mr. Wu, for his opening statement.
    Mr. Wu. Thank you very much, Chairman Quayle.
    As this is our first hearing of this Congress of this 
Subcommittee, I want to take a moment to welcome you to the 
Full Committee and to this Subcommittee. We have already had a 
fruitful private meeting. I look forward to working with you 
and to find common ground on many of the important issues that 
fall within this Subcommittee's jurisdiction.
    I want to thank also Mr. Lujan, who will be the ranking 
member for the second half of this meeting. Here in the 
Congress, March Madness refers not only to basketball, but also 
to this pressing period when so many of our constituents come 
to Washington, D.C., for about a month-and-a-half to two-month 
period.
    And finally, I want to thank our first panel, Under 
Secretary O'Toole and Director Stern, for appearing before us 
today. I do believe that this marks the first time that either 
one of you has appeared before this Subcommittee, so welcome. I 
look forward to hearing your testimony.
    In fact, I couldn't be more pleased that our first hearing 
is on research and development at the Department of Homeland 
Security. The work that you do is critically important, 
literally life and death. It is work to keep the American 
people and our first responders safe. Precisely because the 
work you do is so important, we hold you to the highest of 
standards. We can't and should not ignore the problems that 
have plagued both the Science and Technology Directorate and 
the Domestic Nuclear Detection Office in past years. However, I 
do believe that both of you are taking energetic steps to get 
the components of your programs on the right track and I 
commend each of you for that.
    That being said, we need to do everything we can to make 
sure that things continue to improve. When I was chairman of 
this Subcommittee, I repeatedly expressed concern that the S&T 
Directorate did not effectively prioritize its research 
activities and I questioned whether its investments were 
targeted first to the most critical threats. I also criticized 
the Directorate for not being sufficiently responsive to the 
needs of its customers, its end users, particularly first 
responders, when developing new technologies, making research 
decisions and taking deployment issues into account.
    I recognize that efforts are well underway to address these 
problems, including the reorganization that was implemented 
late last year and the creation of the first responder IPT. I 
want to know when we can expect the rubber to hit the road with 
respect to these efforts and start seeing results. I also want 
to get an update on the status of your strategic planning 
efforts. When the Directorate last testified in front of this 
Subcommittee in 2009, we were told that a new and improved 
strategic plan was under development to supplement or replace 
the 2007 plan, which really wasn't of a long-term strategic 
nature, but here we are a year and a half later and we do not 
have an updated strategic plan in hand. I also want to learn 
about any new efforts including those reflected in the fiscal 
year 2012 budget request to carry our your responsibilities 
more efficiently and, more importantly more effectively.
    I also look forward to hearing from our second panel of 
witnesses about additional steps that the Directorate can take. 
In the past, I have also made my concerns clear over the 
testing and evaluation of technologies at DHS within the S&T 
Directorate, DNDO and other DHS components and the extent to 
which the results of those tests are guiding acquisition 
decisions. Is the testing rigorous enough? Is DHS evaluating 
the likelihood that a new technology will be accepted by those 
who will use it?
    Today I hope that we can get a good sense of what, if 
anything, S&T and DNDO are doing to help ensure that DHS's 
testing and evaluation shortcomings are indeed a thing of the 
past.
    Thank you again for being here and I look forward to your 
testimony.
    [The prepared statement of Mr. Wu follows:]
             Prepared Statement of Ranking Member David Wu
    Thank you, Chairman Quayle. As this is our first hearing of the 
Congress, I want to take a moment to welcome you. I am confident that 
we will find common ground on many of the important issues that fall 
within this subcommittee's jurisdiction, and look forward to working 
with you.
    I also want to thank our first panel, Under Secretary O'Toole and 
Director Stern, for appearing before us today. I believe this marks the 
first time that either of you have appeared before this subcommittee, 
so welcome. I look forward to hearing your testimony. In fact, I 
couldn't be more pleased that our first hearing is on research and 
development at the Department of Homeland Security. The work that you 
do is critically important--literally, life and death. It is work to 
keep us, our constituents, and our first responders safe.
    Precisely because the work you do is so important, we hold you to 
the highest of standards. We can't--and shouldn't--ignore the problems 
that have plagued both the Science & Technology Directorate and the 
Domestic Nuclear Detection Office in the past. However, I believe that 
both of you are taking the steps that need to be taken to get your 
components on the right track, and I commend each of you for that.
    That being said, we need to do everything we can to make sure that 
things continue to improve. When I was chairman of this subcommittee, I 
repeatedly expressed concern that the S&T Directorate did not 
effectively prioritize its research activities and questioned whether 
its investments were targeted to the most critical threats. I also 
criticized the Directorate for not being sufficiently responsive to the 
needs of its customers, particularly first responders, when developing 
new technologies and making research decisions.
    I recognize that efforts, are well underway to address these 
problems, including the reorganization that was implemented late last 
year and the creation of the First Responder IPT. I want to know when 
we can expect the rubber to hit the road with respect to these efforts 
and start seeing results. I also want to get an update on the status of 
your strategic planning efforts. When the Directorate last testified in 
front of this Subcommittee in 2009, we were told that a new and 
improved strategic plan was under development, but here we are--a year 
and a half later--without an updated strategic plan in hand. I also 
want to learn about any new efforts, including those reflected in the 
FY 2012 budget request, to carry out your responsibilities more 
efficiently and more importantly--more effectively. I also look forward 
to hearing from our second panel of witnesses about additional steps 
that the Directorate can take.
    In the past, I have also made clear my concern over the testing and 
evaluation of technologies at DHS--within the S&T Directorate, DNDO, 
and other DHS components--and the extent to which the results of those 
tests are guiding acquisition decisions. Is the testing rigorous 
enough? Is DHS evaluating the likelihood that a new technology will be 
accepted by those who will use it? Today, I hope that we can get a good 
sense of what, if anything, S&T and DNDO are doing to help ensure that 
DHS's testing and evaluation shortcomings are a thing of the past.
    Thank you again for being here. I look forward to your testimony.

    Chairman Quayle. Thank you, Mr. Wu.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our first panel of 
witnesses and then we will proceed to hear from each of them in 
order. Our first witness is Department of Homeland Security 
Under Secretary for Science and Technology Dr. Tara O'Toole. 
Prior to serving at DHS S&T, Dr. O'Toole was the CEO and 
Director of the Center for Biosecurity at the University of 
Pittsburgh Medical Center and Professor of Medicine and of 
Public Health at the University of Pittsburgh. Next we will 
hear from Mr. Warren Stern, the Director at the department's 
Domestic Nuclear Detection Office. Prior to joining DNDO, Mr. 
Stern served as the head of the International Atomic Energy 
Agency's Incident and Emergency Centre, where he led 
international efforts to prepare for and respond to nuclear and 
radiation emergencies.
    Thanks again to our panel for being here this morning. As 
our witnesses should know, spoken testimony is limited to five 
minutes each. After all witnesses have spoken, Members of the 
Committee will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Tara O'Toole, Under 
Secretary for Science and Technology at the U.S. Department of 
Homeland Security.

                STATEMENTS OF DR. TARA O'TOOLE,

            UNDER SECRETARY, SCIENCE AND TECHNOLOGY,

                DEPARTMENT OF HOMELAND SECURITY

    Ms. O'Toole. Thank you, Mr. Chairman, Ranking Member, 
distinguished Members of the Committee. It is a pleasure to be 
here today to talk to you on behalf of the Department of 
Homeland Security about the Science and Technology Directorate 
of which I became Under Secretary November 2009.
    S&T, as we refer to the Directorate, was one of the few 
pieces of the Department of Homeland Security to be created de 
novo in 2002 by an act of Congress, and it was given a huge 
task, that is providing research and development for all of the 
activities of this enormously broad set of missions which is 
the Department of Homeland Security. So we remain a young 
organization but I think we have evolved considerably over the 
past nine years and continue to do so.
    With your permission, Mr. Chairman, I would ask that my 
written testimony be entered into the record and I will 
summarize briefly some of the highlights.
    S&T is responsible for conducting all of the research and 
development, both basic and applied, needed by the components, 
the operating components, of the Department. We also have a 
statutory responsibility to serve the science and technology 
needs of the larger Homeland Security enterprise including 
first responders and other State and local entities who have to 
respond to disasters, intercept illegal aliens, et cetera, et 
cetera.
    I want to make clear that although we do a lot of work in 
developing or adapting technologies for use by Homeland 
Security, we also have a big responsibility to do assessments, 
analyses and develop knowledge products such as the bio threat 
risk assessment for the Department and for the entire Federal 
Government.
    S&T acts as the technical core of the Department of 
Homeland Security. Many of our operating components do not have 
rich R&D histories or experience bringing technology available 
in the public sector or in the private sector or being 
developed by universities into use, and we are their principal 
advisor in that endeavor and we hope to become ever more useful 
to the operating components in that capacity.
    We also maintain fundamental research investments in S&T in 
Homeland Security-related endeavors, particularly through our 
maintenance and funding of the Centers of Excellence, which now 
comprise over 200 universities across the country.
    This exceptional breadth of the Homeland Security mission 
which we are charged to serve and the urgency of the 
operational needs in DHS which we are trying to meet not only 
by increasing the capabilities of DHS components through new 
technologies but also by making their operations more 
effective, more cost efficient and safer requires us to be very 
clear about our priorities, to constantly reevaluate where we 
are investing and how we are doing and to be as efficient as we 
can within S&T as is feasible. We have R&D projects ongoing now 
in all five DHS mission areas: counterterrorism, border 
security, immigration, cybersecurity and disaster resilience. 
We have undertaken a strategic planning process and a 
realignment of the structural organization of S&T to help us 
deliver products and technologies to use in the field. Our 
first priority in that strategic planning was to deliver 
products to use in the field.
    There is, as is well known in R&D worlds, a very difficult 
transition, often referred as the valley of death that occurs 
after you have developed a successful prototype of a new 
technology that has been proven to work in an operationally 
realistic setting and deployment of that technology on a wide 
scale for routine use. Crossing that valley of death has many 
aspects to it, and we are very mindful of these different 
facets of transition in S&T but we have done a number of things 
to try and make that transition faster and more likely.
    First of all, we know from lots of experience in the R&D 
world generally that it is critically important to understand 
your user's needs in detail and with fidelity. We are making 
several moves to make sure that we understand what the 
components' mission needs are. Translating those needs into 
testable requirements against which you can build technologies 
is another critical step, and we have reorganized to create an 
office of operational analysis and acquisition support to help 
the components do just that: develop clear, testable 
requirements.
    Secondly, we are instituting a much more far-reaching and 
disciplined process of what we call technology foraging. We 
want technologies very quickly within a year or two but the 
usual R&D process to go from an idea developed on a laboratory 
bench to use in the world is about a decade, on average. So we 
want S&T to become extremely disciplined and very efficient at 
scanning the whole environment of available technologies in the 
commercial sector, in universities and other uses in the 
federal agencies and so forth to make sure that there isn't 
something out there that we can go and get and adapt to DHS 
uses. We do technology foraging now. We are going to become 
more disciplined, more effective and more far-reaching at it. 
An example of this is our new partnership with In-Q-Tel, which 
I would be happy to talk more about, but I want to end with a 
note on first responders.
    I am very focused on meeting their needs as required by the 
Homeland Security Act. I think we all recognize that their 
needs are different from those of the DHS components. Being a 
firefighter in a small town in Arizona is very different from 
meeting the requirements implicit in firefighters in New York 
City. So we have stood up a component office that is 
specifically focused on understanding the first responders' 
needs and delivering to them the knowledge products and the 
technologies that they most require, again in a timely and 
efficient way, and the head of that office is himself a former 
fire chief of Loudon County with a Ph.D..
    Mr. Chairman, I would be happy to answer further questions 
but I think I will stop there for now.
    [The prepared statement of Dr. O'Toole follows:]
                 Prepared Statement of Dr. Tara O'Toole

Strategy and Goals of the DHS Science and Technology Directorate

    Good afternoon, Chairman Quayle, Ranking Member Wu, and 
distinguished Members of the Subcommittee. I am honored to appear 
before you today on behalf of the Department of Homeland Security (DHS) 
Science and Technology Directorate (S&T). My testimony will describe 
the Directorate's strategic direction and top priorities, as well as 
some of the challenges facing our comparatively modest research and 
development (R&D) organization in our efforts to support the third 
largest federal agency.

Mission of the DHS S&T is Broad, Varied and Serves Many Partners

    The mission of the S&T Directorate is to:

    Strengthen America's security and resiliency by providing knowledge 
products and innovative technology solutions/or the Homeland Security 
Enterprisel. \1\
---------------------------------------------------------------------------
    \1\ The Homeland Security Enterprise is defined in the Quadrennial 
Homeland Security Review (QHSR) as ``the Federal, State, local, tribal, 
territorial, nongovernmental, and private-sector entities, as well as 
individuals, families, and communities who share a common national 
interest in the safety and security of America and the American 
population''.
---------------------------------------------------------------------------
    Congress created S&T as part of the Homeland Security Act of 2002 
to ``conduct basic and applied research, development, demonstration, 
testing, and evaluation activities relevant to any or all elements of 
the Department''. S&T also has a statutory responsibility to transfer 
useful technologies and information to state and local governments, the 
first responder community and the private sector. During the past eight 
years, S&T has undergone many changes and continues to mature. Because 
DHS's mission is so broad, S&T's work must address a wide and varied 
range of programs. DHS is primarily an operational agency, and its 
components need analyses and technologies that provide near-term 
improvements in operational effectiveness; our staff serves as the 
technical core of the Department. Moreover, some of S&T's most 
important contributions are not technologies alone, but knowledge 
products-assessments of technical problems or feasible solutions; 
analyses of complex issues; objective tests of proposed technologies; 
and the creation of consensus standards which enable cost-effective 
progress across many fields.

S&T Strategic Planning Process and Key Goals

    Shortly after I was confirmed as Under Secretary, S&T instituted an 
inclusive and comprehensive strategic planning process. All S&T 
employees were invited to participate in a questionnaire, and 
interviews were held with Congressional staff, first responder 
representatives, and leaders of the DHS components. We also held two 
off-site meetings to have more in-depth conversations with S&T senior 
executives and project managers. We heard similar messages from many 
directions, and used this input to establish our key goals for the next 
year. These are described below:

S&T Goal #1 - Rapidly develop and deliver knowledge, analyses, and

innovative solutions that advance the mission of the Department.

    This first goal is intended to place a strong emphasis on 
transitioning products to use in the field -a goal which is in keeping 
with the intense operational focus of the Department and the need for 
near-term improvements in operational capabilities, efficiencies and 
security. Research and development efforts are notoriously 
unpredictable. Research is inherently about discovery -but this path is 
rarely linear or straightforward. By its very nature, R&D takes a long 
time. The usual estimate of the time required for a ``new idea''-a 
novel understanding of how nature works-to be translated into effective 
technologies is about a decade, which is longer than S&T has been 
around. To implement the goal of transitioning products to use in the 
field, S&T must do three things well:

        <bullet>  We must become ``best in class'' at technology 
        foraging.

        <bullet>  We must invest more resources on the ``back end'' of 
        R&D projects, i.e. on transitioning projects through 
        operational testing and pilots to adoption by the customer.

        <bullet>  We must closely manage individual projects and 
        continuously review our entire R&D portfolio to ensure projects 
        are making clear progress and that we are investing in high 
        impact projects for DHS.

Becoming Best-in-Class at Technology Foraging

    Technology foraging refers to a complex process of scanning the 
horizon for technologies that are already in use or being developed, 
and adopting these technologies for new purposes, new environmental 
conditions, or at new scales. Technology foraging leverages the work 
being done in other federal agencies, at universities, by our 
international partners, and in industry against possible applications 
to DHS needs. The breadth and scope of DHS's mission, requires us to 
look at the good ideas and investments being made by others, to forage 
for solutions among existing ideas and technologies, and harvest them 
in the most cost-effective way possible. It is an extremely challenging 
task because of the vast and continuously shifting body of R&D 
unfolding in public and private sectors around the world. However, when 
done correctly, technology foraging can have a large impact on S&T's 
efficiency and effectiveness.
    Technology foraging has always been a part of S&T and has yielded 
some significant successes in the past year. For example, through our 
Integrated Product Team (IPT) Process, the U.S. Coast Guard (USCG) 
identified a need to be able to track small vessels approaching a 
seaport. While most large vessels have tagging systems for 
identification, there is a gap in our capability to track small vessels 
with no tag. Drug running and other illicit activities will use craft 
that lack the required communication and tracking devices. These ``dark 
boats'' represent a significant security and law enforcement challenge. 
S&T, in partnership with the National Oceanic and Atmospheric 
Administration (NOAA) and USCG, has developed software that can use 
currently deployed coastal NOAA weather radar systems to process the 
radar signal differently, enabling the USCG to identify and track small 
vessels. This is a new capability for the USCG that was realized with a 
relatively small S&T investment and leverages the already-deployed NOAA 
radar infrastructure.
    Another example is the investment in software by the Department of 
Defense (DOD) to predict high threat areas in Iraq where improvised 
explosive devices may be placed. S&T has worked with DOD to alter those 
computer programs so they can identify commercial aviation routes most 
at risk to a potential attack by analyzing flight information data, 
suspicious activity and other intelligence indicators. This information 
is used to help determine on which flights Federal Air Marshals should 
be deployed.
    We plan to institutionalize technology foraging best practices to 
ensure we harvest the best technologies, at the lowest cost, and in the 
timeliest manner possible.

Leveraging the Private Sector to Maximize Efficiency

    S&T has also begun engaging with the private sector through its 
investments in In-Q-Tel. In 1999, the CIA supp0l1ed the establishment 
of In-Q-Tel as a not-for-profit strategic investment firm designed to 
bridge the gap between new advances in commercial technology and the 
technology needs of the U.S. intelligence and security communities. 
Most In-Q-Tel investments combine funds from more than one partner 
agency, allowing S&T to leverage significant investments from the 
Intelligence Community. According to In-Q-Tel's figures, $1 of 
government investment can attract over $10 in private-sector funding. 
In addition to rapidly delivering innovative technologies to their 
government customers, In-Q-Tel also supports small businesses that may 
not normally work with the government. In-Q-Tel estimates that 
following investments via In-Q-Tel, companies have created more than 
10,000 jobs.

Overcoming Hurdles in Project Management

    Research and development efforts often confront difficulties when 
crossing the ``valley of death''-the phase of technology development 
between the creation of a successful prototype and the routine use of 
the technology in operational environments. There are many reasons for 
this gap. Successfully transitioning projects demands a close working 
relationship with the customer and a deep understanding of the 
operational needs and constraints associated with the problem to be 
solved. To better bridge this gap, it may be necessary on a case-by-
case basis for S&T to bear some of the costs of operational testing and 
piloting of new technologies. This could shift S&T spending to fewer 
projects as well as a continuous assessment of projects' progress.

Apex Projects Solve Strategic Component Needs

    S&T must also ensure that R&D investments meet the longer-term 
strategic needs of DHS and first responders. This is a challenging task 
in an environment where urgent operational needs are constantly 
pressing. To this end, and to provide DHS Component leaders with an 
understanding of S&T capabilities, we have instituted ``Apex'' 
projects, which are intended to collaboratively solve a problem of 
strategic operational importance. Each Apex project is a joint 
agreement between the head of a DHS operational component and me. 
Together, we must approve the project's goals and approach, providing a 
leadership imprimatur which energizes both S&T and the partner 
organization. Apex programs are team-based and interdisciplinary. Best 
practices learned in these projects will be documented and infused 
throughout the rest of our activities. S&T already has one Apex project 
underway, focused on improving the protective mission of the U.S. 
Secret Service. Another under development is a partnership with U.S. 
Customs and Border Protection to develop a secure transit corridor for 
goods shipped between Mexico, the U.S., and Canada.

Ongoing Review of the R&D Portfolio

    To ensure that individual R&D projects are meeting the goals 
established by our partners in the operating components and the broader 
homeland security enterprise (HSE), S&T has committed to an annual 
review of our portfolio of basic and applied R&D and all proposed ``new 
start'' projects. The review process consists of written materials, an 
oral presentation by the project manager, and careful analysis of the 
project's likely impact and feasibility (or ``riskiness'') as judged 
against specific metrics determined by S&T with input from the 
operating components. These metrics are designed to address elements 
essential to programmatic success in the context of the DHS's QHSR 
missions, namely:

        <bullet>  Impact: Is our portfolio making a significant impact 
        on our customer's mission?

        <bullet>  Transition: Are we transitioning relevant products to 
        the field?

        <bullet>  Technical Positioning: Is our investment positioning 
        the organization for the future?

        <bullet>  Customer Alignment: Are our projects aligned with 
        well-understood customer requirements?

        <bullet>  Customer Involvement: Do we have the appropriate 
        level of customer interaction?

        <bullet>  Innovation: Are we sufficiently innovative in the way 
        we approach our challenges?

    A review panel of S&T leaders, the DHS Component representatives, 
and outside experts evaluates and rates each project. By measuring all 
of our projects against this framework, we will: provide a transparent 
and ``shareable'' view of all R&D within S&T; enable more strategic, 
longer-term budget decisions; ensure efficient delivery to the 
component or end user; and nurture effective communication throughout 
the process. This particular review model has been used by both federal 
and private R&D organizations, including the prize-winning Army 
Engineering, Research and Development Laboratory.

S&T Goal #2 - Leverage technical expertise to assist DHS Components'

efforts to establish operational requirements, and select and acquire

needed technologies

    A critical part of successfully transitioning technology is gaining 
an accurate understanding of the customer needs at the beginning of the 
project. This is true not only for the technology products that S&T 
develops, but also for more near-term technologies that components may 
acquire from the commercial sector. In both cases, the specification of 
operational requirements is critical. While S&T has been statutorily 
designated the important role of independent Test and Evaluation 
authority within the DHS, this role addresses the ``back end'' of 
acquisition programs. S&T is currently working with the DHS Under 
Secretary for Management on a plan to use our collective expertise and 
resources to better address the ``front end'' of the acquisition cycle, 
namely, the translation of mission needs into testable requirements. To 
focus efforts in this area, S&T has established an Acquisition Support 
and Operations Analysis (ASOA) Group to provide a full range of 
coordinated operations analysis, systems engineering, test and 
evaluation, and standards development support to the DHS Components.

S&T Goal #3 - Strengthen the Homeland Security Enterprise and First

Responders' capabilities to protect the homeland and respond to 
                    disasters

    In addition to serving the technical needs of the DHS Components, 
S&T is also committed to addressing the needs of the larger HSE-
especially first responders-for technologies and knowledge based on the 
best science. The nation's first responder community incorporates a 
range of organizations, including law enforcement, fire suppression, 
emergency management, search and rescue, emergency medicine and public 
safety communications. Despite a wide array of defined 
responsibilities, their job descriptions vary dramatically based on 
geography, population, and climate. Above all, they are the groups we 
call upon to tackle unexpected events as they occur in real time, and 
must therefore maintain a wide breadth of expertise, adapt at a 
moment's notice, and protect citizens' lives. Additionally, 
communication poses significant challenges with first responder groups 
because of varying local, state, and national levels of hierarchy. 
Realizing this, S&T has made serving the homeland security needs of 
first responders a top priority. To this end, we have created an 
organization dedicated to understanding first responders' operational 
needs and delivering technologies, knowledge products, and services to 
the first responder community. Many of these technologies target 
improved interoperability, such as Virtual USA for federal, state, and 
local data sharing and multi-band radios for voice interoperability. 
They also range from everyday technologies, such as a lightweight self-
contained breathing apparatus for firefighters, to standards that many 
local agencies may only need occasionally, such as white-powder 
response standards.

S&T Goal #4 - Conduct, catalyze, and survey scientific discoveries and

inventions relevant to existing and emerging homeland security 
                    challenges

Supporting 12 University Centers of Excellence

    S&T relies upon the University Centers of Excellence (COEs) -a 
consortium of universities and colleges -to tap the expertise and 
resources of academia to provide critical homeland security tools, 
technologies, training, and talent. The COEs maximize S&T's investment 
by working closely with academia, industry, the DHS components, and 
first responders to develop customer-driven research solutions. Their 
collective portfolio is a mix of basic and applied research addressing 
both short-and long-term needs. To better tackle urgent needs, the DHS 
components can directly engage the COEs for specific research. To date, 
these DHS offices have invested a total of $22.6 million in targeted 
research programs, resulting in over 70 technologies for use across the 
HSE.

Investing in the Homeland Security Workforce of the Future

    S&T's university-based educational programs develop essential 
scientific and technical expertise through a suite of scholarship, 
fellowship, and research opportunities. These programs prepare the next 
generation of scientific and engineering leaders to work in the 
homeland security arena.
    S&T's Minority-Serving Institution (MSI) programs engage 
traditionally underserved universities in research and education to 
confront homeland security challenges and ensure that the face of 
America is reflected in the future homeland security science and 
engineering workforce. Our MSI Scientific Leadership Awards are 
designed to incorporate select MSIs into the fabric of the COEs and 
provide a path to technological employment for MSI students.

S&T Goal #59 Foster a culture of innovation and learning in S&T and

across DHS that addresses challenges with scientific, analytic, and

technical rigor

Build a Culture of Innovation and Learning

    The development and translation of science and technology from 
ideas to products requires technical competence, creativity, agility, 
sustained effort and strong teamwork. To maintain a high level of 
success, S&T needs to constantly evolve. We have to approach R&D 
problems from a multidisciplinary and collaborative perspective that 
can only be achieved by having experts from all fields working at close 
proximity in an open environment.
    S&T is working to truly achieve an ecosystem of innovation. We 
encourage collaboration through Apex projects that bring together teams 
of experts from all of our groups to focus on a single critical problem 
highlighted by our DHS partners. S&T is increasing the interaction 
between our program managers and Component operations to better 
understand operational constraints and conditions and deliver cross-
cutting products.
    We have recently expanded our access to online scientific journals, 
which are the lifeblood of scientific discourse. And we are reworking 
offices and collaborative spaces to create a more open environment 
while introducing new technologies that can help us communicate ideas 
and viewpoints. Our staff is highly educated and technical; however, 
that high level of technical knowledge is perishable. Scientists must 
constantly stay in tune with new developments in the field. We are 
starting new programs at our COEs to encourage our employees to pursue 
advanced degrees, increasing S&T's expertise and effectiveness.

Realignment of S&T

New Structure Emphasizes Cross-S&T Communications and Teamwork

    The structural realignment of S&T provides the organizational 
framework needed to implement our top strategic goals. The number of 
direct reports to the Under Secretary was reduced from 21 to 10, 
streamlining the chain of command. This structure allows for efficient 
interaction among four ``Group Leads,'' and creates a leadership cadre 
that spans the extent of S&T's work.
    The four Group Leads are:

        Homeland Security Advanced Research Projects Agency (HSARPA)

    The HSARPA Office includes seven technical divisions:

        <bullet>  Borders and Maritime Security

        <bullet>  Chemical/Biological Defense

        <bullet>  Cybersecurity

        <bullet>  Explosives

        <bullet>  Human Factors/Behavioral Sciences

        <bullet>  Infrastructure Protection & Disaster Management

        <bullet>  Special Projects (Classified and Intelligence-related 
        programs)

    The former office of cybersecurity has been elevated to a division 
within HSARP A. Uniting all of the technical divisions will encourage 
collaboration across divisions, and enable the interdisciplinary work 
that is required for today's R&D.

        Homeland Security Enterprise and First Responders Group

    As discussed in our goal to strengthen first responders' 
capabilities, S&T realizes that it takes a unique mindset, direct 
experience and an operating structure different from traditional R&D to 
understand and serve first responders. The first responder community is 
broad and varied and their challenges and opportunities differ from 
those of federal agencies.
    By establishing this Group, S&T will be able to respond to the 
different needs, acquisition methods, implementation requirements, and 
management structure of first responders. This group will put 
particular focus on improved best practices, standards for equipment 
and interoperability, and information sharing. Finally, the Group 
includes a leader and staff who have first responder backgrounds, 
including some who work or volunteer part-time in the field when not 
working at S&T. This Group consists of:

        <bullet>  Office for Interoperability and Compatibility

        <bullet>  Office of First Responder Technology Clearinghouse

        Acquisition Support and Operations Analysis (ASOA) Group

    Establishing the ASOA Group is part of the next evolution of S&T. 
My predecessor performed an invaluable service by connecting S&T 
projects to the operational DHS Components, developing the IPT process 
to identify component technology needs, and linking S&T investments to 
those needs. The ASOA Group will leverage S&T's critical mass of 
technical capability within DHS and will work with the Under Secretary 
for Management to: aid the components in developing high-fidelity, 
testable operational requirements for their acquisitions; aid in 
executing an analysis of alternatives to ensure that the most 
appropriate technical approach is taken; and partner with the 
components throughout an acquisition so that user needs are translated 
into real capabilities that can be validated upon delivery and deployed 
without delay. To do this, we've established three elements within 
ASOA:

        <bullet>  Capstone Analysis and Requirements Office

        <bullet>  Systems Engineering Office

        <bullet>  Test and Evaluation and Standards Division

        <bullet>  Research and Development Partnerships Group (RDP)

        The Research and Development Partnerships Group is comprised 
        of:

        <bullet>  Interagency Office

        <bullet>  International Cooperative Programs Office

        <bullet>  Office of National Labs

        <bullet>  Office of Public-Private Partnerships

        <bullet>  Office of University Programs

    The RDP was created to ensure that S&T has a rich ``situational 
awareness'' of-and is able to use and leverage-the scientific research 
and technology development occurring in the public and private sectors, 
across federal agencies, and in the international sphere. Furthermore, 
through RDP, S&T is fostering an openness to work collaboratively with 
these partners on challenges facing the Department.
    The Office of Public-Private Partnerships continues to increase its 
outreach to the private sector, gathering a growing repository of 
capabilities from over 500 small businesses potentially aligned to DHS 
technology needs. S&T's Small Business Innovation Research (SBIR) 
program and Long Range Broad Agency Announcement contracting vehicle 
are open solicitations designed to seek private sector ideas and 
technologies. Responses are reviewed by the S&T technical divisions 
seeking technologies that may be further developed with S&T funding.
    This outreach has already been a success. This year, an S&T staffer 
was awarded one of the eight Small Business Administration's 2011 
Tibbetts Award for outstanding service to small businesses in the SBIR 
program.
    The RDP acts as a critical portal to S&T, providing commercial 
entities with easy access to the information on DHS needs, while 
enabling S&T program managers to make connections across the entire 
horizon of R&D. RDP also allows S&T to leverage the investments and 
innovations of other federal agencies, foreign governments, 
universities and the private sector through mutually beneficial 
partnerships.

Conclusion

    S&T strives to provide cutting edge scientific knowledge, technical 
analysis, and innovative technologies to the third largest federal 
agency, to first responders, and to the HSE. The missions and technical 
needs of homeland security are broad in scope, varied, and constantly 
evolving. To meet the challenges of this mission, S&T must also evolve. 
I believe that the implementation of the strategic plan and our 
organizational realignment are important steps toward realizing the 
technical needs of homeland security.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on S&T's 
evolving strategic direction and other homeland security issues.

                     Biography for Dr. Tara O'Toole

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. O'Toole was sworn in as Under Secretary of the Science and 
Technology (S&T) Directorate at the Department of Homeland Security on 
November 12, 2009.
    Created at the same time as the Department, S&T's mission is to 
strengthen America's security and resiliency by providing knowledge 
products and innovative technology solutions for the Homeland Security 
Enterprise. S&T's partners comprise the Department of Homeland 
Security's operational components; first responders; the private sector 
and other members of the Homeland Security Enterprise. As Under 
Secretary for S&T, Dr. O'Toole oversees the Directorate and serves as 
the science advisor to the Secretary of Homeland Security.
    Dr. O'Toole is internationally known for her work on biosecurity 
and on health and safety issues related to the U.S. nuclear weapons 
complex. Prior to serving at S&T, Dr. O'Toole was the CEO and director 
of the Center for Biosecurity at the University of Pittsburgh Medical 
Center (UPMC) and Professor of Medicine and of Public Health at the 
University of Pittsburgh from 2003 to 2009. Prior to founding the UPMC 
Center, Dr. O'Toole was one of the original members of the Johns 
Hopkins Center for Civilian Biodefense Strategies, serving as its 
director from 2001 to 2003. At both centers, she created independent 
organizations dedicated to improving the country's resilience to major 
biological threats.
    Dr. O'Toole was a founding coeditor-in-chief of the journal 
Biosecurity and Bioterrorism: Biodefense Strategy, Practice, and 
Science. She was a principal author and producer of Dark Winter, an 
influential exercise conducted in June 2001 to alert national leaders 
to the dangers of bioterrorist attacks. She was also a principal writer 
and producer of Atlantic Storm, an international ministerial-level 
biosecurity exercise held in 2005. She is a member of the Council on 
Foreign Relations and served as chair of the board of the Federation of 
American Scientists.
    From 1993 to 1997, Dr. O'Toole served as Assistant Secretary of 
Energy for Environment, Safety and Health. In this position, she was 
principal advisor to the Secretary of Energy on environmental 
protection and on the health and safety of the approximately 100,000 
workers in the U.S. nuclear weapons complex and Department of Energy 
(DOE) laboratories. She developed the first overall management and 
safety plan for dealing with the highly enriched uranium, plutonium, 
spent fuel, and radioactive waste that had been left in place when 
nuclear weapons production was stopped in the early 1990s. She ran the 
multi-agency, multimillion-dollar task force that oversaw the 
government's investigations into human radiation experiments conducted 
during the Cold War. And she led the U.S. delegation to Russia to 
establish the U.S./Russia cooperative effort to study radiation 
exposure and environmental hazards of the Russian nuclear weapons 
complex.
    Prior to her work at DOE, Dr. O'Toole was a senior analyst at the 
Congressional Office of Technology Assessment (OTA). Dr. O'Toole also 
practiced general internal medicine in community health centers in 
Baltimore from 1984 to 1988. She is board certified in internal 
medicine and in occupational and environmental health.
    Dr. O'Toole holds a Bachelor's of Science from Vassar College, an 
MD from the George Washington University, and a Master of Public Health 
degree from Johns Hopkins University. She completed internal medicine 
residency training at Yale and a fellowship in Occupational and 
Environmental Medicine at Johns Hopkins University.

    Chairman Quayle. Thank you, Dr. O'Toole.
    Now I would like to recognize Mr. Warren Stern, Director of 
the Domestic Nuclear Detection Office at the U.S. Department of 
Homeland Security, to present his testimony.

             STATEMENT OF WARREN STERN, DIRECTOR OF

             THE DOMESTIC NUCLEAR DETECTION OFFICE,

                DEPARTMENT OF HOMELAND SECURITY

    Mr. Stern. Thank you, Chairman Quayle. Good morning, 
Ranking Member Wu and distinguished Members of the 
Subcommittee. I have submitted written testimony and I would 
like to now highlight some of the main points of that 
testimony.
    I have been at DNDO now for a little more than six months 
and I have tried to bring three basic principles: discipline, 
transparency and intellectual rigor. In terms of discipline, I 
am encouraging DNDO to focus on our legislative mandates and 
our Presidential directives. We also are going to be 
disciplined in our utilization of resources. We have developed 
a solutions development process which I believe we have 
provided to your staff which ensures that for any activity we 
undertake, material or non-material, we follow a process that 
ensures that there is proper coordination within DNDO and 
outside DNDO and at each transition point there is a stage gate 
to make sure that the basic requirements have been met before 
proceeding to the next part of the process, but this discipline 
I think will help ensure that some of the problems we faced in 
the past we won't face in the future.
    In terms of transparency, I fundamentally believe that we 
need to make sure that Congress is aware of all of our 
activities, and I will do my best to make sure that your staff 
is aware of our projects currently and planned and we try our 
best to be transparent with the public too.
    In terms of intellectual rigor, I am trying very hard to 
ensure that all of our activities have the intellectual rigor 
that will allow outsiders to examine what we do and to defend 
what we have done in an intellectually honest way.
    Within the context of these three principles, one of the 
first things we did when I arrived at DNDO was to develop a 
GNDA strategic plan. Congress had pressed for such a strategic 
plan for several years. We worked hard with seven different 
agencies and within four months delivered to Congress this 
strategic plan, which you should have. I think that plan and 
the effort involved reflected those three principles: the 
discipline to deliver something to you on time, the 
transparency which the plan gives to you, and the intellectual 
rigor which was necessary to go into the plan.
    In terms of strategic changes I am working within DNDO to 
bring is the way we look at the architecture. We have looked at 
the architecture in a very static way, which has the problem in 
terms of intellectual rigor in that looking at the architecture 
this way doesn't reflect physical reality. It is extremely hard 
to detect certain types of nuclear material and it is quite 
likely that in the case of some sort of illicit trafficking of 
nuclear material or weapons or radiological material or 
weapons, there will be some intelligence information, so the 
new way we are trying to look at the architecture is 
intelligence-informed architecture and we are developing 
scenarios with the intelligence community and we are going to 
try our best to develop an architecture that can respond to the 
information that may be available. I believe this is the most 
intellectually rigorous way we can approach the architecture, 
and I also believe this approach will allow us to develop 
metrics to deliver to Congress that will help ensure that you 
are able to judge our degree of success in developing the 
architecture.
    In terms of technology development testing and evaluation, 
there are two key changes we hope to implement and are 
beginning to implement at DNDO. First, in terms of testing, as 
you may know, the National Academy of Sciences has recommended 
that we move to what is called the model test model approach 
for examining new technology, and we are in fact doing that. 
Historically, we have done actual testing to examine different 
systems, physical testing. By moving to a model test model 
approach, we can in a sense make a model or have industry make 
a model, test to the model and then examine a number of 
scenarios with the model so we fully endorse the National 
Academy recommendation for testing and we are moving very 
quickly in that direction.
    In addition, we are looking outside in terms of 
transitioning detector technology that exists outside to a 
greater extent than we have before. We find ourselves now six 
years after the creation of DNDO in a situation where a lot of 
technology that didn't exist in the commercial sector six years 
ago does exist now and so we are going to enhance our focusing 
in developing standards and testing and modeling to those 
standards based on technology that is available in the 
commercial world. Now, that doesn't mean we won't be doing 
internal development. There are certain elements, certain 
technologies that just don't exist in the commercial world, and 
through our various parts of DNDO we will be developing new 
technologies and both pushing out to users and trying to ensure 
that users can pull technologies out from us. One of the good 
examples is this long-range radiation detector system which to 
me is really the first new piece of technology I have seen in a 
long time and we are pushing out this to engineers in a 
demonstration in a few weeks, first responders, the military, 
others, so they can examine and see if there are applications 
for this.
    With that, I would just like to conclude. Again, thank you 
again for the opportunity to talk before you and answer your 
questions. Chairman Quayle, Ranking Member Wu, I am happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Warren M. Stern follows:]
               Prepared Statement of Mr. Warren M. Stern

Introduction

    Good morning Chairman Quayle, Ranking Member Wu, and distinguished 
Members of the Subcommittee. Thank you for the opportunity to appear 
before you today with my colleague Dr. O'Toole to discuss research and 
development (R&D) programs at the Department of Homeland Security 
(DHS). In order to fully express the Domestic Nuclear Detection 
Office's (DNDO) R&D efforts, I would first like to share my strategic 
vision for DNDO and provide insights into our programs.
    The Domestic Nuclear Detection Office's (DNDO) mandate is to 
improve the nation's capability to detect and report unauthorized 
attempts to import, possess, store, develop, or transport nuclear or 
radiological material for use against the nation, and to further 
enhance this capability over time. With assistance and participation 
from a wide variety of U.S. government departments and agencies, DNDO 
synchronizes and integrates inter-agency efforts to develop technical 
nuclear detection capabilities, characterizes detector system 
performance, ensures effective response to detection alarms, integrates 
nuclear forensics efforts, coordinates the global detection 
architecture and conducts a transformational research and development 
program for advanced technology to detect nuclear and radiological 
materials. Countering nuclear terrorism is a whole-of-government 
challenge and DNDO must work with federal, state, local, international, 
and private sector partners to develop and implement the Global Nuclear 
Detection Architecture (GNDA).

Three Principles

    My strategic vision for DNDO is based on three key principles that 
I think will help shape the office and all our activities: discipline, 
intellectual rigor, and transparency.
    One of the first things I would like to build upon at DNDO is the 
discipline with which we approach our work. In DNDO's nearly six years 
of existence, the office has embarked on many efforts to enhance the 
GNDA, but in order to ensure that we address the most pressing and 
impactful needs, we must carefully review all our plans and 
expenditures so that we exercise discipline in utilization of 
resources. While we have implemented a range of measures designed to 
provide oversight and instill appropriate processes for administrative, 
management, and program activities within DNDO, we must find ways to be 
more efficient, especially in the current budget climate.
    Building upon a disciplined approach to executing our mission, we 
must also ensure that there is intellectual rigor behind our analyses, 
strategies, and programs. Our decision making and planning must be 
supported by strong methodologies and analyses. This includes making 
use of available expertise and tools, like peer review, that can assist 
us in developing the best strategies and solutions. We must make sure 
that our assumptions, strategies, and solutions reflect thoughtful and 
deliberate analyses and defensible conclusions.
    Finally, I support increased transparency at DNDO. Transparency is 
essential in providing an understanding of our mission and receiving 
the necessary oversight and feedback to improve our operations. I 
pledge that DNDO will work with all relevant stakeholders and provide 
as much insight as possible into our programs and planning for our 
partners, including Congress, the Government Accountability Office 
(GAO), and the American public. Working within all applicable laws and 
classification regulations, we will provide as much information as 
possible about our programs.

GNDA Strategic Plan

    As you may know, National Security Presidential Directive (NSPD)-
43/Homeland Security Presidential Directive (HSPD)-14 and the Security 
and Accountability For Every (SAFE) Port Act of 2006 (P.L. 109-347) 
require that DNDO be the lead federal agency for coordinating the and 
implementing the domestic portion of the GNDA. We worked with federal 
partners to define the GNDA and the necessary roles, responsibilities, 
and objectives. Completion of this strategic plan was a priority when I 
took the lead at DNDO.
    The GNDA is an interagency product that represents the inputs of: 
the departments of Defense, State, Energy, and Justice; the Office of 
the Director of National Intelligence; Intelligence Community members; 
the Nuclear Regulatory Commission; and the National Security Staff. The 
completion of the GNDA Strategic Plan represents a high degree of 
cooperation and coordination among the interagency to create a document 
that will guide multiple U.S. government efforts to fulfill the 
objectives and goals set forth in the plan. I am proud to say that we 
were able to deliver the GNDA Strategic Plan to Congress in December 
2010, as promised.
    Implementation of the GNDA is an ongoing process. Currently, there 
are many existing programs and initiatives that fall under the GNDA and 
many more programs that support these efforts. Using the Strategic Plan 
as a framework, DNDO will continue to work with interagency partners on 
GNDA implementation. DNDO's forthcoming domestic implementation plan 
will outline programs, technologies, execution, and timelines in 
greater detail.
    DNDO will also complement the GNDA Strategic Plan with a revised 
GNDA annual review report. The annual report, required by Congress 
under the ``Implementing Recommendations of the 9/11 Commission Act of 
2007'' (Pub. L. 110-53), will provide a means to evaluate, document and 
track progress to assist in refining the GNDA. It will also link the 
U.S. government's organizational roles and responsibilities to the 
GNDA's goals, and identify the analyses and investments necessary to 
achieve those objectives. Like the Strategic Plan, the GNDA annual 
report will be jointly produced and approved by all relevant USG 
stakeholders.
    Within DNDO we will place much greater emphasis on defining the 
GNDA, both as it exists now and as we determine it should exist in the 
future. The responsibility to define the architecture is DNDO's 
greatest challenge and its greatest opportunity. Over the next years, 
our long-term architectural vision can be characterized by several 
common themes that apply across all layers. In every layer and pathway 
we will seek to increase detection coverage and capability and deter 
terrorists from planning or attempting nuclear terrorism. The 
architecture will also introduce uncertainty for adversaries with 
regard to the risk of interdiction, and take maximum advantage of 
existing activities that can contribute to the overall capability to 
prevent nuclear terrorism.

Strategic Emphasis

    Our future enhancements to the domestic architecture will focus on 
situations where there is some intelligence information available, but 
where information may not be precise. Future implementations of the 
GNDA will emphasize mobile or agile detection components, which will 
increase our capability to respond to escalated threat levels by 
focusing detection assets to interdict these threats. These threats 
will impact the way we move forward with deployments and systems 
development, as well as how we provide support and training to build 
effective operational concepts. We will use existing capabilities and 
assets, on a federal, State, and local level, to surge our radiological 
and nuclear detection abilities in a coordinated fashion to respond to 
suspected threats or radiological/nuclear detection scenarios. This 
will not be one specific program, rather a concept of operations that 
will bring together multiple capabilities and rely on a breadth of 
assets.
    We need to utilize the integrated efforts of federal, state, and 
local responders to perform radiological and nuclear detection in 
concentrated regions or areas when information indicates there may be a 
need for responsive search operations for preventive detection. We have 
many programs, assets, and capabilities that contribute to radiological 
and nuclear detection response activities, and we must work to enhance 
coordination and implementation mechanisms to ensure that we make the 
best use of all available personnel, equipment, and knowledge. A more 
flexible architecture will strategically bring together the assets and 
capabilities for detection and search operations into a unified effort 
for the domestic prevention of radiological and nuclear terrorism. Some 
current programs have begun to establish more randomized and mobile 
capabilities with broad applications, including the radiological and 
nuclear detection equipment and training DNDO has provided for all U.S. 
Coast Guard boarding teams and Transportation Security Administration 
Visible Intermodal Prevention and Response teams. We have recently 
reached an important milestone for the development of advanced handheld 
systems, which were developed through DNDO and approved for production 
and deployment in September 2010. This system is the first of DNDO's 
next generation human-portable systems and will be acquired for U.S. 
Customs and Border Protection and other users in support of their 
operations. Following the success of our advanced handheld, the small 
area search handheld system, RadSeeker, will be ready for a production 
and deployment system this year. Our work will continue to enhance our 
federal capabilities and build on these efforts in a strategic way so 
that the pieces are linked together and can respond as needed.
    DNDO also has a number of separate state and local pilot programs 
and training efforts that can contribute to distributed, agile 
capabilities to develop an effective domestic architecture. My 
objective for 2011 is to increase our focus on DNDO state and local 
support programs and consolidate the efforts into an integrated 
program. One element for doing that is the Securing the Cities (STC) 
initiative. The current STC pilot was initiated in the New York City 
region and has resulted in unprecedented regional cooperation among 
federal, state, county, and city agencies in the Tri-state region. The 
STC program provides assistance to state and local jurisdictions, which 
enable these entities to build and sustain capabilities by: deploying 
current technologies regionally in a coordinated manner; designing, 
acquiring, and deploying a regional architecture for radiological/
nuclear detection focused on state and local jurisdictions; developing 
and implementing a common, multi-agency concept of operations (CONOPS) 
for sharing sensor data and resolving alarms; and instituting training 
and exercising by the regional agencies to execute the CONOPS at a high 
level of proficiency. STC partners in the New York region use 
commercially available radiological and nuclear detection equipment and 
work with DNDO to establish requirements and conduct operational 
assessments of equipment in the development stages. The President's FY 
2012 budget request outlines a transition from the STC pilot to a 
three-phased program that will continue in NYC and commence in another 
UASI Tier I region. DNDO will assist regional partners in implementing 
self-supported sustainment of capabilities and real-time sharing of 
data from fixed, mobile, maritime and human-portable radiation 
detection systems.

New Approach for Technology Development, Test, and Evaluation

    As we develop solutions that support flexible, coordinated 
capabilities and a deeper understanding of an effective architecture, 
we need to continue to improve our technological capability. DNDO is 
mandated to serve as ``the primary entity in the U.S. Government to 
further develop, acquire, and support the deployment of an enhanced 
domestic system to detect and report on attempts to import, posses, 
store, transport, develop . . . ''1A\1\ nuclear weapons or materials. 
Historically, we have focused on developing technology and detection 
systems to address identified needs. We are now transitioning to a new 
approach, focusing on commercially developed devices, developing 
government standards, and testing to those standards. Because industry 
has repeatedly demonstrated the ability to rapidly improve detection 
technologies, we have an opportunity to shift our approach to one that 
is more flexible and adaptable and relies on the private sector--as 
well as other DHS components--to enhance existing products and develop 
new devices. This technical transition will also include a new approach 
at the systems level, which defines strategic interfaces at various 
points in the detector/system architecture, allowing improvements 
without wholesale changes to the entire system.
---------------------------------------------------------------------------
    \1\ Security and Accountability For Every Port Act of 2006 (SAFE 
Port Act, P.L. 109-347, Sec. 1802)
---------------------------------------------------------------------------
    DNDO will place greater emphasis on developing standards for 
radiological/nuclear detection equipment and testing to those 
standards, while taking advantage of the technological advancements 
made by the private sector and building upon those efforts. In 
addition, we will enhance our approach to testing to reflect the 
recommendations of the recent report from the National Academies of 
Sciences, which encouraged us to more heavily integrate detector 
modeling. Data collected in the field can then be used with the models 
to understand system behavior instead of relying on new testing alone.
    Testing and evaluating systems to achieve technical and operational 
standards is crucial in developing and delivering the necessary 
equipment to our stakeholders. DNDO is required by the SAFE Port Act 
``to carry out a program to test and evaluate technology for detecting 
a nuclear explosive device and fissile or radiological material, in 
coordination with the Secretary of Defense and the Secretary of Energy, 
as appropriate.'' In response, DNDO has conducted more than 50 separate 
test and evaluation campaigns at more than 20 experimental and 
operational venues. These test campaigns were planned and executed with 
the interagency using rigorous, reproducible, peer-reviewed processes. 
Tested detection systems include pagers, handhelds, portals, backpacks, 
mobiles, boat- and spreader bar-mounted detectors, and next-generation 
radiography technologies. The results from DNDO's test campaigns have 
informed federal, state, local and tribal operational users on the 
technical and operational performance of radiological and nuclear 
detection systems to select the most suitable equipment and effective 
CONOPs as we work to keep the nation safe from nuclear terrorist 
threats.
    DNDO is also required by the SAFE Port Act, in collaboration with 
the National Institute of Standards and Technology, to publish 
technical capability standards and recommended standard operating 
procedures for the use of nonintrusive imaging and radiation detection 
equipment in the United States. In executing its T&E and Standards 
responsibilities, DNDO collaborates with the Test & Evaluation and 
Standards Division of DHS S&T. This collaboration includes coordination 
of American National Standards Institute (ANSI) N42 consensus 
standards, major systems operational testing and evaluation, including 
large programs like the Advanced Spectroscopic Portal (ASP) program, 
the implementation of DHS T&E guidance in smaller systems development 
efforts, and coordination of T&E facilities. The DNDO T&E lead 
participates on the DHS T&E Council, and DNDO T&E staff has made good 
use of T&E training and certification capabilities developed by S&T.
    We also have supported the development, publication and adoption of 
national consensus standards for radiation detection equipment. Several 
such standards now exist for use in homeland security. The DNDO 
Graduated RN Detector Evaluation and Reporting (GRaDER<SUP>SM</SUP>) 
Program is using these standards to test and evaluate both commercially 
developed systems. GRaDER is a conformity assessment program that 
provides independent standards compliance information for selected 
radiation detection equipment. The program has created the 
infrastructure for vendor voluntary testing of commercial off-the-shelf 
radiological/nuclear detection equipment by independent accredited 
laboratories against national consensus standards and government-unique 
Technical Capability Standards. Final test results for our initial 
GRaDER testing are expected beginning this month. We anticipate that 
the GRaDER Evaluated Equipment List--which is supported by the Federal 
Emergency Management Agency's guidance for compliance in relation to 
their grants program--will enable federal, state, local, tribal and 
territorial agencies to make more informed radiological/nuclear 
detector procurement decisions by ensuring they are buying equipment 
that has demonstrated compliance with published standards.
    Beyond our work with Component partners, DNDO's testing expertise 
and experience is sought by interagency partners, such as the 
departments of Energy and Defense, and international partners such as 
the United Kingdom, Canada, Israel, the European Union, and the 
International Atomic Energy Agency. DNDO has an active partnership with 
the European Commission's Joint Research Center to conduct the Illicit 
Trafficking Radioactive Assessment Program+10, an ambitious three-year 
test program to evaluate nine classes of radiological/nuclear detection 
systems in U.S. and European test facilities.

Research and Development: Programs and Coordination

    The Transformational and Applied Research (TAR) programs at DNDO 
support basic and applied research of systems with increased 
capabilities. I will describe the TAR portfolio as it currently exists 
within DNDO. Our research and development contributes to advances in 
nuclear detection and technical nuclear forensics. TAR projects feed 
into the DNDO Solutions Development process and shape our work on 
systems development. Within DNDO, these programs address advanced 
compact high-performance handheld systems; advanced passive standoff 
detection technologies; improved detection through networked and 
distributed detection systems; better detector materials; and improved 
material characterization and radiochemistry. Additionally, DNDO is 
pursuing targeted technologies for the detection of shielded special 
nuclear material through passive, active, and radiographic 
interrogation programs, and the development of key supporting systems 
for varied deployment schemes. TAR divides projects between the 
Exploratory Research Program (ERP) and the Near Term Research Program 
(NTRP). Underlying these efforts is our work to ensure a continued 
pipeline for human capital development and basic research, executed 
through DNDO's partnership with the National Science Foundation for the 
Academic Research Initiative. Currently, the Academic Research 
Initiative has awards with 30 universities through 36 grants supporting 
118 students.
    The ERP explores innovative, high-risk, early-stage technologies, 
concepts and ideas that can make transformational contributions to 
support the GNDA and reduce the risk of nuclear terrorism. 
Specifically, the ERP researches technology and techniques that: 1) 
address capability gaps and weaknesses in the GNDA, with an emphasis on 
radiological and nuclear detection; 2) provide substantial performance 
improvement or cost reductions of radiological/nuclear detection 
capabilities; and 3) improve nuclear forensics capabilities. Efforts 
under the ERP are intended to transform the basic building blocks of 
nuclear detection technology and supporting fields for dramatic 
improvements in technical capabilities, with the research generally 
culminating in a proof of concept or proof of feasibility demonstration 
in a laboratory setting. Successful ERP technologies and concepts may 
then transition to support a subsequent near-term research project or 
spur commercial development. ERP also provides performance modeling, 
improved algorithm development, and other support capabilities for the 
broader DNDO mission.
    Additionally, our ERP work began exploring options for alternative 
neutron detection, years before the recent helium-3 shortage was 
identified. Helium-3 is commonly used as a neutron detector material in 
radiation detection equipment. Our exploratory research projects have 
been developing near and long-term alternatives to helium-3 neutron 
detectors for different applications, including portals, backpacks, 
handhelds, and pagers. These technologies are aimed at achieving 
efficiencies and discrimination capabilities that are equivalent to or 
better than helium-3 detectors, as well as examining detector cost-
competitiveness. Approximately 15 different technology approaches are 
being pursued, including those based on boron or lithium.
    Some of these technologies have advanced to a point where they 
could be tested with other alternative neutron detection technologies. 
We have completed a test campaign for neutron detection at Los Alamos 
National Laboratory that evaluated 11 units in three application 
spaces, which helped us to identify and verify the performance of 
several very promising technologies and effectively target funding.
    The second program within TAR is the NTRP, which performs 
accelerated development, characterization, and demonstration of 
leading-edge technologies to address critical gaps in nuclear detection 
capabilities. The NTRP was started in 2006 and was formerly called the 
Advanced Technology Demonstration (ATD) Program.
    Contracts awarded under the NTRP are typically executed in four 
distinct phases: preliminary design review, critical design review, 
characterization readiness review, and characterization assessment. The 
NTRP characterization results form the basis for a subsequent initial 
cost benefit analysis to determine if the technology should transition 
to system development and eventual production and deployment.
    Our basic and applied research efforts push the envelope by 
identifying gaps in current technologies and architectural needs and 
selecting R&D programs that can begin the early stage work necessary to 
address these challenges. Our programs must be able to reach out to 
operators for user requirements and to balance both ``technology push'' 
and ``technology pull'' efforts, as appropriate. For technology push 
efforts, the developer of a technology is pushing a new concept out for 
examination by the operator. These are often new or advanced concept 
detectors that could improve threat detection or allow for altered or 
simplified CONOPS. These technology push systems are often state-of-
the-art with enhanced or dramatically improved capabilities that might 
be otherwise unknown to operators. Technology pull refers to equipment 
and programs where operators have identified CONOPS and features that 
they need in order to achieve their missions. The operators are pulling 
the technologies in directions that guide development for industry and 
the government.
    Many of our important research and development successes highlight 
the necessity of integrating architectural analyses with R&D efforts. 
One example of DNDO's R&D work that is transitioning through technology 
push efforts is our Long Range Radiation Detection (LRRD) program. The 
LRRD program is the follow-on program to the Stand-Off Radiation 
Detection Systems (SORDS) ATD program, completed in FY 2010. The 
overarching goal of the LRRD program is to determine if a passive, 
long-range, radiological/nuclear detection system with localization 
capability should be developed and fielded. To achieve this goal, the 
LRRD program will allow systems developers to determine if there is a 
need, identify that need with a gap in the GNDA, and evaluate whether 
that need can be met in a cost effective manner. Next, we must collect 
user requirements and perform an analysis of alternatives, the result 
of which helps us determine if we will field one or more systems.
    The LRRD systems are undergoing a series of activities that engage 
federal, state, and local partners in utilizing and assessing the 
technology. Participating in these activities are two SORDS prototypes 
and the Roadside Tracker (RST), which were developed through the ERP. 
The SORDS technologies are designed to detect and identify sources from 
100 meters away on a mobile platform, and the RST is designed to detect 
and identify sources in vehicles over five lanes of traffic at speeds 
of up to 70 mph. An operational demonstration will evaluate the 
potential utility of these systems in a simulated urban environment, 
and follows the technology demonstration that was conducted at Fort 
Belvoir in November 2010. Next week, the operational demonstration will 
include the cooperative efforts of DNDO, Fort Indiantown Gap Military 
Reservation, the 3rd Civil Support Team, Nassau & Suffolk County Police 
Departments, the Department of Energy's National Nuclear Security 
Administration, and the Defense Threat Reduction Agency. Following the 
completion of the operational demonstration, we will work with the 
Nassau & Suffolk County Police Departments to provide a live 
demonstration of the LRRD systems for radiological/nuclear scanning at 
a real event. The live demonstration will allow operators to use the 
systems and provide feedback for future technology and CONOPS 
development. This project is illustrative of the important interplay 
between R&D efforts, technical and operational evaluation activities, 
and operators in the field, which all together lead to the best 
solutions.
    As Under Secretary O'Toole mentioned, the FY 2011 and FY 2012 
President's Budget Requests transfer our TAR activities to DHS S&T, 
pending Congressional approval of the budget. In order to maintain and 
improve the current levels of integration for transformational research 
and development activities and transitions of technologies for use by 
operators, my office will work closely with S&T to ensure that the 
pipeline for technological advancements remains coordinated to address 
gaps in the GNDA and operational needs.

Nuclear Forensics

    DNDO has an additional mandate, codified last year in the ``Nuclear 
Forensics and Attribution Act'' (P.L. 111-140), to provide stewardship 
and integration for U.S. government technical nuclear forensics 
efforts. Nuclear forensics is a key supporting element to the GNDA and 
must be closely linked in order to receive relevant information and 
provide data and analyses that can impact detector development, tuning, 
and deployment. Established in 2007, DNDO's National Technical Nuclear 
Forensics Center (NTNFC) serves as a national-level ``system 
integrator'' for joint planning, exercising and evaluating our national 
capabilities, while also investing in technical capability advancement. 
Last year, the NTNFC led the interagency effort to develop the 
``National Strategic Five-Year Plan for Improving the Nuclear Forensics 
and Attribution Capabilities of the United States,'' which was signed 
by the President and submitted to Congress. NTNFC also has the 
responsibility to develop the U.S. government's capability to rapidly, 
accurately and credibly identify the origin and history of radiological 
and nuclear materials intercepted before a detonation. We work with 
laboratory experts to develop standard reference materials for the 
validation of analytical methodologies; develop validated methodologies 
to be employed in nuclear forensics activities; and develop and 
validate predictive models and techniques to improve the understanding 
of how material signatures.

Conclusion

    My vision of DNDO is for us to continue to improve our work 
developing a broad spectrum of capabilities, including nuclear 
detection, reporting and analysis, and nuclear forensics. Our 
responsibilities include coordinating the development of the GNDA and 
implementing the domestic portion of that architecture. We also must 
provide the analyses and integration mechanisms for detection and 
reporting that will link technical elements like research, systems 
development, testing and evaluation to operational solutions for 
mitigating the threat of nuclear terrorism. Our research and 
development work will consistently be matched with needs in the GNDA 
and the operational requirements of our end users. My hope and 
expectation is that, over time, we will develop a reputation that 
allows us greater leverage in defining detection architecture 
throughout the world.
    Other U.S. government agencies and Congress make important 
contributions in accomplishing the mission to prevent nuclear 
terrorism, and I am committed to working in coordination with all 
parties to develop effective strategies, capabilities, and 
technologies.
    Chairman Quayle, Ranking Member Wu, I thank you for this 
opportunity to discuss DNDO's strategic direction and my vision for its 
future. I am happy to answer any questions the Subcommittee may have.

                   Biography for Mr. Warren M. Stern

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Stern is the Director of the Domestic Nuclear Detection Office 
(DNDO), a position he has held since August 2010. Prior to joining 
DNDO, Mr. Stern served as the Head of the International Atomic Energy 
Agency's (IAEA) Incident and Emergency Centre from August 2006 to March 
2010-where he led international efforts to prepare for and respond to 
nuclear and radiation emergencies and helped create the IAEA's Response 
Assistance Network.
    Mr. Stern began his career in 1985 at the Central Intelligence 
Agency, then served as the Senior Technical Advisor in the U.S. Arms 
Control and Disarmament Agency-where he advised senior U.S. officials 
on nonproliferation and nuclear security issues-from July 1990 until 
May 1999.
    He later served as a Fellow in Senator Hillary Clinton's office in 
2003-providing guidance on nuclear energy, waste, safety and security 
issues and helping to write the Dirty Bomb Prevention Act-and went on 
to serve as the Department of State's Senior Coordinator for Nuclear 
Safety and Deputy Director of the Office of Nuclear Energy, Safety and 
Security.
    Mr. Stern received his M.S. in National Security Studies from the 
National War College, his M.S. in Nuclear Engineering from the 
Massachusetts Institute of Technology, and his B.A. in Physics from 
Brandeis University.

    Chairman Quayle. Thank you, Mr. Stern. We are going to move 
into the question portion. I want to remind Members that 
committee rules limit questioning to five minutes, and at this 
point I will open up the questions and recognize myself for 
five minutes.
    My first question is to you, Mr. Stern. Much of the DNDO 
R&D has been proposed to be transferred from your office to the 
S&T Directorate. What R&D will be housed at DNDO after that 
transfer to the Directorate?
    Mr. Stern. Sure. I appreciate the question. Within the 
DNDO, we are structured in a way that goes from long-range 
research, very basic research, to the actual production and 
acquisition of equipment. What is proposed to be moved is the 
transformational and applied research Directorate within TAR 
that does what you might call more basic research. Even within 
TAR, there are subdivisions but it is that part of the R&D that 
is proposed to be moved to S&T.
    Chairman Quayle. You are now focusing more along the lines 
of commercially developed devices and establishing government 
standards. Is that the appropriate role for DNDO given the 
challenges of commercialization, and because of NIST's 
involvement with establishing government standards?
    Mr. Stern. An excellent question. I mean, the first point 
is, we work extremely closely with NIST and ANSI in developing 
standards, so together we develop standards. I believe it is 
one of our statutory and explicit responsibilities, actually, 
so we have clear roles and responsibilities and I don't think 
there is really a conflict in the things that we do with NIST 
to establish roles and standards.
    Chairman Quayle. Thank you.
    Dr. O'Toole, when they canceled SBInet recently, was there 
some technological consideration in making that decision, and 
what was your role in that decision-making process?
    Ms. O'Toole. When Commissioner Bersinn and Secretary 
Napolitano started considering whether to proceed with SBInet 
as originally planned or altered that plan, S&T served on the 
executive board for the analysis of alternatives, which looked 
at various suites of technology that we could use to substitute 
for what was then being developed by the Boeing Corporation, 
and we also served on the executive board for the Southwest 
Border Technology Initiative and CBP.
    Chairman Quayle. Will S&T be involved in that process going 
forward as DHS looks for a replacement for virtual fence or 
whatever technological advances DHS puts down at the border? 
Will S&T be involved in that process?
    Ms. O'Toole. Yes. I continue to serve on the executive 
board that the chairman has put together and S&T is, for 
example, evaluating five different radars to understand the 
state-of-the-art technologies that are available right now that 
we might want to deploy to the border and we continue to do a 
lot of research in border-applicable technologies for detecting 
illicit use, crossing of people, movement of illicit cargo, et 
cetera, but yes, we will remain involved in border technology 
decisions.
    Chairman Quayle. Okay. Great. I have another question; I 
have noticed that you have been taking some steps to really 
improve acquisition efforts and I think those are good steps to 
make, but I have also heard from some stakeholders that end 
users who do not incorporate technical or economic feasibility 
are sometimes allowed to define the security needs. How do we 
ensure that we get cost-effective and innovative solutions?
    Ms. O'Toole. Well, Mr. Chairman, that is a good question. I 
wish I had a succinct answer to that. It is very important to 
identify the requirements very carefully, and that, any 
technology developer will tell you, is not easy. We need to get 
S&T's technical heft more engaged in that, and we are. We are 
already engaged in doing the oversight of testing and 
evaluation of new technologies in DHS. That is by statute. Bu 
we need to get S&T more involved in the front end of deciding 
what is the mission need we are trying to serve and how might 
technology fill that gap and then how do we develop the 
technology.
    If you don't really understand the users' needs, and this 
has to be an ongoing process in the course of the entire 
development process because users' needs change over time, 
everything is changing, then you are not going to come up with 
the right answer. So the users themselves in addition to the 
policymakers and the components need to be involved in 
developing these technologies. At the same time, as was 
mentioned earlier, you need to have a strategic view of where 
are we going to be in five years in ten years and how do we 
serve those far-off needs. So it is an ongoing set of parallel 
processes that have to be kept in motion.
    Chairman Quayle. So you keep the end users involved in the 
process by setting R&D priorities as well?
    Ms. O'Toole. The users are certainly part of how we set R&D 
priorities but the priorities mostly have to do with what are 
the top-level needs of the department. That comes since I have 
been here first of all with conversations between me and the 
component heads and an ongoing process that my predecessor 
developed called the Integrated Project Team process, which 
identifies needs that the operators have come up with and then 
prioritizes them, and then we take those needs in S&T and try 
and see what we can meet through either knowledge products or 
technology assessment via technology foraging, original R&D, et 
cetera, et cetera.
    Chairman Quayle. Okay. Great. Thanks.
    The chair now recognizes Mr. Wu for five minutes.
    Mr. Wu. Thank you, Mr. Chairman.
    I would like to get in two questions, if I may, and the 
first is a question related to the horrendous earthquake and 
then the subsequent tsunami that occurred in Japan last week, 
and I want to ask about the Directorate's work in the area of 
natural-disaster detection, and I understand that in the fiscal 
year 2012 budget, some of the Directorate's natural-disaster 
detection program funding will be used for the design and 
development of models that will provide earlier prediction of 
seismic activity and will help integrate these predictive 
capabilities with emergency management alert and warning 
systems, and can you tell me a little bit more about the work 
that the Directorate is doing in this area, what it expects to 
do in 2012, and also involving you, Mr. Stern, particularly 
there a $19 million item in the Directorate's Natural Disaster 
Resiliency program to help respond to and recover from large-
scale natural disasters, and some of this funding will be to 
address the resiliency of critical infrastructure qua large and 
expressly nuclear reactors? And we do have a situation with 
nuclear reactors in Japan, and if both of you could address 
that as my first set of questions, if you will.
    Ms. O'Toole. Okay. We do have a project going on. It is a 
very basic science fundamental research project to try and get 
advanced prediction of the occurrence of earthquakes. It 
involves studying the offgassing from the earth's crust to see 
if we can detect that and improve the time in which we have to 
get prepared for an earthquake. I emphasize, this is 
fundamental science. There is a reason we call it discovery. It 
may not work but it looks quite promising, certainly promising 
enough for us to invest in it.
    Secondly, we do a lot of work in S&T trying to improve the 
resilience of critical infrastructures, so we have done a great 
deal of work, for example, in material science. There is 
something called ultra-high-performance concrete, which if used 
would make our buildings much more earthquake-proof. Getting 
that into commercial use is going to require a series of steps 
that S&T may be able to help with involving certification and 
so on and so forth. We also do a lot of different kinds of work 
involving disaster response generally. For example, situational 
awareness becomes extremely important as we are seeing played 
out in Japan in these complex, chaotic times after a calamity 
whether it is natural or manmade or a terrorist attack. We are 
doing a great deal of work, particularly on the ground with 
first responders, to bring together various communication 
systems in ways of moving and visualizing data so everybody has 
a common operating picture.
    In terms of nuclear response, there is a budget line in TAR 
which we expect to come to S&T for response to nuclear events. 
This is work that is just beginning so we have a sketch or a 
roadmap for how we would spend those monies but have not begun 
that work yet.
    Mr. Wu. Terrific. Thank you.
    And my second question is an arena in which I have had a 
long-term interest in which the Subcommittee over the last four 
years has held a series of hearings and it is on 9/11 
interoperability and interoperability of systems, not only 
voice communications but all the different factors that make a 
system fully interoperable in voice and data and other factors, 
and I note that in the fiscal year 2012 budget request, there 
is $23.7 million for the Directorate's information sharing 
analysis and interoperability program, and according to the 
budget, some of this funding will be used to fully incorporate 
conformance testing into the P25 compliance assessment program, 
and these compliance tests and the P25 interfaces have been the 
subject of--it is very complex. We have had multiple hearings 
on this topic and I look forward to an update if you can give 
me a partial update at this hearing today.
    Ms. O'Toole. Sure. We are doing a number of things and 
actually making real progress in interoperability of voice, 
data and visualization. I would be happy to come in and tell 
you about those products, three in particular which are being 
used on the ground in real time right now.
    In terms of P25, this was a standard that was meant to and 
would in fact make interoperable all different kinds of 
handheld radios used by first responders who were using legacy 
systems that did not talk to each other. The problem, frankly, 
is that the two biggest manufacturers of these radios aren't 
particularly interested in complying with the standard. So the 
other manufacturers who do want to build a P25-standard radio 
have told us--actually this happened just in January at a 
meeting out in Arizona--that they cannot create the testing 
necessary to certify compliance, so S&T is working with these 
manufacturers to see if we can devise the tests that would 
affirm compliance, but it has been a long and frustrating road.
    I would also mention, Congressman, that new technologies 
are basically overtaking the P25 standard and will be 
increasingly interoperable so as first responders buy new 
technologies, this problem will not be as germane but we still 
have to deal with the legacy which are a majority of what is in 
the field, and that will remain the case for some time because 
of the cost of replacing old systems.
    Mr. Wu. Well, I think it is terrific that S&T Directorate 
is moving forward in this arena, and as you know, NIST, one of 
the agencies under this Subcommittee's jurisdiction, has had a 
long-term interest in this and has a lab, I believe, in 
Boulder, Colorado, that is dedicated to this and I think that 
this Subcommittee will appropriately take continuing interest.
    Thank you very much, Mr. Chairman.
    Chairman Quayle. Thank you.
    The chair now recognizes Mr. Rohrabacher for 5 minutes.
    Mr. Rohrabacher. Thank you very much, and congratulations 
to you, Mr. Chairman. When I came here, we didn't become 
chairmen when we were freshmen, but you do have an old hand to 
rely on there next to you as the ranking member so the old 
hands sort of welcome you today.
    This is a very significant issue at hand because it covers 
things that are so important to our constituents.
    I just want to get one bit of housekeeping out of the way. 
Apparently the American Institute for Research was supposed to 
conduct a validation of the TSA's Screening of Passengers by 
Observation Techniques, the SPOT program. Supposedly that 
report was due earlier this year. When is it going to happen? 
When are we going to see it? Ms. O'Toole?
    Ms. O'Toole. Well, there are several evaluations of SPOT 
going on, Congressman Rohrabacher. I am not sure which is 
which. S&T has been trying to validate and working with TSA to 
validate the SPOT program and our preliminary results are 
available or almost available. I think the report that you have 
mentioned is going to be available in April.
    Mr. Rohrabacher. In April? Okay. Thank you very much.
    You know, we go through these detectors every week, and I 
think frankly it is disgusting that we have seniors and people 
in wheelchairs and families that are having to go through the 
type of machinations that they have to go through to get onto 
an airplane in this country. It seems to me that with our 
technological capability, we could be doing something better 
that wouldn't create this roadmap.
    Let me ask you about fingerprints. I took my family to 
Marine Land--not Marine Land, it was the Ocean World or 
whatever down in San Diego, and we have season passes for that, 
and have three little kids; God blessed us with triplets seven 
years ago. Thank God and modern science, I might add. But as we 
were going in, you actually just put your finger on the little 
thing and they were able to oh, okay, go right on in, you are 
obviously the person with this pass. How come we can't do that 
at the airports?
    Ms. O'Toole. Well, I flew out of Boston yesterday and left 
a water bottle in my bag and had to go through again and also 
went through the AIT.
    Mr. Rohrabacher. Uh-oh. Oh, boy. You must have had to go 
through a strip search after that.
    Ms. O'Toole. I did experience a pat-down. We all share your 
frustration. Here is the problem, and this might be worth a 
classified threat briefing for you so we can talk in more 
detail. But it is clear that al Qaeda, both al Qaeda core and 
the spin-offs, are targeting aviation, and they are probing our 
systems to find out how sensitive they are and where the seams 
are that they might exploit. So I can't go into sensitive 
intelligence but there is a reason that we are looking at 
everybody including babies and people with casts and so forth. 
It is not arbitrary. It is a real bother.
    Mr. Rohrabacher. Well, couldn't there be a technological, 
like I say, could you put your finger in something, could 
that----
    Ms. O'Toole. We are working on it.
    Mr. Rohrabacher. --take the place of a pat-down?
    Ms. O'Toole. Here is what we are working on. After the 
Christmas bombing, the Christmas attempted bombing, I should 
say, we started working with TSA to do a systems analysis of 
the entire checkpoint to see what works, what doesn't, how we 
could make that much more efficient either though combining 
technologies or making technologies faster and less intrusive. 
We are working on that. We are also working on upgrades, for 
example, to the AIT machine. One would be a software package 
that would automatically identify targets and lead to fewer 
false alarms. My watch alarmed the AIT yesterday, okay? So I 
had to go through the pat-down. If we had fewer false alarms, 
there will be fewer pat-downs and that will be less intrusive. 
That is just one of the things that we are working on to build 
a less-intrusive checkpoint. I could go on forever. I won't 
now. But yes, there is hope.
    Mr. Rohrabacher. Well, thank you very much, and that is one 
thing I think all of our constituents are very concerned about.
    Ms. O'Toole. Yes.
    Mr. Rohrabacher. But safety of our country and of our 
families is important as well and that this what you are trying 
to do.
    Thank you very much, Mr. Chairman.
    Chairman Quayle. Thank you, and the chair now recognizes 
Mr. Lujan for five minutes.
    Mr. Lujan. Mr. Chairman, thank you very much.
    Dr. O'Toole, I want to thank you for being here as well as 
Mr. Stern and the other staff that you have with you.
    Dr. O'Toole, just to follow up on that last line of 
questioning, after we are looking at capabilities that other 
agencies have come up with that could integrate into the system 
to find our vulnerabilities, doesn't it make sense that if we 
can identify molecular footprints of materials that are 
attempting to be brought on so that when you have that bottle 
of water, if it indeed is water, you could bring it on? Or we 
have all these taste tests that sometimes we see competing 
interests like Coke and Pepsi on television where they have 
people taste one the other and see if you can tell the 
difference or which one tastes better or new Coke versus old 
Coke, if we had a technology that you could put that liquid in 
a machine and they could tell you the difference between Coke 
and Pepsi even though they look the same and may be in 
different cans. What are your thoughts with being able to use 
technologies that will be able to identify these areas as 
opposed to having some of these false positives that we are 
trying to prevent?
    Ms. O'Toole. Congressman, I think you are referring to the 
MagViz project.
    Mr. Lujan. Dr. O'Toole, MagViz, Bottle Viz, probably what 
can be sized up to if there is a client that can be brought in, 
a People Viz as well.
    Ms. O'Toole. We are working on a lot of technologies to try 
to make detection of explosives and other illicit cargo on 
passengers or even in passengers more available. We can do a 
lot of things on the bench but making it portable, able to sit 
in the footprints which are very limited in airports that we 
have to use, keeping throughput fast--even a minute, as we have 
all experienced, extra time in that line counts, and in cargo 
screening, for example, seconds are actually measured at ports. 
So the operational realities of making these very fascinating 
and capable technologies useful in actual practice are very 
difficult to comb through. We are going through a process of 
evaluation and testing and development with MagViz and other 
technologies now. That is a fairly lengthy process. You can 
make it shorter but then you are faced with more surprises 
usually in the end. It doesn't work, doesn't work the way you 
hoped it worked, you have to diddle with it a little bit more, 
so there are new technologies coming but nothing is going to be 
simple or a one-size-fits-all solution to our many needs, I am 
afraid. MagViz is promising.
    Mr. Lujan. I appreciate that, Dr. O'Toole, but as we look 
to technologies that we order up on large scale that failed 
with the bomber attempt on Christmas Day, there are other 
technologies that I have seen put to work and tested where we 
have been able to see these put to use. There are other 
technologies that appear to have received some tests that could 
have prevented some of these efforts and I certainly hope that 
going forward that with the new Directorate to be able to 
create the testable requirements that there are some areas that 
we can improve along those lines, and I hope we get a second 
round of questioning because I would like to pursue that a 
little bit.
    One area that I would like to bring up as well, Dr. 
O'Toole, what are the responsibilities with the Science and 
Tech Directorate under DHS with drugs, with narcotics and 
countertrafficking?
    Ms. O'Toole. We have been working with both Customs and 
Border Protection and with ICE to help them detect people 
coming across the border with illicit materials, and we are 
also doing a lot on air cargo security, mostly with TSA. We 
have developed algorithms, for example, for use by CBP, 
software that helps them better target cargo and people that 
should be given a second look based upon manifests and so on 
and so forth, and I can go into a whole list of technologies if 
you wish, but we are doing a lot of things in that regard to 
try and get a better look at vehicles passing border points, 
for example.
    Mr. Lujan. Thank you very much, O'Toole.
    Mr. Chairman, I have some other questions but I will wait 
until the second round.
    Thank you, Dr. O'Toole.
    Chairman Hall. [Presiding] At this time I would like to 
recognize myself for about five minutes or four minutes.
    Mr. Stern, in light of the damage that was sustained at 
three separate reactors after the very powerful earthquake and 
tsunami in Japan, and release of radioactive material, I guess 
everybody who is stuck to the television today wants to ask the 
same question. What kinds of technologies would be useful or 
are already available to respond to, detect or mitigate the 
effects of a radiological nuclear disaster here? They indicate 
that Japan was ready for a disaster as much as you can be ready 
for anything like that, and I wonder if we are.
    Mr. Stern. Thank you for the question, Chairman.
    You know, my background is actually in emergency response, 
and one of the key lessons of any emergency but in particular a 
nuclear emergency is that there is conflicting information 
streaming from all over the place, and one of the most 
important things that emergency responders can do is to use a 
very disciplined approach to ensuring that a single message 
goes out, and within the United States it is actually 
Department of Energy, NRC and the EPA that have responsibility 
for this, and given that DNDO doesn't, I am very reluctant to 
make any comment on this. I apologize.
    Chairman Hall. Would you like to make any comment on it Dr 
O'Toole?
    Dr. O'Toole. I think we can and should learn from every 
disaster. I think one of the things that is very impressive 
about Japan is their preparedness efforts involving all of the 
community, not just the emergency responders, and I think that 
is the kind of preparedness that we need to start thinking 
about and taking seriously in the United States, not just for 
nuclear reactors. That would be at the top of my list, given 
what I know about those technologies, but certainly we are 
going to have natural disasters like earthquakes and we need to 
think in advance about how we would respond. I am a physician 
by training, and I can tell you it is always very difficult to 
get people to take preventive steps until after the heart 
attack, and this is one of those periods after the heart 
attack. Hopefully Japan will be fine and the worst nightmares 
will not come to pass but this is a time when we should look to 
our own preparedness efforts and make sure we are as resilient 
as possible against the likely natural disasters we may face.
    Chairman Hall. I thank you.
    Now I recognize Mr. Wilson, the gentleman from Florida, if 
he is still here. The lady from Florida. With that hat on, I 
have been wondering what I was going to do when I saw you in 
here with a hat on, and I tell you, I am not one that going to 
complain about it. That is for the Speaker to do. I am glad to 
recognize you.
    Ms. Wilson. Thank you, Mr. Chairman. I appreciate it.
    Chairman Hall. Pardon me, all I saw was the hat.
    Ms. Wilson. You weren't sure if it was a man or woman. 
Thank you, Mr. Chair.
    My question has to do with the technologies that have been 
deployed in our system, and I am wondering about the testing 
and making sure that they will work and what kind of challenges 
do you face by making sure that these technologies are operable 
before we put them into play. We see many times in the 
newspaper where people have come through playing some sort of 
joke where they can bring scissors on, they can bring all sorts 
of things on, yet and still they have come through a screening. 
So what do you propose that we do to make sure that before we 
deploy any kind of system that it has been tested and vetted?
    Ms. O'Toole. Well, thank you, Congresswoman. It is very 
important that we do testing and evaluation of technologies, 
not just at the end of development. That is a process that has 
to go on throughout the development process of a new 
technology. I think you are referring to the screening devices 
in airports. Those were developed by commercial sector, and 
S&T, for example, helped develop the testing process, what it 
is that we need to test, and we did a lot of the testing 
according to those criteria at the Transportation Security Lab 
in New Jersey. We also have a responsibility by statute to 
oversee operational testing and evaluation towards the end of 
the process of R&D just before we are getting to put something 
in the field. You test against requirements that get 
established at the very beginning of the R&D process. So the 
rigor and appropriateness of those requirements is very 
important. If the requirements aren't right, the T&E, the 
testing and evaluation, may not give you the full view that you 
need to understand how that machinery will operate in practice. 
So one of the things that we are doing in S&T with our 
realignment and strategic plan is placing a lot more emphasis 
on having our technical people advise the operating components 
on what they might do to create rigorous requirements at the 
beginning of the R&D process.
    Ms. Wilson. Thank you very much. In light of what has 
happened in Japan in the nuclear power plant, this is sort of 
like a personal question. In Miami, Florida, we have a nuclear 
power plant called Turkey Point, and we have hurricanes, huge 
hurricanes, and near Turkey Point is a charter school and the 
charter school was established for the people who work at 
Turkey Point so that their children could be near them when 
they are at school and they can have lunch with them. In light 
of what has happened in Japan, I am going to ask, and I know 
you probably can't answer this openly but I am going to ask 
someone to take a look at Turkey Point and the relationship of 
Turkey Point and that charter school and try to figure out if a 
catastrophic hurricane comes--we haven't had one since the 
school has been built--what kind of impact if that Turkey Point 
explodes the way it exploded in Japan, what kind of impact 
would that have on that charter school. Someone needs to 
investigate that and do something about warnings or moving or 
something because it is dangerous.
    Mr. Stern. Thank you for the question. I think there are 
important lessons to be learned from any event such as this. 
The proper authority to answer the question of the potential 
damage or likelihood of an event at that reactor is of course 
the Nuclear Regulatory Commission, and they continuously look 
at these issues, and I think it would be probably a good idea 
to direct the question to NRC and in coordination with FEMA I 
think will come up with a complete answer.
    Ms. O'Toole. I would add, Congresswoman, that FEMA 
regularly works with the NRC to devise disaster plans around 
all of the domestic nuclear power plants and they work with the 
plant management and with the local first responders. So there, 
I am sure is a plan in place. There is a plan in place around 
every U.S. power plant but FEMA would also be a source to 
question.
    Ms. Wilson. Thank you. But I am sure they questioned it, I 
am sure they looked at it, I am sure they have a plan, but I am 
sure no one expected what happened in Japan and so that just 
adds a new height to my uneasiness, and thank you very much.
    Chairman Hall. I thank the lady. Her time is expired.
    Mr. Wu, did you want to be recognized for a unanimous 
consent request?
    Mr. Wu. Thank you, Mr. Chairman, yes. Mr. Chairman, I ask 
unanimous consent to include in the hearing record a written 
statement from the Center for Excellence for Awareness and 
Localization of Explosives and Related Threats.
    Chairman Hall. And it has been read by our side, has it 
not?
    Mr. Wu. That is my understanding, Mr. Chairman.
    Chairman Hall. Without objection, it will be admitted.
    Mr. Wu. Thank you very much. I yield back.
    [The information appears in Apendix II]
    Chairman Hall. Okay, yields back, so at this time I could 
recognize Mr. Rohrabacher again if he wants to be recognized.
    Mr. Rohrabacher. Mr. Chairman, as long as everyone on the 
other side has gone first, I am----
    Chairman Hall. Mr. Lujan expressed some indication that he 
had further questions. I recognize you for another 5 minutes.
    Mr. Lujan. Mr. Chairman, I appreciate that very much, sir.
    Dr. O'Toole, just picking up on that last line of 
questioning regarding DHS's responsibility associated with 
combating narcotics trafficking, and if I remember the 
Directorate correctly, one of the elements is to be able to 
take away resources from those that are engaging in 
trafficking, especially when those drugs are targeting the 
United States. Can you talk about the importance of the 
screening and detection technologies that DHS currently has 
access to or is looking to strengthen?
    Ms. O'Toole. We are working right now on new technologies 
that might be able to detect bulk cash, for example. One of the 
real problems with these narcotics smugglers is that they bring 
drugs in and then they have to get cash out of the country. The 
estimates from ICE are--and this is thought to be a 
conservative estimate--as much as $40 billion might be flooding 
out of the country in bulk, and it is very difficult to see 
using traditional techniques at the border, so we are 
developing technologies, which I don't want to describe in 
detail in open session, that might be able to detect those 
efforts.
    For example, we have a lot of work underway in biometrics 
to better identify people coming through the points of 
embarkation and entry to the United States who might need a 
second look. Those include a number of technologies, and of 
course, we are working with CBP at ports to make sure that 
illicit cargo including drugs doesn't make it into the country, 
again using a variety of technologies.
    Mr. Lujan. And I have a question for Mr. Stern as well. 
Thank you, Dr. O'Toole.
    One concern that I have, and it may be the Science and Tech 
Directorate, but it is in the reporting of what happens when 
those drugs are coming in. There was a GAO study that was 
conducted in 2009 that said when drugs are found between ports, 
they go to the DEA, but when drugs are found at the ports, they 
go to ICE, and there is a problem between those folks talking 
to each other, and I look forward to visiting more on what we 
could to talk about that.
    Mr. Stern, just quickly, because time is limited and I 
apologize and I would be happy to visit with you more about 
this, if there was fissionable material identified in the 
United States that was in the hands of some people that 
shouldn't have it, are we able to identify where those folks 
are and do our capabilities allow us to go back and identify 
how those fissionable materials entered the country and how we 
could stop it or who even brought them to that point?
    Mr. Stern. Thank you for the question. It really depends on 
the circumstances. There are real physical limitations in being 
able to detect material, and I think you are referring to 
forensics being able to identify where it ultimately came from. 
We would need to sit down as an interagency using whatever 
intelligence information was available as well as the technical 
information we have from our detectors and our forensics to do 
our best, but it is certainly not an easy task to achieve.
    Mr. Lujan. Thank you.
    And Mr. Chairman, my concern is this, is that in different 
parts of the country we have narcotics problems where there is 
heroin coming in from other parts of the world, there is drugs 
coming in from all parts of the world. Granted, I know that we 
have to stop use in the country, and if we can eliminate the 
demand here, we certainly won't see the supply entering. 
Nonetheless, those drugs are entering the country. How safe 
should we feel if heroin can't be stopped and identified from 
entering the United States that nuclear materials are going to 
be stopped and identified as entering the United States? We 
need to do a better job on both fronts, and especially looking 
at how resources are being used within DHS outside of Science 
and Tech Directorate where I think there is other tools that 
are out there to be able to work with our scientists, 
physicists and engineers at our national labs, maybe our NNSA 
facilities, who are coming up with technologies and techniques 
every day based on federal agencies that are working with them 
to be able to stop problems that are identified. There is a lot 
of tools and resources that are out there, and I appreciate 
very much the fact that there is an attempt for an inventory 
process to begin, if you will, of the tools and resources that 
other clients have ordered so that way we can see how they can 
be applied to homeland security safety. This is something that 
worries me every day, and we have people dying in my district 
every day from overdoses with heroin, and I know there are 
other problems that we have to combat, but if we can't stop 
one, how do we stop the other? And I think we need to make sure 
that we support the necessary screening and detection 
technologies to be able to combat that.
    Thank you very much and I look forward to visiting more 
with you, and Mr. Chairman, thank you for your indulgence.
    Chairman Hall. Thank you. It is my understanding Mrs. 
Wilson does not have other questions. If you do, I recognize 
you.
    I recognize Mr. Rohrabacher if you have further questions, 
sir.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just note that earlier Dr. O'Toole mentioned some fundamental 
research going into trying to detect whether or not there is a 
means of determining if an earthquake was well on the way. I 
want to suggest that that is a very good use of taxpayer money. 
In California, we are very conscious of the fact that we could 
suffer exactly what happened, if not even worse than what 
happened in Japan, and we also know, I have read accounts of 
the San Francisco earthquake that animals seemed to know that 
there is going to be something happening, and if animals can 
sense that, there is something in nature that could tip us off 
and so as that progresses, I would like to make sure that we 
are kept informed on that because that sounds like a very good 
use of taxpayers' money to try to discover that type of thing.
    In terms of discovering techniques of discovering large 
amounts of cash, well, you don't necessarily have to come to 
California for that because we don't have any more cash in 
California. We are going out of business.
    About nuclear detection, let me ask you, Mr. Stern, do we 
now have the means technologically to detect what would be a 
dirty bomb or even a nuclear weapon that was not a dirty bomb 
in a container that is coming to the United States? Do we have 
something in place overseas that would make sure that those 
containers were screened for that type of threat and do we have 
the technology to actually do that screening?
    Mr. Stern. Yeah. I mean, essentially all of our C1 cargo is 
scanned at U.S. ports. It is course an incredibly challenging 
task technically to have high confidence if certain material 
were very heavily shielded that we would find it, which again 
is why I think the approach that we could take at DNDO is in 
essence an intelligence informed approach. We will develop 
scenarios so we can in essence conceptually----
    Mr. Rohrabacher. So actually your tests find today that 
overseas intelligence and a more proactive approach is much 
better than a meet them at the door and pat them down approach?
    Mr. Stern. In fact, the U.S. approach to nuclear terrorism 
is a layered approach, and in each of those approaches we don't 
want to assume that everything else fails because that is not a 
reflection of reality. So it makes more sense to assume that 
there will be some level of success in some of the other layers 
including intelligence and then build our scenarios around 
that, and that is the most efficient way to use taxpayers' 
money.
    Mr. Rohrabacher. Do you have technology that is currently 
under--we just mentioned earthquake fundamental research that 
is going on. Is there research going on that will directly 
affect the safety of our country in terms of this type of 
nuclear smuggling?
    Mr. Stern. Yes, there is a broad range of technologies 
being examined both in the early stages by our transformational 
research Directorate and the more later stages by our 
production and acquisition Directorate of technologies that 
will improve our detection capabilities.
    Mr. Rohrabacher. Okay. For the record, I represent both the 
ports of Los Angeles and Long Beach, where I believe 40 percent 
of all foreign trade to our country goes through those ports. 
We have tens of thousands of containers a day coming through 
these ports. It is insane. I don't see how, unless with 
technology, we do that per-person type of situation. We have to 
have technology to help us achieve that goal. And I think that 
if I had to guess, I am guessing that narcotics and I don't 
know about cash going the other way but I know narcotics and 
other types of things that threaten the well-being of the 
American people are coming through that port every day and 
anything we can do technologically to strengthen our ability to 
cope with that will certainly be a benefit to our country. So 
we will be grateful to hear about your efforts as time goes on, 
and thank you very much, Mr. Chairman.
    Chairman Hall. The gentleman yields back. The chair 
recognizes the gentleman from Texas, Mr. Neugebauer, for 5 
minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman. This is kind of a 
little bit different twist but I think a real relevant subject, 
and I am sorry, I have been in two other hearings this morning, 
but with the events that are going on in Japan right now, 
obviously we are all very concerned as to what some of the 
problems with these reactors are, and I think there are reports 
today that one of the containment areas of one of the reactors 
possibly could have some issues. I guess the question that I 
have, from your perspective, do we have modeling capability 
that would allow us then to once we get some data from Japan 
and if in fact there is a discharge in the atmosphere of what 
the potential impact would be down range from those spills, and 
do we have a way to model and the levels that we might impact 
and then how does that translate into what kind of--if we think 
there are significant amounts, what kinds of actions that we 
would take domestically down range from those areas based on 
the levels of activity? I will let you both take a stab at 
that.
    Mr. Stern. Yeah, I want to try in the middle of this crisis 
not to create any conflicting information, so I think it is 
best to point out that yes, there are models that exist but the 
appropriate agencies are the Department of Energy and the 
Nuclear Regulatory Commission, who are both looking very 
carefully at this issue.
    Ms. O'Toole. Yes, we have been modeling radiation for a 
long time. Weather is difficult to model, as we know, but it 
is--the situation is being monitored, not just modeled, and I 
think Mr. Stern is right, we have to wait until we have some 
actual data but it is a very big ocean. There is a long 
distance between us and the besieged people of Japan. A lot of 
people are very carefully watching the situation, Congressman.
    Mr. Neugebauer. And you may have already outlined this but 
what would be some of the mechanisms for measuring, for 
example, if there is a plume or a movement in the atmosphere? 
Do we have technology to monitor the levels in the atmosphere 
by flying those areas? I mean, I don't know how you----
    Ms. O'Toole. Yes.
    Mr. Neugebauer. --do that but----
    Ms. O'Toole. Yes.
    Mr. Neugebauer. --what would be the procedure for that?
    Ms. O'Toole. Do you want to take that?
    Mr. Stern. Again, I have to apologize because in the middle 
of this, I am very cautious about saying things that are 
outside of my line of my responsibility, and this is primarily 
an EPA, NRC, DOE responsibility and I think it is best to get 
the answer from them, again to avoid any new confusion in the 
middle of this crisis.
    Chairman Hall. You are not under oath, and we do all the 
time up here. We will give you a chance if you have some 
suggestions or anything that you think might help Mr. 
Neugebauer, or you can decline, whatever you want to do.
    Mr. Stern. I mean, again, there are detectors but again, 
they are under the authority, responsibility, operation of 
other agencies and the best answer is to get it from those 
agencies.
    Mr. Neugebauer. Well, I guess with those answers, I will 
yield back my time, Mr. Chairman.
    Mr. Lujan. Mr. Chairman, if the gentleman would just yield 
quickly? One thing that I would be interested in doing maybe 
jointly, Mr. Chairman, is if we could engage the NNSA national 
laboratories under Mr. Tom D'Agostino, and I know that they do 
have modeling capacity and capabilities not only with oceans 
but with--that there may be some answers that we could you 
directly from them. Maybe we could work together on that. Thank 
you, Mr. Chairman.
    Chairman Hall. Thank you.
    Ms. Biggert, we recognize you at this time for five 
minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I am from Illinois and have one of the national labs in my 
district, Argonne, and Dr. O'Toole, I have a question about how 
you would characterize how the university Centers of Excellence 
and the Department of Energy's labs support the research and 
development of DHS and how their work is integral to the 
development and demonstration and testing of technology. I know 
that right after 9/11, Argonne had several, I don't want to 
call them products but several things that were very helpful 
for our national security and were developed before we ever 
thought that they would be needed. How is that integrated to 
work together and how does DHS internal laboratories work with 
the national labs to avoid duplication of efforts?
    Ms. O'Toole. We work very closely with the DOE national 
labs. Forty percent of our R&D budget goes to the DOE national 
labs. That may be a little high. It may be perfect. It may be a 
little low. But they are obviously very close partners of ours, 
and we have various mechanisms to maintain close relationships 
so that they know what our needs are and we know what 
capabilities that they are developing. There is a national 
level effort going on at the level of the deputy and under 
secretaries in which Mr. D'Agostino from NNSA is included to 
make sure that critical capabilities in the national labs which 
are needed by the country on a long-term strategic basis, 
whether by the intelligence community or needed by DHS or 
needed by other elements of the government get maintained, and 
we have robust working relationships down at the project-
manager level as well.
    The Centers of Excellence are also critical to our R&D 
effort. They of course as is the case with most university 
work, work on a more fundamental science basis than does the 
commercial sector or some of the labs but they are both 
critical partners in our R&D effort.
    Mrs. Biggert. Well, the research activities at the 
university Centers of Excellence are managed by administrative 
staff at each of the centers and not directly by DHS, so how do 
these activities align with the S&T enterprise?
    Ms. O'Toole. Well, we have an ongoing dialog with them, 
both the administrative staff and the faculty, about what is in 
their charter. First of all, these Centers of Excellence are 
focused on certain areas. STAR in Maryland, for example, is 
looking at the sociological and criminological science behind 
terrorism. Others are more statistics-oriented. Others are 
focused on transportation and so forth. So they start with the 
focus area and a set of objectives which we work out mutually 
between the partners and the COEs and DHS.
    Furthermore, we are making great strides in making the 
resources of the universities directly available to the DHS 
components, and I think the success of that is evidenced in the 
fact that the DHS components have directed more than $22 
million go the COEs outside of the money that comes from S&T in 
order to do particular projects the components want done. So I 
think we have an ongoing dialog, tight connections and I think 
we are getting better and better over time as we get to know 
each other.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Quayle. Thank you, and if there is nobody else who 
wants to be recognized, I thank the witnesses for their 
valuable testimony and to the Members for their questions. The 
Members of the Subcommittee may have additional questions for 
the witnesses, and we will ask for you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments and statements from Members and also, 
because we are trying to keep this in a timely fashion and we 
thank the patience of the second panel, if we could make the 
transition into the second panel as quickly as possible, that 
would be great. The witnesses are excused. Thank you very much.
    We now move to our second panel, and as a reminder, spoken 
testimony is limited to five minutes after which Members of the 
Committee will have five minutes each to ask questions.
    Our first witness is the Director of the Douglas and Sarah 
Allison Center for Foreign Policy Studies at the Heritage 
Foundation, Dr. James Carafano. Prior to joining the Heritage 
Foundation, Dr. Carafano had been a Senior Fellow at the Center 
for Strategic and Budgetary Assessments. Next we will hear from 
Mr. Marc Pearl, the President and Chief Executive Officer of 
the Homeland Security and Defense Business Council. Before 
joining the Council, Mr. Pearl was the Principal and Chairman 
of IT Policy Solutions. Our final witness is Mr. David Maurer, 
the Director of the Homeland Security and Justice Team at the 
U.S. Government Accountability Office. Mr. Maurer served in 
many capacities at the GAO, previously as Acting Director in 
GAO's Natural Resource Environment Team, where he managed the 
work assessing U.S. global nuclear detection programs.
    Dr. Carafano, we will begin with you, and I recognize you 
for five minutes.

        STATEMENTS OF JAMES CARAFANO, DIRECTOR, DOUGLAS

          AND SARAH ALLISON CENTER FOR FOREIGN POLICY

                  STUDIES, HERITAGE FOUNDATION

    Mr. Carafano. Thank you, Mr. Chairman. I have three quick 
comments: the good, the bad and the future.
    You know, first I would say I think everybody on the panel 
would agree that we have come a long way since a few years ago. 
A center report characterized the S&T Directorate as a 
rudderless ship. I think no matter how you look at it, you can 
see that there has been a real progress but I would point to 
two areas very quickly.
    The first is the reorganization, which I think has had a 
lot of positive benefits. I think particularly creating the 
analysis and operational office is a tremendous step in the 
right direction. The other thing I would really like to 
compliment the Directorate on is their increasingly and more 
efficient use of the Centers of Excellence and the federally 
funded Research and Development Centers. One particular program 
that I have worked with is called the Community Processions of 
Technology program where they bring in stakeholders and they 
evaluate technologies for policy implications. It is a model 
program that really ought to be emulated by other parts of the 
Federal Government.
    There are long-term concerns, and I will just raise the 
three that are raised most often. The first is that DHS still 
lacks a fully integrated acquisition process, and I think that 
is a real issue, and they need to learn not to repeat the 
mistakes of the Department of Defense in that you need both the 
formal acquisition, long-term acquisition process and you need 
the rapid acquisition for crisis needs and new opportunities. 
DOD often ad hocs the second, and I think that is a big 
mistake. Both processes need to be formal and structured and 
built so they are non-competitive, and acquisition is 
integrated. It is not--it is everything from R&D to T&E and to 
buying the equipment but it also includes the integration with 
all the other elements which include training and human capital 
and operational practices, and unless you have that full 
spectrum of acquisition and it is integrated, you are not 
really getting your bang for the buck.
    The second issue is transition. I think we would all 
acknowledge that there is still significant issues in terms of 
transitioning technologies, I think particularly in the first-
responder area, and I really think that calls for a rethinking 
of priorities.
    The third one I will mention very quickly is the lack of a 
really overall strategic plan. I mean, having a plan and 
writing ``strategy'' on the front page is not strategic. 
Strategic plans make hard decisions, and I don't honestly think 
that the department really has a portfolio that makes hard 
decisions, I think particularly if you look in the area of the 
money we have invested in scanning and detection technologies.
    The two areas that I would recommend to the Committee to 
look into and for the Directorate to look at is I think 
international partnerships, public-private partnerships are 
vastly important, I would argue maybe the most important part 
of the scenario or the portfolio. I think a key element of that 
is the SAFETY Act. I think the SAFETY Act has been great at 
fostering the development of new technologies. An idea that we 
would suggest would be to internationalize the SAFETY Act, 
which is the United States should go out and proactively seek 
to engage other global partner countries to develop similar 
regimes that are comparable to the SAFETY Act and then we could 
have reciprocity where something could be developed in Israel, 
for example, and if they got the Israeli SAFETY Act 
qualification and it was comparable to U.S. SAFETY Act 
qualification that we would grant them reciprocal status here 
and vice versa. I would think this would really help the 
proliferation of homeland security technologies and I think it 
would be great in terms of encouraging the development of new 
technologies that all the allies could use.
    The other area I will just mention very, very briefly and 
then conclude is nanotechnology. I think nanotechnology is one 
of the breakthrough technologies that is going to have wide 
application across the Federal Government. There is almost no 
area of technology that you can't see where it could have 
dramatic applications. In homeland security, for example, in 
the target delivery of drugs, which can be very important for 
therapeutics, for bio response, materials, I mean, it just goes 
on, and power generation. It just goes on and on and on. And I 
think DHS should partner with other federal agencies in 
creating something similar to what we did with fostering the 
semiconductor industry to create the public-private partnership 
that would really begin to set up the prototype industrial base 
so we could really leverage this going forward. I mean, right 
now we basically have a lot of individual nanotechnology 
research programs proliferated throughout the Federal 
Government and we need to start thinking corporately on how the 
Federal Government is going to be a good customer for these 
nanotechnologies as they evolve. Thank you very much.
    [The prepared statement of Dr. James Carafano follows:]
                Prepared Statement of Dr. James Carafano
    My name is James Jay Carafano. I am the Deputy Director of the 
Kathryn and Shelby Cullom Davis Institute for International Studies and 
the Director of the Douglas and Sarah Allison Center for Foreign Policy 
Studies at The Heritage Foundation. The views I express in this 
testimony are my own, and should not be construed as representing any 
official position of The Heritage Foundation.
    Thank you for the opportunity to appear before the committee today 
and address this vital subject. In my testimony I will address: (1) the 
progress the Department of Homeland Security (DHS) has made in 
improving the organization and processes for homeland security 
research; (2) remaining concerns; (3) vital steps to improving the 
organization of these activities; and (4) priorities for future 
research.
    My responsibilities at The Heritage Foundation comprise supervising 
all the foundation's research on public policy concerning foreign 
policy and national security. Homeland security has been a particular 
Heritage research priority. The foundation produced the first major 
assessment of domestic security after 9/11. \1\ Over the past nine 
years we have assembled a robust, talented, and dedicated research 
team. I have had the honor and privilege of leading this team for many 
years. Heritage analysts have studied and written authoritatively on 
virtually every aspect of homeland security and homeland defense. The 
results of all our research are publicly available on the Heritage Web 
site at www.heritage.org. We collaborate frequently with the homeland 
security research community, including the Center for Strategic and 
International Studies (CSIS), the Aspen Institute, the Center for 
National Policy, the Hudson Institute, the George Washington University 
Homeland Security Policy Institute, and the Strategic Studies Institute 
and Center for Strategic Leadership at the Army War College. Heritage 
analysts also serve on a variety of government advisory efforts, 
including task forces under the Homeland Security Advisory Council and 
Advisory Panel on Department of Defense Capabilities for Support of 
Civil Authorities. I also am a member of the National Academies Board 
on Army Science and Technology and served on the DHS advisory board for 
the Quadrennial Homeland Security Review (QHSR). \2\ Heritage's 
research programs are strictly non-partisan, dedicated to developing 
policy proposals that will keep the nation safe, free, and prosperous.
---------------------------------------------------------------------------
    \1\ L. Paul Bremer III and Edwin Meese III, Defending the American 
Homeland: A Report of the Heritage Foundation Homeland Security Task 
Force (Washington, D.C.: The Heritage Foundation, 2002).
    \2\ I testified on the results of the QHSR before the House 
Homeland Security Committee. See James Jay Carafano, ?What Comes After 
Quadrennial Homeland Security Review?? Testimony before the Committee 
on Homeland Security, Subcommittee on Management, Investigations, and 
Oversight, United States House of Representatives, April 29, 2010, at 
http://www.heritage.org/Research/Testimony/What-Comes-After-
Quadrennial-Homeland-Security-Review#--ftn2.

---------------------------------------------------------------------------
Call to Action

    From the outset our research has focused on ensuring that the 
organization and activities of the Department of Homeland Security are 
as efficient and effective as possible. In 2004 David Heyman, who 
headed the Homeland Security program at CSIS (and who now is Assistant 
Secretary for Policy at the U.S. Department of Homeland Security), and 
I led a research project that produced ``DHS 2.0: Rethinking the 
Department of Homeland Security,'' the first comprehensive review of 
the newly established Department of Homeland Security. \3\ When we 
wrote this initial report, the Science and Technology Directorate (S&T) 
did not have enough of a ``track record'' for the task force to make a 
detailed assessment. In 2007, however, my colleague at the Hudson 
Institute, Dr. Richard Weitz, and I published ``Rethinking Research, 
Development, and Acquisition for Homeland Security,'' the results of a 
follow-on research project that specifically focused on the activities 
of the S&T Directorate. \4\ The major concerns we identified were:
---------------------------------------------------------------------------
    \3\ James Jay Carafano and David Heyman, ``DHS 2.0: Rethinking the 
Department of Homeland Security,'' Heritage Foundation Special Report 
No. SR-02, December 13, 2004, at http://www.heritage.org/Research/
Reports/2004/12/DHS-20-Rethinking-the-Department-of-Homeland-Security.
    \4\ James Jay Carafano and Richard Weitz, ``Rethinking Research, 
Development, and Acquisition for Homeland Security,'' Heritage 
Foundation Backgrounder No. 2000, January 22, 2007, at http://
www.policyarchive.org/handle/10207/bitstreams/11911.pdf .

        <bullet>  Lack of response to customer needs. From the 
        beginning, agencies within the DHS have complained that the 
        Directorate's portfolios do not adequately reflect their 
        requirements and are not sufficiently responsive to operational 
---------------------------------------------------------------------------
        needs.

        <bullet>  Inability to manage complex programs. The 
        Directorate's most prominent accelerated R&D effort-the attempt 
        to rapidly deploy new technologies to defend against smuggled 
        nuclear and radiological weapons-failed so badly that in April 
        2005 the Administration established the separate Domestic 
        Nuclear Detection Office (DNDO) to manage these programs.

        <bullet>  Limited success in partnering with other federal 
        agencies and international partners. The S&T Directorate faced 
        significant challenges in sharing homeland security 
        responsibilities and resources with other federal departments 
        and agencies that are not incorporated within the DHS. These 
        entities retain key roles in researching and developing 
        scientific, engineering, and medical technologies relevant to 
        homeland security.

        <bullet>  Failure to convert technologies for use by non-
        federal customers. Of particular note, the S&T Directorate had 
        yet to develop a clear strategy for acquiring and converting 
        technologies for use by the state and local governments and the 
        private sector.

    In response to these challenges among our key recommendations were:

        <bullet>  Putting First Things First. The Directorate needed to 
        tighten its focus on its primary customer base-the agencies 
        within the department. We recommended that DHS should get out 
        of the business of brokering and developing technologies and 
        supporting research for state and local responders and the 
        private sector. Rather, government should limit its support to 
        these other users to setting national standards in coordination 
        with established government agencies such as the National 
        Institute of Standards and Technology and non-governmental 
        organizations such as the American National Standards 
        Institute.

        <bullet>  Getting a Bigger Bang for the Buck. Rather than 
        treating collaborative research with other federal agencies and 
        international partners as an afterthought, we concluded the 
        Directorate should give first priority to establishing 
        effective partnerships and leveraging the capabilities of these 
        other efforts.

        <bullet>  Reorganizing and Reprioritizing. We recommended 
        restructuring R&D programs to best serve the operating agencies 
        within the DHS, and concluded the S&T Directorate should 
        provide the DHS with overall acquisition guidance as well as 
        basic science and technology.

        <bullet>  Rethinking Acquisition. In many cases, R&D was not 
        linked to acquisition or there was a failure to recognize that 
        a new technology was not the best answer to the department's 
        needs. Furthermore, the department lacked an integrated program 
        that matches acquisition with training, human capital 
        development, and improving operational practices.

Present Assessment

    I would like to credit the current leadership of the DHS and the 
S&T Directorate for making a sincere effort to address these 
shortfalls. In particular:

        <bullet>  The current organization of the S&T Directorate 
        represents a significant improvement in aligning research 
        portfolios; establishing effective representation of 
        stakeholder interests; and improving the capacity of S&T to 
        contribute to acquisition and operational analysis. 
        Furthermore, the department has announced plans to expand S&T's 
        role in test and evaluation, as well as involving S&T in ``life 
        cycle'' assessment of acquisition programs. The role of the 
        director of the office of Acquisition and Operational Analysis 
        should probably be expanded.

        <bullet>  S&T has made a more concerted effort to leverage the 
        Centers of Excellence and its Federally Funded Research and 
        Development Centers (FFRDC). Developing homeland security 
        technologies and expertise requires years of intense effort by 
        an integrated team of scientists, engineers, and managers. 
        Repeated reorganizations only disrupt this challenging effort 
        and should be avoided. Specifically, not curtailing or further 
        limiting the terms of the Centers of Excellence is important. 
        Likewise, the FFRDCs and their expanding capacity to provide 
        operational research, systems engineering, and complex systems 
        analysis have demonstrated real value added. They should be 
        sustained and further exploited.

        <bullet>  The Directorate has also made a sincere and 
        significant effort to establish federal research partnerships 
        and to improve the oversight process for interagency 
        agreements. \5\ Likewise, DNDO was cited by the department's 
        Inspector General in 2007 for improving coordination between 
        federal and state agencies on domestic protocols for detection 
        and response. \6\
---------------------------------------------------------------------------
    \5\ See, Office of the Inspector General, ``The Science and 
Technology Directorate's Process for Funding Research and Development 
Programs, Department of Homeland Security,'' OIG-09-88, July 2009, pp. 
24-25.
    \6\ Office Inspector General, DHS' Domestic Nuclear Detection 
Office Progress in Integrating Detection Capabilities and Response 
Protocols, OIG-08-19, December 2007, p. 1.

    What has been accomplished is noteworthy, especially for a 
Directorate that in 2006 was criticized in Congress for being a 
``rudderless ship without a clear way to get back on course.'' \7\ In 
contrast, a 2009 report by the National Academy of Public 
Administration concluded, ``S&T has made strides towards becoming a 
mature and productive research and development organization, 
particularly during the last three years.'' \8\
---------------------------------------------------------------------------
    \7\ Senate Report. 109-273, p. 88.
    \8\ National Academy for Public Administration, ``Department of 
Homeland Security Science and Technology Directorate: Developing 
Technology to Protect America,'' June 2009, p. ix.
---------------------------------------------------------------------------
    Yet, despite this leadership team's hard work, significant concerns 
remain.

        <bullet>  DHS still lacks an integrated requirements and 
        acquisition process and a means for integrated development of 
        human capital, operational, training, education, and 
        sustainment programs. DHS needs an integrated end-to-end 
        process. This system needs to be formal and robust and include 
        both a ``deliberate'' process for developing long-term needs as 
        well as a ``crisis-action'' process for meeting unanticipated 
        requirements and ensuring rapid acquisition to meet challenges 
        such as those faced during the 2010 Gulf oil spill.

        <bullet>  The DNDO model remains a concern. In 2007, we 
        expressed concern about establishing organizational activities 
        that tried to do too much-overseeing everything from concept 
        development to testing and evaluation, acquisition and 
        deployment. We were also concerned that creating a 
        ``stovepipe'' activity to manage the nuclear detection 
        portfolio, as a separate activity made sense. Those concerns 
        still remain. \9\
---------------------------------------------------------------------------
    \9\ See, for example, U.S. Government Accountability Office, 
``Nuclear Detection: Domestic Nuclear Detection Office Should Improve 
Planning to Better Address Gaps and Vulnerabilities,'' GAO-09-257, 
January 2009.

        <bullet>  S&T still lacks a solid track record for 
        transitioning technologies, particularly for partners outside 
        the department. S&T has improved stakeholder input primarily 
        through its Integrated Product Teams. \10\ Particularly 
        noteworthy is the Directorate's Community Perceptions of 
        Technology Program managed by the Homeland Security Studies and 
        Analysis Institute, which provides early stakeholder input on 
        the policy implications of fielding new technologies. I have 
        participated in several of the roundtables organized under this 
        program. It is an exceptional initiative, one that should serve 
        as a model for other government R&D efforts. Nevertheless, 
        transitioning technology is still a significant challenge.
---------------------------------------------------------------------------
    \10\ Ibid., pp. 42-53.

        <bullet>  The department still lacks a truly strategic approach 
        to research and innovation that would allow appropriately 
        prioritizing and focusing its efforts. HSARPA (the Homeland 
        Security Advanced Research Projects Agency) has been a 
---------------------------------------------------------------------------
        disappointment.

Moving Forward-The Organization

    Organizational and process restructuring bring costs and as well as 
benefits. That reality is often forgotten when attention is turned to 
improving the efficiency and effectiveness of an organization. 
Opportunity costs matter. This truism is nowhere more important to 
remember than when considering the DHS and S&T, which have seen a 
tsunami of reorganization and restructuring over the department's short 
tenure of existence.
    That said, while tinkering ought to be kept to a minimum, there are 
some critical changes that might to be considered.

        <bullet>  The time has probably come to give S&T a more defined 
        statutory mission that clearly outlines its role in 
        acquisition, life-cycle management, and the integration with 
        other enablers for the department, such as training, human 
        capital management, and sustainment. This step should be taken 
        through a reauthorization bill.

        <bullet>  It might be time to rethink the mission, structure, 
        and purpose of the DNDO and whether these activities would not 
        be better managed under major department activities rather than 
        as a stand-alone activity. \11\ It might make sense, for 
        example, to transfer the office's transformational and applied 
        R&D portfolios to S&T.
---------------------------------------------------------------------------
    \11\ For the challenges faced by the DNDO, see, for example, Gene 
Aloise and Stephen L. Caldwell, ``Combating Nuclear Smuggling,'' U.S. 
Government Accountability Office, GAO-10-1041T, September 15, 2010.

        <bullet>  Congress and the department need to decide-whither 
        the Homeland Security Advanced Research Projects Agency? The 
        act establishing the DHS created HSARPA. At the time, 
        legislators assumed its mission would parallel the function 
        that DARPA serves for the Department of Defense. That vision 
        has never been fully realized and it is an open question 
        whether a DARPA-like activity is truly essential for DHS or 
        whether DHS would not be better off putting the overwhelming 
        majority of its resources on its present operational needs and 
        leveraging existing organizations, like DARPA, for the rare 
        occasion it needs to look at truly futuristic or ``out of the 
        box'' solutions.
    Today, HSARPA primarily provides an additional layer of management 
for a broad portfolio of programs and projects. While it is important 
to reduce the overwhelming number of direct reports to the 
undersecretary, it is an open question whether HSARPA best fills this 
role. \12\
---------------------------------------------------------------------------
    \12\ See, National Academy for Public Administration, ``Department 
of Homeland Security Science and Technology Directorate,'' pp. 11-13.

Moving Forward-The Mission

    It is time for a serious strategic debate on the direction of the 
department's homeland security research. We know an awful lot about the 
competitive environment of ensuring our nation's Transitioning 
technology outside the department is extremely difficult. Given that 
reality and all the serious competing priorities for resources (with a 
very few ``strategic'' exceptions) it is time for the department to 
make the tough call and dramatically scale back its efforts in this 
area.

S&T should

        <bullet>  Focus laser-like on getting close to its ``internal'' 
        department customers.

        <bullet>  Limit itself to a coordinating and standards-setting 
        role on technologies for state and local governments, first 
        responders, and the private sector.

        <bullet>  Acknowledge there may be exceptions to the general 
        rule of doing less, particularly in the areas of cybersecurity, 
        \13\ exceptionally vital infrastructure (such as the national 
        electrical grid) \14\ and technologies that might impact on the 
        resiliency of small and medium business. These areas are the 
        true Achilles' heel of the U.S. economy. Small and medium 
        businesses, for example, make up over half of the American work 
        force. The workers and the companies they serve are the 
        backbone of the U.S. economy. On average, they create about 
        two-thirds of all new jobs each year. Yet, they are most 
        susceptible to interruptions from attacks and disruptions-and 
        there is dearth of research supporting their particular needs. 
        \15\
---------------------------------------------------------------------------
    \13\ As a 2007 Computer Science and Telecommunications Board 
research report concluded, however, the national research and 
development program is wholly inadequate. Homeland Security is a vital 
component of this program. See, James Jay Carafano and Eric Sayers, 
``Building Cyber Security Leadership for the 21st Century,'' Heritage 
Foundation Backgrounder No. 2281, December 16, 2008, at http://
www.carlisle.army.mil/DIME/documents/bg--2218%5B1%5D.pdf,.
    \14\ The resilience of the U.S.-Canadian electrical grid and 
telecommunications systems, including developing limited redundancy and 
identifying means for the timely replacement of essential damaged parts 
or their rapid substitution is vital to ensure national resiliency in 
the face of catastrophic disasters. See, James Jay Carafano and Richard 
Weitz, ``EMP Attacks-What the U.S. Must Do Now,'' Heritage Foundation 
Backgrounder No. 2491, November 17, 2010, at http://www.heritage.org/
research/reports/2010/11/emp-attacks-what-the-us-must-do-now.
    \15\ James Carafano, ``Homeland Security's blind spot'' The 
Examiner, September 14, 2009, at http://washingtonexaminer.com/op-eds/
2009/09/james-carafano-homeland-securitys-blind-spot.

    The department continues to have difficulty putting dollars where 
they can make a difference. The S&T agenda is still driven too much by 
---------------------------------------------------------------------------
stakeholders rather than real strategy. S&T should:

        <bullet>  Dramatically scale back on screening and detection 
        technologies. The needs for these technologies should be driven 
        real assessments of the most efficacious means to achieve risk 
        reduction; the costs and benefits of measures, and limits of 
        current technology rather than legislative fiats of Congress 
        and whims of government officials.

        <bullet>  Step-up cyber-research. Cyber-research must be a high 
        priority for the whole of government and DHS must play an 
        important part. There is no area of homeland security threats, 
        including our knowledge of the dangers of weapons of mass 
        destruction, where government's basic knowledge of the 
        challenge is more deficient. A 2007 Computer Science and 
        Telecommunications Board research report concluded:

             [B]oth traditional and unorthodox approaches will be 
        necessary. Traditional research is problem-specific, and there 
        are many cybersecurity problems for which good solutions are 
        not known.. Research is and will be needed to address these 
        problems. But problem-by-problem solutions, or even problem-
        class by problem-class solutions, are highly unlikely to be 
        sufficient to close the gap by themselves. Unorthodox, clean-
        slate approaches will also be needed to deal with what might be 
        called a structural problem in cybersecurity research now, and 
        these approaches will entail the development of new ideas and 
        new points of view that revisit the basic foundations and 
        implicit assumptions of security research. Addressing both of 
        these reasons for the lack of security in cyberspace is 
        important, but it is the second-closing the knowledge gap-that 
        is the primary goal of cybersecurity research...'' \16\
---------------------------------------------------------------------------
    \16\ Computer Science and Telecommunications Board, Toward A Safer 
and More Secure Cyberspace (Washington, DC: National Academies Press, 
2007), p. 61.

             Today, that goal (though admittedly the S&T agenda in this 
---------------------------------------------------------------------------
        area is much improved) is still not being met.

    Finally, while much has been to done to improve ``partnerships,'' 
these activities must be further stressed as the highest priority. Some 
specific initiatives that S&T might consider include:

        <bullet>  Become a full partner in the federal nanotechnology 
        effort. DHS, as do many federal agencies, has some nano-related 
        programs, but these disparate research efforts are inadequate 
        for what could be the greatest ``game-changing'' technology of 
        the next decade. Today, the United States leads the world in 
        nano-science, but that lead is narrowing fast. Our private 
        sector can't plunge much further into nano-industries, given 
        the current economic climate. But that could change rapidly, 
        with a little help from Washington. In high-tech manufacturing, 
        the main cost issue is tech investment-something quite 
        sensitive to tax and regulatory policy. If federal policymakers 
        lowered the cost of capital-by reducing taxes on capital gains 
        and dividends, as well as corporate income taxes-it would 
        stimulate capital investment in a variety of promising 
        technologies. And few, if any, are more promising than 
        nanotechnology. DHS, along with the rest of the government, 
        should rethink its nanotechnology investment strategy. They 
        should pivot right now to help foster the development of 
        nanotechnology manufacturing infrastructure. That way, DHS and 
        other federal agencies can incorporate innovations into its 
        equipment-quickly and cheaply-as soon as the innovations 
        emerge. The Pentagon has done this before. In the 1980s, the 
        Defense Research Projects Agency helped set up Sematech, a 
        consortium of U.S. semiconductor companies called to resolve 
        common manufacturing challenges. DHS and other partner agencies 
        should do the same for nanotechnology manufacturing. \17\
---------------------------------------------------------------------------
    \17\ Adapted from James Carafano, ``U.S. must gird for war in very 
small places,'' The Examiner, December 12, 2010, at http://
washingtonexaminer.com/opinion/columnists/2010/12/james-jay-carafano-
us-must-gird-war-very-small-places#ixzz1GViM4F10.

        <bullet>  Internationalize the SAFETY Act. \18\ After 9/11, the 
        U.S. Congress established one potential instrument: The Support 
        Anti-Terrorism by Fostering Effective Technologies (SAFETY) 
        Act. The SAFETY Act lowered the liability risks of 
        manufacturers that provide products and services used in 
        combating terrorism. The act, passed in 2002, protects the 
        incentive to produce products that the Secretary of Homeland 
        Security designates as ``Qualified Anti-Terrorism 
        Technologies.'' The Department of Homeland Security has made a 
        concerted effort to implement the program, and, as of 2009, 
        about 200 companies have obtained SAFETY Act certification. 
        This program should be used to accelerate the fielding of 
        commercial products and services for cybersecurity.
---------------------------------------------------------------------------
    \18\ Recommendations are adopted from James Jay Carafano, 
``Fighting Terrorism, Addressing Liability: A Global Proposal,'' 
Heritage Foundation Backgrounder No. 2138, May 21, 2008, at http://
www.heritage.org/Research/Reports/2008/05/Fighting-Terrorism-
Addressing-Liability-A-Global-Proposal.

        <bullet>  If other nations adopted similar liability protection 
        regimes they could form a network to promote innovation. One 
        potential source of outreach might be the Technical Cooperation 
        Program (TTCP), an international organization that collaborates 
        in defense-related scientific and technical information 
        exchange and shared research activities with Australia, Canada, 
        New Zealand, the United Kingdom, and the United States. TTCP is 
        one of the world's largest collaborative science and technology 
        forums. Outreach might focus initially on U.S. partners in Asia 
        including Japan, Australia, New Zealand, Taiwan, South Korea, 
        India, Hong Kong, and Singapore. Singapore is the United 
        States' 15th-largest trading partner and ninth-largest export 
        market. Foreign direct investment in Singapore is concentrated 
        largely in technical service sectors; manufacturing; 
        information; and professional scientific knowledge, skills, and 
---------------------------------------------------------------------------
        processes.

    As national liability protection proliferates, new opportunities 
for international cooperation will emerge. Countries that adopt 
verifiably similar liability protections should extend reciprocal 
privileges to one another. An expanding global web of liability 
protection will facilitate the proliferation of homeland security 
technologies..
    Thank you for the opportunity to testify today.

                    Biography for Dr. James Carafano
    James Jay Carafano, Ph.D. Deputy Director, Kathryn and Shelby 
Cullom Davis Institute for International Studies and Director, Douglas 
and Sarah Allison Center for Foreign Policy Studies

    Areas of Expertise:

    Homeland Security, Defense, Military Affairs, Interagency (whole-
of-government) Operations, Counterterrorism
    Summary:

    James Carafano, one of the nation's leading experts in defense and 
homeland security, directs Heritage's Douglas and Sarah Allison Center 
for Foreign Policy Studies.
    Carafano is an accomplished historian and teacher as well as a 
prolific writer and researcher on a fundamental constitutional duty of 
the federal government: to provide for the common defense.
    His research focuses on developing the national security required 
to secure the long-term interests of the United States--protecting the 
public, providing for economic growth and preserving civil liberties.
    In this capacity, Carafano is one of the principal policy experts 
who appear in Heritage's gripping documentary on the case for missile 
defense, "33 Minutes: Protecting America in the New Missile Age.''
    In August 2009, Carafano was promoted to director of the Allison 
Center for Foreign Policy Studies as well as to deputy director of the 
Kathryn and Shelby Cullom Davis Institute for International Studies.
    Carafano, a 25-year veteran of the Army, manages day-to-day 
research and program activities of the Allison Center. He also serves 
as deputy to Kim R. Holmes, vice president for defense and foreign 
policy studies, in overseeing the centers and projects of Davis 
Institute, where Carafano had been assistant director since 2006.
    He is a weekly columnist on national security affairs for the 
Washington Examiner newspapers.
    Carafano's most recent book is Private Sector/Public Wars: 
Contracting in Combat-Iraq, Afghanistan and Future Conflicts (Praeger, 
2008), a rigorous study of contractors' role on the battlefield and 
their impact on military effectiveness and civil society.
    Carafano's current book project is a history of the modern 
military. He is editing a new book series, ``The Changing Face of 
War,'' which examines how emerging political, social, economic and 
cultural trends will affect the nature of armed conflict.
    Carafano joined Heritage as a senior research fellow in 2003. He 
had been a senior fellow at the Center for Strategic and Budgetary 
Assessments, a Washington policy institute dedicated to defense issues.
    In his Army career, Carafano rose to the rank of lieutenant 
colonel. He served in Europe, Korea and the United States. His 
assignments included head speechwriter for the Army Chief of Staff, the 
service's highest-ranking officer. Before retiring, Carafano was 
executive editor of Joint Force Quarterly, the Defense Department's 
premiere professional military journal.
    A graduate of West Point, Carafano holds a master's degree and a 
doctorate from Georgetown University as well as a master's degree in 
strategy from the U.S. Army War College.
    He is a visiting professor at National Defense University and 
Georgetown University. He previously served as an assistant professor 
at the U.S. Military Academy in West Point, N.Y., and as director of 
military studies at the Army's Center of Military History. He taught at 
Mount Saint Mary College in New York and was a fleet professor at the 
U.S. Naval War College.
    Carafano is the co-author with Paul Rosenzweig of Winning the Long 
War: Lessons from the Cold War for Defeating Terrorism and Preserving 
Freedom (2005). The authors, first to coin the term ``the long war,'' 
argued that a successful strategy requires a balance of prudent 
military and security measures, continued economic growth, zealous 
protection of civil liberties and prevailing in the ``war of ideas'' 
against terrorist ideologies.
    Carafano also co-authored a textbook, Homeland Security (McGraw-
Hill), designed as a practical introduction to everyday life in the era 
of terrorism. The textbook addresses such key details as the roles of 
first responders and volunteers, family preparedness techniques and in-
depth looks at weapons of mass destruction.
    His other works include G.I. Ingenuity: Improvisation, Technology 
and Winning World War II (2006); Waltzing Into the Cold War (2002); and 
After D-Day (2000), a Military Book Club main selection.
    As an expert on defense, intelligence and homeland security issues, 
Carafano has testified many times before Congress.
    He is a regular guest analyst for all the major U.S. network and 
cable television news organizations, from ABC to FOX to MSNBC to PBS, 
as well as such outlets as National Public Radio, Pajamas TV, Voice of 
America and the History Channel. From SkyNews to Al Jazeera, he also 
has appeared on TV news programs originating in Australia, Austria, 
Canada, France, Great Britain, Greece, Hong Kong, Ireland, Iran, Japan, 
Portugal, Spain and Sweden.
    Carafano's op-ed columns and commentary are published widely, 
including the Baltimore Sun, Boston Globe, New York Post, Philadelphia 
Inquirer, USA Today and Washington Times in addition to the Washington 
Examiner.
    He is a member of the National Academy's Board on Army Science and 
Technology and the Department of the Army Historical Advisory 
Committee. He is a senior fellow at George Washington University's 
Homeland Security Policy Institute.
    In 2005, Carafano received Heritage's prestigious W. Glenn and Rita 
Ricardo Campbell Award. The honor goes to the staff member determined 
to have made ``an outstanding contribution to the analysis and 
promotion of the free society.''

    Chairman Quayle. Thank you, Dr. Carafano.
    Mr. Pearl, you are now recognized for five minutes.

          STATEMENT OF MARC PEARL, PRESIDENT AND CHIEF

              EXECUTIVE OFFICER, HOMELAND SECURITY

                  AND DEFENSE BUSINESS COUNCIL

    Mr. Pearl. Thank you, Chairman Quayle, and welcome to you 
first hearing of the Subcommittee. There is going to be many 
more, and I hope that they are just as substantive at this 
first one is. I want to thank you and the Members of the 
Committee for giving the Homeland Security and Defense Business 
Council an opportunity to testify before you today.
    The Council, just for background, is a not-for-profit, non-
partisan organization of the leading companies that deliver 
homeland security solutions to the marketplace. Our 
organization works to ensure that the perspective, the 
innovations, the expertise and the capabilities of the private 
sector are fully utilized in our Nation's security as well 
recognized and integrated with the public sector at the same 
time. We appreciate, I want to say at the outset, the 
leadership of this Subcommittee and the Full Committee on the 
critical issues associated with improving R&D within government 
as well as your continued support for successful partnerships 
between government and the private sector in order to fulfill 
our collective mission, which is to keep our Nation safer and 
more secure. These partnerships, as has been talked about 
today, are key to the government's ability to deliver high-
quality solutions to citizens effectively, efficiently and 
fiscally responsibly.
    The Committee asked us to discuss any observable changes 
that have occurred following the QHSR and the reorganization of 
the Directorate and to provide as well the industry's 
collective perspective on the relationship between and 
interaction between DHS S&T programs, and my written testimony 
also goes into some suggestions that the private sector has on 
recommendations for success. I ask that my full written 
testimony be included in the hearing record.
    With respect to the QHSR, let me briefly comment that we 
applaud the department's efforts to collect and input and all 
of the things that came out of it last year. It is the hope of 
the Council and all of our members that the policy compilation 
leads to a successful strategic plan that all of the members 
discussed in their questions this morning that includes 
priorities, budgets and operational requirements as well as 
program alignments that will help achieve cost efficiencies and 
mission success. This process should serve to inform the 
business sector of the department's long-range priorities and 
long-term needs in a timely manner as well as giving industry 
solution providers and opportunity to engage the government, to 
help identify any gaps that may exist in technology, 
capabilities and reasonable expectations about timeliness and 
the cost of delivery.
    While the Council fully supports the continued efforts to 
improve the S&T Directorate, reorganization as such is not as 
important as establishing an operational philosophy that 
includes more effective engagement across entire department 
components to better solicit and understand its requirements as 
well as with the private sector to solicit the most effective 
and efficient solutions to those requirements.
    My written testimony outlines some of the examples of 
reorganization that might assist in improving mission success 
including the creation of an acquisition and operational 
analysis division to improve the writing of the necessary 
requirements and the overall strengthening of the individual 
components acquisition programs as well as we discuss the 
enhancement of the Homeland Security Advanced Research Projects 
Agency by combining all of the S&T divisions, thereby 
strengthening and gaining better alignment across the 
disciplines and needs.
    The Council members, in reiterating what Dr. Carafano was 
saying, also believe that the acquisition process itself is a 
critical part of a lifecycle that must begin much earlier than 
contracting activities. Long before a blueprint is drawn up or 
before RFIs and RFPs are proffered, there must be a collective 
cooperation with and in substantive engagement between experts 
on the ground and practitioners in the field. The Council's 
continuing efforts to identify and develop successful 
interactions with the S&T Directorate we believe have paid 
dividends both for government and industry. We have 
historically worked closely with the Directorate since its 
inception and have developed and nurtured substantive 
engagements. We need to continue those discussions.
    But even amidst the establishment of that effective 
relationship, the business sector as a whole is currently 
struggling to comprehend long-term strategic needs and goals of 
the department, especially within the Directorate. This has 
made our long-term investments towards innovative technologies 
that could become effective solutions challenging at best. 
Broad and interactive communications to inform strategic 
planning and developing a national technology framework are 
absolutely necessary in order to achieve a level playing field 
and spur innovative efforts. As I said, greater long-term 
strategic planning and more opportunities to engage the 
department earlier in the planning process will also result in 
our fulfilling the needs of the Directorate and delivering 
innovative and successful solutions our Nation needs.
    Lastly, my written testimony outlines a number of 
recommendations for consideration by the Subcommittee in 
addition to what I previously mentioned. Allow me to briefly 
highlight a couple of those. The S&T Directorate must have 
greater access across government and greater authority over 
Homeland Security R&D efforts. The S&T Directorate with 
Congressional support and encouragement to in essence couple on 
to what Dr. Carafano said must actively demonstrate a continued 
commitment to the SAFETY Act forgetting about international 
also within the country itself. This is one of the 
Directorate's best and most tangible methods for working with 
the private sector. And continued and adequate Congressional 
funding of technological R&D homeland security solutions is a 
worthy and a necessary investment. Without it, the department's 
ability to deliver solutions to protect our Nation and 
potentially extinguish technology advantages over an ever-
evolving adversary will be compromised.
    In conclusion, the Council once again expresses our 
appreciation for the opportunity to testify before you this 
morning. We pledge, the Council and its members, an opportunity 
to provide this committee and the department with appropriate 
support, expertise and input needed to achieve mission success, 
and we look forward to meeting with you and working with you as 
deliberations continue. Thank you.
    [The prepared statement of Mr. Marc Pearl follows:]
                  Prepared Statement of Mr. Marc Pearl

Introduction

    Chairman Quayle, Ranking Member Wu and Members of the Committee, I 
thank you for giving the Homeland Security & Defense Business Council 
an opportunity to appear before you today. At the outset, we want to 
express our appreciation to this Subcommittee and to the full Science, 
Space and Technology Committee for its continued leadership on the full 
range of critical issues associated with improving research and 
development (R&D) within government and encouraging even greater 
involvement of industry. We also want to recognize, in particular, your 
guidance on initiatives to enhance the partnership and recognition of 
the importance of substantive engagement between the government and the 
private sector when it comes to fulfilling our collective mission--to 
keep our nation safer and more secure. That partnership is essential to 
our government's ability to deliver high quality solutions to citizens 
effectively, efficiently, and fiscally responsibly.
    I am Marc Pearl, President and CEO of the Homeland Security & 
Defense Business Council, a not-for-profit, non-partisan organization 
of the leading companies that deliver homeland security solutions to 
the marketplace. The Council works to ensure that the perspective, 
innovation, expertise and capabilities of the private sector are fully 
utilized in our nation's security, as well as recognized and integrated 
with the public sector.
    The Council and its members, first and foremost, support fairness 
and openness in the Federal contracting process; inclusion of the 
private sectors' perspective in major legislative and administrative 
initiatives; and the effective use of resources and adoption of the 
most advanced security solutions to protect our citizens, economy and 
critical assets. Council members employ over 3 million Americans in all 
50 states. We are honored and proud to work alongside leaders from 
civilian, defense and Intel agencies in support of their strategic 
initiatives, through our individual and collective expertise in 
technology, facility and networks design and construction, human 
capital, financial management, technology integration, and program 
management.
    This focus of the Council's testimony is to provide the 
subcommittee with industry's collective perspective on the relationship 
and interaction between DHS science and technology programs and the 
private sector's recommendations for success. It will also address any 
observable changes that have occurred following the Quadrennial 
Homeland Security Review and reorganization of the Science and 
Technology Directorate.

Quadrennial Homeland Security Review (QHSR)

    The Council applauds the Department's effort in collecting input 
and developing the Quadrennial Homeland Security Review published last 
year. The Council and all of our members hope the QHSR will lead to a 
strategic plan that would include priorities, budgets, operational 
requirements, and programmatic alignments that will help to achieve 
cost efficiencies and mission success. This process could serve to 
inform the business sector of the Department's long-range priorities 
and long-term needs in a timely manner. In addition, this process could 
give industry solution providers an opportunity to engage the 
government and help identify any gaps in technology, capabilities, and 
reasonable expectations about timeliness and cost of delivery.
    The QHSR--in and of itself--has been an important policy guidance 
document, but it and the entire process need practical, identifiable 
and operational linkages to budget and a long-term strategic needs 
assessment with corresponding goals, priorities and budget.
    Any strategic planning review and `head-of-curve' discussions 
should focus on answering three basic, but crucial questions with 
respect to the specific linkage between the policy and the 
implementation:

        1.  Is the plan economically reasonable?

        2.  Is it technologically feasible?

        3.  Does it take into account any significant unintended 
        consequences?

    These fundamental questions should guide all future development, 
deployment, and implementation. When addressed--whether by program 
managers, senior officials and/or, even Members of Congress--we all 
will be able to successfully move forward to ensure industry's ability 
to align its business lines and strategies to meet the Directorate's 
and our nation's needs.

Science & Technology Directorate Reorganization

    The Council supports the continued efforts to improve the Science 
and Technology Directorate. However, reorganization, as such, is not as 
important as establishing an operating philosophy that includes more 
effective engagement with Department's components to better solicit and 
understand its requirements; and with the private sector to better 
solicit the most effective and efficient solutions to those 
requirements. The Council's believes that the following examples of 
reorganization might assist it in improving mission success.

        <bullet>  The creation of an ``Acquisition and Operational 
        Analysis Division'' to improve the writing of the necessary 
        requirements and the overall strengthening of the individual 
        components' acquisition programs can be of great benefit. 
        Existing efforts to link R&D to operational requirements are a 
        positive step forward, but there remains ambiguity over the 
        requirements.

        <bullet>  Enhance the Homeland Security Advanced Research 
        Projects Agency (HSARPA) by combining all the S&T divisions, 
        thereby strengthening and gaining better alignment across the 
        disciplines and needs. This process also has potential to 
        improve consistency with the way DoD & DoE use DARPA and ARPA-E 
        to leverage science. We recognize, of course, that there are 
        still a lot of cultural changes required to ensure cooperation, 
        but working towards such a goal will promote greater science, 
        provide more effective and efficient solutions, and lead to 
        practical applications that serve our nation's security needs.
    Real mission success in R&D can be achieved through the 
establishment of policies and procedures that advance the movement of 
critical technologies from the laboratory, and early research and 
development to the field in a manner that supports successfully 
transition of these technologies for homeland security application.

Acquisition Process

    The Council believes that the acquisition process is part of a 
lifecycle that must begin much earlier than contracting activity 
itself. Long before the `blueprint' is drawn up, and before the RFIs or 
RFPs are proffered, there must be collective cooperation with and 
substantive engagement between experts on the ground and practitioners 
in the field. A successful process should also require equipping the 
entire team with an understanding of the challenges and risks in place 
during the entire lifecycle of the project to ensure success. This 
process could successfully address a project's economic reasonability, 
technological feasibility, and unintended consequences.
    A GAO Report that has been cited by the House and Senate leadership 
on countless occasions found that ``contracts with well-defined 
requirements linked to measurable performance standards delivered 
results within budget and provided quality service.'' \1\
---------------------------------------------------------------------------
    \1\ GAO report GAO-08-263 entitled 'Department of Homeland 
Security: Better Planning and Assessment Needed to Improve Outcomes for 
Complex Service Acquisitions'--released on May 8, 2008.
---------------------------------------------------------------------------
    This process must be properly managed and communicated to ensure 
the necessary solutions are developed with ``man on the ground'' 
requirements development, including input from the private sector to 
meet the goals of the ``final customer.'' We would very much like to 
see a functioning process that identifies and tracks requirements 
generated at any level through validation, budgeting, acquisition, and 
success or effect. The development of a clear DHS-wide process would 
not only serve to enhance efficiency, but would provide needed 
transparency so that end-users--acquisition and operations officials--
and industry can work in concert, rather than exist in a seemingly 
disconnected and stove-piped environment.

The Relationship And Interaction Between DHS Science And Technology

Programs and the Private Sector

    We are very grateful that the subcommittee has also asked us to 
address this issue. The work and mission of the Council is primarily 
focused on how industry can be more successful in building trusting, 
cooperative, and substantive engagements with our counterparts in the 
public sector. There is no question that our continuing efforts in 
striving to identify and develop successful interaction with the 
Directorate have paid dividends for both government and industry. The 
Council and its members have successfully worked closely and nurtured a 
substantive relationship with the Directorate since its inception to 
discuss and develop innovative solutions to protect our country. But 
even amidst the establishment of an effective relationship, the 
business sector, as a whole, has struggled to comprehend the long-term 
strategic needs and goals of the Department, especially within the 
Directorate. This has made our long-term investments toward innovative 
technologies that might become effective solutions, challenging at 
best.
    Similar to the Federal sector, industry has limited resources to 
devote to developing homeland security solutions. They cannot devote 
these resources to building speculative technologies. We want to 
deliver the solutions that the Department and our nation needs.
    The Council's overarching mission is to work with DHS officials to 
improve its engagement with the private sector long before a crisis or 
even the development of a program. Ultimately, the private sector will 
provide the innovation needed to develop the appropriate solutions as 
demonstrated time over time in our nation's history. In order to pursue 
a level playing field across industry and to spur innovation efforts, 
broad and interactive communications to inform strategic planning and a 
national technology framework are needed. The business sector is 
willing to devote resources and take risks in order to help provide 
homeland security solutions, but we are looking to DHS to further 
improve its requirements development and definition.
    Large amounts of guidelines, forms, databases and other documents 
must be reviewed and produced to initiate dialogue in some parts of the 
agency. Focusing less on documentation and process and more on 
interaction and partnership could substantially free up bottlenecks. In 
addition, identifying private sector SMEs in relevant scientific 
disciplines could enable partnerships more quickly and effectively.
    The Council is hopeful that the future will include greater long-
term strategic planning and more opportunities to engage the Department 
earlier in the planning process. Through early engagement in the 
process we can better understand and deliver the innovative solutions 
that will protect our country and its people.

Recommendations

    The Council submits the following recommendations for consideration 
by the subcommittee:

        <bullet>  Increased Cooperation and Visibility: The private 
        sector brings more than a `vendor' mentality to the table. We 
        have our own R&D projects ready to respond to stated needs of 
        our nation, but we cannot develop them in a vacuum. We want to 
        continue meeting the needs of the Department, the Directorate, 
        and the nation as a whole. Government and its industry partners 
        share the same goals. Projects completed on time and on target 
        are a win-win. Programs that meet their objectives are a win-
        win. We understand the needs are complex and challenging, but 
        our common goal is to find the most appropriate, effective, and 
        efficient routes to mission success. The public and private 
        sectors--working from previous recommendations and developing 
        new ones if necessary--must be able to work from the same 
        strategy.

        <bullet>  Greater Authority and Planning for Science and 
        Technology Directorate: The Council supports greater authority 
        for the Science and Technology Directorate. Currently homeland 
        security R&D efforts are spread among many governmental 
        organizations. The Directorate is highly dependent on other 
        federal agencies to achieve its mission. However, there does 
        not appear to be a clear strategy for how to do that 
        effectively, and collaboration with DoD, DoE, NIST and other 
        scientific organizations is not clearly organized, resulting in 
        duplicate and potentially unleveraged efforts. It must be 
        recognized that there are significant cultural challenges 
        within the Department, and it remains a challenge to 
        effectively bring new technologies to maturity, and 
        concurrently, to gain broad acceptance in the operational 
        communities. In order to succeed, the S&T Directorate must be 
        able to direct the government-wide homeland security R&D 
        agenda, not compete against numerous organizations inside and 
        outside the Department.

        <bullet>  Innovative Solutions vs. ``Gadgets'': The Council 
        believes there is a need to improve the way the Directorate 
        thinks about and pursues innovation. ``Needs'' are typically 
        defined by end-user practitioners and frequently fail to 
        incorporate scientific perspectives and commercially available 
        technologies effectively. As a result, requirements frequently 
        end up defining a point source technology, product or service 
        (``gadget'') that may or may not successfully address the true 
        need. Additionally, ineffective requirements processes result 
        in increased or lost cost of development, commercialization 
        delays across the board, and potential duplication of effort. 
        Industry expertise in commercial technology development is also 
        not leveraged to the extent it could be.

        <bullet>  SAFETY Act Commitment: The Council supports continued 
        commitment to the SAFETY Act--one the Directorate's best and 
        most tangible methods for working with the private sector. The 
        SAFETY Act is the most reliable way DHS can learn about and 
        encourage the deployment of critical security tools and 
        services. The Council hopes for continued commitment from S&T 
        leadership, starting with the Under Secretary and her personal 
        staff, to implement the SAFETY Act in a full and complete 
        fashion. Ideally, complete implementation would create a clear 
        application process and establish standards that promote the 
        full utilization of the law.

        <bullet>  Continued Congressional Funding: The Council also 
        believes continued congressional funding of the research and 
        development of technological homeland security solutions is a 
        worthy and necessary investment. Without adequate funding, the 
        Department will have a diminished ability to deliver solutions 
        to protect our nation, have a devastating effect on the overall 
        homeland security R&D enterprise, and potentially extinguish 
        technology advantages over an ever-evolving adversary. HR-1 
        proposes to eliminate more than $500 million from the 
        Department of Homeland Security's Science and Technology 
        budget--effectively cutting it by half. The Council hopes that 
        the legitimate desire on the part of Congress to curtail 
        unnecessary spending will not result in the reduction of our 
        nation's ability to develop tools to counter the threats it 
        faces and spur its global competitiveness.

Conclusion

    On behalf of the Homeland Security & Defense Business Council, I 
once again express our appreciation for the opportunity to provide our 
comments on the important issues before the Subcommittee. The Council 
and its members pledge to provide this Committee and the Department 
with the appropriate support, expertise and input needed to achieve 
mission success. We are prepared to work with the subcommittee not just 
as a neutral conduit between the public and private sectors, as a very 
interested actor and trusted advisor to mutually achieve the following 
goals:

        <bullet>  Identify and find real world solutions to our 
        homeland security challenges;

        <bullet>  Work towards a strategic plan with visibility and 
        cooperation in the research and development of homeland 
        security solutions; and

        <bullet>  Ensure a sound, fair and responsible acquisition 
        process.
    We believe the achievement of these goals will help get our nation 
where it needs to be--where this Committee, the administration, the 
Department, and the private sector want us to go--and ensuring that we 
get there together.
    We look forward to working with the Subcommittee as it continues 
its deliberations.

                      Biography for Mr. Marc Pearl
    Marc Pearl has served as President and CEO of the Homeland Security 
& Defense Business Council since March 2008. The seven-year old 
Council's membership consists of the leading companies that provide 
homeland security solutions for our nation, and actively involves their 
senior executives in developing substantive high-level thought 
leadership peer-to-peer interaction with their government counterparts. 
The Council's programs and initiatives focus on ensuring that the 
perspective, innovation, expertise and capabilities of the private 
sector are fully utilized in our nation's security.
    Prior to joining the Council, Marc was the principal and chairman 
of IT Policy Solutions, which he founded to counsel private sector 
organizations in meeting their public policy challenges. He 
concurrently served as executive director of the Consumer Electronics 
Retailers Coalition. Pearl had previously been a partner at the 
international law firm, Shaw Pittman and led their e-commerce policy 
practice; served as general counsel and senior vice president at ITAA 
(now TechAmerica); and was chief of staff and legislative counsel to 
U.S. Representative Dan Glickman, when the former congressman chaired 
the House Intelligence Committee.
    Marc has lived and worked in DC for more than three decades, 
focusing his work on technology and cyber security policy issues since 
the mid-1990s. Pearl's grasp of the federal, state/local and global 
policy issues important to industry, together with his non-partisan, 
substantive approach to policymaking have made him an invaluable 
resource to clients and a trusted advisor to numerous decision makers. 
He helped form and led broad-based coalitions on Y2K liability 
legislation, e-commerce transaction jurisdiction laws, digital 
authentication and the DTV ``transition.'' Marc was also privileged to 
represent the private sector on U.S. government delegations at the 
Hague Conference on Private International Law, the World Trade 
Organization (WTO) and the World Intellectual Property Organization 
(WIPO).
    Born and raised in Detroit, Marc graduated with honors from Case 
Western Reserve University and received his law degree from Emory 
University's School of Law.
    For more information on the programs, initiatives and mission of 
the Homeland Security & Defense Business Council visit: http://
www.homelandcouncil.org.

    Chairman Quayle. Thank you, Mr. Pearl.
    Mr. Maurer, you are recognized for five minutes.

           STATEMENT OF DAVID MAURER, DIRECTOR OF THE

           HOMELAND SECURITY AND JUSTICE TEAM AT THE

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Thank you. Good morning, Chairman Quayle and 
Members of the Committee. I am pleased to be here today to 
discuss the recent findings from past work looking at research 
and development at the Department of Homeland Security.
    Two weeks ago, GAO issued its first mandated review of 
potential duplication, overlap and cost savings within federal 
programs. In that review, we identified research and 
development at DHS as a potential area for cost savings. 
Drawing on years of work at DHS, we found that the department 
has the potential to reap important cost savings by taking two 
commonsense actions. First, test systems to make sure they meet 
requirements before deciding to buy them. Second, conduct cost-
benefit analysis to ensure that taxpayer dollars are buying 
systems that improve Homeland Security capabilities.
    In recent years, we found that DHS has not always taken 
these actions. As a result, DHS ends up taking risks that 
multi-billion-dollar programs may not deliver their expected 
results. In some cases, DHS spent millions on systems that did 
not work and that did not enhance security.
    For example, in 2006, the Transportation Security 
Administration began deploying explosive trace portals, or ETP, 
in airports. These so-called puffer machines blow air on 
passengers and check for residue of explosives. Unfortunately, 
TSA deployed ETPs knowing that operational testing had not been 
completed, that the system's functional requirements had not 
been fully tested and that ETPs had not performed well on the 
tests that had been completed. TSA ended up spending millions 
on a system that had a lower capability, broke down more 
frequently, and cost more to install than initially planned. As 
a result, TSA stopped buying new systems and pulled what they 
had deployed out of service.
    We have also previously reported significant problems with 
DHS's efforts to deploy and develop the advanced spectroscopic 
portal monitor, or ASP. Within DHS, the Domestic Nuclear 
Detection Office, or DNDO, wanted to develop and deploy 
improved radiation detection equipment. DNDO believed ASPs 
would better perform than the equipment currently being used on 
the Nation's borders. However, DNDO did not conduct a 
meaningful cost-benefit analysis comparing ASPs to existing 
systems. Our work found that DNDO overestimated the 
capabilities of the ASPs, underestimated the capabilities of 
the current systems, and underestimated the costs to develop 
and deploy ASPs. In short, it was not clear that spending 
taxpayer dollars on this program would deliver improvements in 
primary radiation screening capabilities. As a result, in 
February of last year, the Secretary of Homeland Security 
scaled back plans for the number of ASPs DHS would purchase and 
how they would be used.
    Now, when you hear examples like this, it is important to 
remember why DHS presses the envelope. The department faces a 
constant balancing act between immediate mission needs and the 
need to make sound, informed choices, following processes that 
are not always designed for speed. Within this context, DHS 
needs to make difficult decisions on when and how to develop, 
deploy and purchase new technologies. However, as our work has 
found, there have been too many cases of DHS rushing to 
failure. Failure to adequately test or conduct meaningful cost-
benefit analysis can end up wasting taxpayer dollars and not 
enhancing our security.
    The good news is that DHS has taken actions to address 
these problems. In the past several months, DHS has issued new 
policies for acquisition and testing and evaluation. It has 
implemented a reorganization of the Science and Technology 
Directorate and has developed plans to revamp how DHS 
approaches overall investment decision-making. Taken together, 
these changes indicate an important commitment from department 
leadership to take these problems head on. That is encouraging. 
But it is still too early to tell the impact of these actions. 
The hope is that DHS will leverage these relatively new changes 
and turn plans into actions to ensure that, among other things, 
it adequately tests new systems and conducts cost-benefit 
analysis before making multi-million or multi-billion-dollar 
decisions. By doing so, DHS makes it more likely that systems 
will be delivered on time, within budget and capable of meeting 
critical mission needs.
    Mr. Chairman, thank you for the opportunity to testify 
today. I look forward to your questions.
    [The prepared statement of Mr. Maurer follows:]
               Prepared Statement of Mr. David C. Maurer

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Biography for Mr. David C. Maurer
    David Maurer is a Director in the U.S. Government Accountability 
Office's (GAO) Homeland Security and Justice team, where he leads GAO's 
work reviewing DHS and DOJ management issues. His recent work in these 
areas includes DHS management integration, the Quadrennial Homeland 
Security Review, Secret Service financial management, DOJ grant 
management, the federal prison system, and an assessment of 
technologies for detecting explosives in the passenger rail 
environment.
    From 2008-9, Mr. Maurer worked as an Acting Director in GAO's 
Natural Resource and Environment team, where he managed work assessing 
U.S. global nuclear detection programs, and enforcement of federal 
environmental law. Mr. Maurer was also detailed to the House Committee 
on Appropriations, Surveys and Investigations staff. From 1993-2007, 
Mr. Maurer managed and led work in GAO's International Affairs and 
Trade team, where he reviewed U.S. efforts to combat international 
terrorism and proliferation of weapons of mass destruction, U.S. 
assistance to the former Soviet Union, peacekeeping in the Balkans, and 
several other international issues. He also served as the team's 
manager for staffing and human capital issues. In recognition of his 
contributions to audit work, training, and operational 
responsibilities, Mr. Maurer has received several GAO awards during his 
career.
    From August 2005 through June 2006, Mr. Maurer was a student at the 
National Defense University where he was recognized as a Distinguished 
Graduate of the Industrial College of the Armed Forces and received an 
M.S. in national resource strategy. Mr. Maurer also has an M.P.P in 
international public policy from the University of Michigan and a B.A. 
in international relations from Michigan State University.

    Chairman Quayle. Thank you very much, Mr. Maurer, and 
thanks to the whole panel for your testimony. We are going to 
start the questioning, and I want to remind members that 
committee rules limit questioning to five minutes. I will now 
recognize myself for the first five minutes.
    Mr. Maurer, I was just listening to your testimony. You 
expressed a lot of concerns with the Directorate and DNDO 
including the need to improve R&D efforts by ensuring that 
testing and the cost-benefit analysis happens prior to making 
any acquisition decisions. Now, does the creation of the 
acquisition support and operations analysis group fully address 
this issue or is it just another layer of bureaucracy within 
the agency?
    Mr. Maurer. I really think that remains to be seen. If you 
look at it on paper, it definitely shows promise, and our hope 
is that it is implemented in a way to address the deficiencies 
we found in the past, and one thing I would caution everyone on 
that there has never been a shortage of plans coming out of the 
Department of Homeland Security, so we really want to see the 
transition from plans into reality and implementation in the 
real world.
    Chairman Quayle. So this is a wait-and-see approach to see 
if it actually has some benefit with actually making sure that 
it is on time, on budget and is actually making the 
acquisitions based on looking at efficiencies and cost-benefit 
analysis?
    Mr. Maurer. Absolutely. We have work underway for the 
Homeland Security Committee currently looking at S&T's role in 
testing and evaluation within the department so we will be able 
to report on that later this year. We are also taking a careful 
look at how DHS is revamping its acquisition approach as part 
of our high-risk update.
    Chairman Quayle. Dr. Carafano, do you have any thoughts 
about that new portion of the agency that is going to be 
developed?
    Mr. Carafano. Yes. It can't solve the problem. It is going 
to help--if it is done right, it will help with the 
requirements process. That is for sure. It may help in terms of 
the guidance, the testing and evaluation, but it doesn't manage 
the entire acquisition process so there is still lots of places 
where things can run off the rails. So I think fundamentally 
what has to be addressed is DHS has to create an established 
acquisition process that does the end-the-end management from 
requirements to testing and evaluation to fielding to 
integrating with the other department needs. The question I 
think is what is the role of S&T in that, how much of that does 
it bite, and I think for a starter, I mean, we ought to revisit 
the legislative language of S&T's mission and that ought to be 
part of that, and I really do look to--we have never had an 
authorization bill, reauthorization bill for the Department of 
Homeland Security. This would be the perfect thing for the 
Congress to address, is to at least establish its formal 
expectations across the department for how it is going to do 
that. And again, I am not saying S&T should be in charge of 
everything to do with acquisition but it is going to definitely 
be a big player in that, and all the other pieces have to be 
established.
    Chairman Quayle. On that, if we are looking at it to 
address the immediate needs and also take into account the 
long-term R&D goals, you have been critical about the lack of a 
strategic approach for that. Could you just give some 
suggestions on how to develop that strategic approach and what 
would you actually put into place, just off the top of your 
head?
    Mr. Carafano. Well that is two different--there is a lot of 
questions. Let me just address the question of acquisition. So 
one is the formal acquisition process. The other one is rapid 
acquisition, and the rapid acquisition one is actually the one 
that is more difficult and problematic, and this is--I mean, we 
have seen this in DOD over and over again. They get into a war. 
They see something they never thought of before. They scramble 
around and figure out how to fix it. They eventually figure out 
how to fix it. Sometimes it costs a lot. Sometimes they get 
lucky. But the point is, is it is an--the rapid acquisition is 
an ad hoc process and then as soon as the war is done, they 
dissemble that process and reinvent it the next time. Because 
people don't like rapid acquisition because it is a competitor 
with long-term acquisition, right? Because somebody comes up 
with a great idea, I have been working on this for ten years 
you are not going to kill my program because you just found a 
better idea, right? So for those things not in a sense to be in 
competition, the lanes have to be designed and they have to be 
specified in a formal way ahead of time.
    So I was just making a note that if you want to have a 
rapid acquisition process, you have to have a couple of things. 
First of all, you have to have a feedback loop that identifies 
a need. Second, you have to have an operational research 
capability so you can evaluate that need and determine if you 
need a technology fix or if you should do something else. If it 
is a technology fix, you have to have a horizon scanning, the 
kind of thing Tara talked about, the ability to go out and look 
and see what is out there, to grab the technology. Then you 
have to have a way to test and evaluate it and safety-certify 
it. And then most importantly, and this is where DOD fails 
again and again, you have to have a way to field it, train 
people in how to use it, and then sustain it. So all those 
pieces have to be part of a rapid acquisition process. 
Otherwise it doesn't work. And for DHS, the penultimate example 
was the response to the oil spill when they had a dramatic need 
for new technologies to deal with the oil spill and they had 
absolutely no system in place to acquire those technologies and 
everything was done ad hoc, and I would go back now and say it 
would be a great question for the next time the Secretary comes 
to testify before you is, tell me what you have done to 
formalize the lessons that you learned in the Gulf oil spill to 
rapidly acquire technology.
    Chairman Quayle. Thank you. The chair now recognizes Mr. 
Lujan for five minutes.
    Mr. Lujan. Thank you, Mr. Chairman.
    Dr. Carafano, in your prepared testimony, you stated that--
you called on the S&T Directorate to dramatically scale back on 
screening and detection technologies and to put those efforts 
straight into cybertechnology development. What is the 
rationale behind that?
    Mr. Carafano. Well, cybertechnology among others would be 
my priority, and the reason why I think screening and detection 
technologies are a bit of a sinkhole is that we live in a 
country with almost infinite vulnerabilities. You know, if you 
spend infinity minus one, you have infinity vulnerabilities, 
right? I mean, this would be as if we approached the 
Prohibition with let us be able to detect alcohol. I mean at 
the end of the day, even lifting Prohibition didn't stop the 
Mafia. What stopped the Mafia was you went in and you 
identified the network and you attacked the network.
    So the question really is, where do you get the best bang 
for the buck. Screening and detection technologies, I mean, we 
all know the problems with false positives and false negatives, 
and sure, everybody can find a technology, but then you go to 
operationalizing the technology and this is the essence of what 
I would hope that this operational analysis would get to is, 
for all the money we are going to invest in technology, are we 
getting the best bang for the buck. Do I get more money from 
finding another technology to find a fistful of money in a 
Buick at the border or would I be better off investing in 
something that is going to enable the integrated border 
enforcement team to go and find the network that is moving that 
money and take that network down.
    Mr. Lujan. I appreciate that very much.
    Mr. Maurer, that would lead to a natural question, I 
believe, to yourself. In 2009, I believe it was the Justice 
Department that said that drug cartels are now the largest 
organized threat to the United States. We talked about drug 
trafficking, human trafficking. Based on the response from Dr. 
Carafano, what more can we be doing or how can we improve what 
we are doing with DHS and working with other entities to be 
able to better protect our homeland?
    Mr. Maurer. Well, GAO has done a lot of work looking at 
U.S. efforts to combat drug smuggling and securing the border. 
I think as a general proposition, one of the key things that we 
found over the years is the importance of finding ways to have 
the different federal agencies work more closely together. We 
have ongoing work, for example, looking at the extent to which 
DEA and ICE are trying to operate under a new memorandum of 
understanding and are trying to do a better job of crafting a 
more integrated approach to the problem.
    I think the bottom line is, there are a lot of different 
federal, state and local agencies that sort of play in this 
broader sandbox of addressing the problem of drugs being 
smuggled into this country, and if we can figure out ways to 
leverage the different capabilities of all these different 
agencies and apply them to the problem, we would be better off 
in the long run.
    Mr. Lujan. I appreciate that. And just going back to Dr. 
Carafano's response, Mr. Chairman, I think that what we see 
here is that we need to identify that common purpose, and if 
MOUs are trying to be worked out, they need to be required to 
be worked out and that we have to find those networks to be 
able to combat them, and I appreciate that very much.
    Mr. Pearl and Mr. Carafano, in your testimony and your 
responses to us here and not just your prepared testimony but 
in what you shared with us as a committee, I very much 
appreciate the fact that you are calling for clear projections 
or outlines or requests that are going to be coming from 
federal partners to give more certainty associated with the R&D 
efforts on the private side. My question is, we have an area 
when we have tech transfer sometimes is not making its way into 
the private arm and into the private sector because there is a 
need for maturation or seed support. What role do you see where 
there can be access to the engineers, physicists, scientists to 
be able to work closer with our private sector or to be able to 
develop that sector of the Federal Government where there is an 
emphasis on pushing that technology over the top so it makes 
its way into the private sector so that private sector then 
takes it over and takes it full steam ahead?
    Mr. Carafano. Well, I think that trying to transition 
technology for users outside the department is really a very, 
very difficult process, and I would just question with 
everything the department has to go on and all of its 
priorities, is that the gorilla you really want to take on 
right now? I would really recommend that the DHS focus on 
technologies that it needs and push that other challenge later 
off down the road. There are some areas where I think 
partnerships are supremely important, and I raised the issue of 
nanotechnology and I would be pleased to talk about the 
Semitech model and how I think that model really is a model 
that we need in nanotechnology. Semitech is doing some work in 
nanotechnology but it is a very, very different field, and you 
almost need--you really need a new organization to deal with 
that.
    And I will just point to four advantages of doing this. The 
first is in efficiencies. What these groups do is, they do 
basically non-competitive research R&D, so it is the things 
that everybody is going to get in common so nobody gets a 
competitive advantage and it benefits everybody, and what that 
does is, it helps lay the baseline for the industrial base to 
then support and make products that are affordable and 
workable. And what that does is, it creates an--not necessarily 
more R&D spending but it creates an efficiency in R&D spending 
that allows people to spend the rest of their R&D money on 
other things. The most important thing is really does is it 
strengths the partnership between potential customers and 
potential suppliers. The success of these largely depends on 
the quality of the research agenda, and I would not--there is 
no magic bullet in a sense. This is, I think, the kind of 
complementary activity that government could do in public-
private partnership but it doesn't necessarily replace all the 
other kind of research and R&D. But again, I think there are 
some niche areas like nanotechnology where the payoffs are so 
enormously unbelievable across not just for DHS but across the 
Federal Government, that these are the kinds of things that are 
worth our effort.
    What we actually did to create Sematech is we actually took 
money out of DARPA and made DARPA do it. You know, I would 
actually vote for that day. I would defund something else and I 
would make the Federal Government do this because I think in 
the long end, the federal consumer is going to really benefit. 
But I mean, I think it will have an enormous benefit across our 
economy.
    Mr. Lujan. Thank you very much.
    And Mr. Pearl, maybe we will get a chance to follow up. I 
know the time we have gone over a little bit there.
    Thank you, Mr. Chairman.
    Chairman Quayle. Thank you.
    Mr. Lujan. And Mr. Chairman, with that, I was looking down 
there, I thought Mr. Neugebauer was still with us. I would like 
to ask unanimous consent for some additional time to ask a 
question for our colleague, Congresswoman Giffords.
    Chairman Quayle. Without objection.
    Mr. Lujan. Mr. Chairman, thank you very much for that, and 
we know that Congresswoman Giffords is a leader on border 
security, and if she were here today, I know that she would be 
very engaged in this hearing.
    Dr. Carafano, as you know, Congresswoman Giffords is deeply 
concerned about border security, which is why she is proud of 
the BORDERS Department of Homeland Security Center of 
Excellence at the University of Arizona. BORDERS singular focus 
is to provide government agencies and stakeholders with 
scientifically informed knowledge to expedite the development 
of innovative, practical and cost-effective solutions to meet 
the ever-changing operational demands at the northern and 
southern borders. This sounds like exactly the sort of thing 
that we need now. BORDERS is currently working with Customs and 
Border Patrol on a number of innovative projects to protect the 
Arizona border by, for example, developing new tunnel detection 
and container security technology. In your written testimony, 
you wrote that not curtailing or further limiting the terms of 
the Centers of Excellence is important. Can you comment further 
on the importance of funding these centers?
    Mr. Carafano. Yeah, absolutely. So the centers do more what 
we talk of as really science and technology in the DOD world 
which is more of the six-one type which is a basic research, 
and if you want to build an effective basic research team, it 
takes time and facilities, and so if you are moving these 
things every couple of years, I mean, you might as well not 
even bother to do it. It really does take a long-term 
commitment and ten years or some time of renewable term that is 
much, much--is really, really important. And I think the 
borders center is a good example. I think they do some 
excellent work and you would want to keep them doing that.
    And just in terms of border technology, I just would 
mention very quickly, one area where I do think there should be 
a lot more emphasis is small UAVs and there is a couple of 
reasons for that. First of all, the bag guys have a lot of eyes 
on the border and they track everything we do, and so anything 
that has kind of a big operational picture gets picked up. So 
small UAVs are important because you don't really need the 
infrastructure to set them up. It is not like the helicopter 
taking off. The other reason is, is that you can put a variety 
of sensor payloads on there very cost-effectively. You can look 
for tunnels. You can look for all kinds of things. And they are 
very cheap to operate, which is very good for state and locals 
because they can't support an expensive thing or long training. 
It is a really, I think, a very, very dynamic and important 
field, and I think the limiting thing right now is actually 
getting FAA to authorize people to fly small UAVs at the 
border. But I think the small UAV at the border, it could be an 
enormous force multiplier for federal, state and local, and 
that would be a primary to look into.
    Chairman Quayle. Thank you, Mr. Lujan.
    Is there anybody else to be recognized? No? With that, I 
will just recognize myself for one additional question, and I 
am going to address this to Mr. Pearl, but if either of the 
other witnesses wants to address this as well and answer this 
question. The Homeland Security Science and Technology Advisory 
committee, also known as Haystack, has not been active for an 
extended period of time. With the Directorate's increased focus 
on stakeholder participation, do you feel that an independent 
advisory body on science and technology is an important 
component of S&T at DHS?
    Mr. Pearl. I think it is an interesting way of going about 
it. I think it is absolutely necessary. What we have seen over 
the last few years in terms of the advisory committees is that 
it has made up in a very vertical way on government officials 
public sector. The private sector has not necessarily--and not 
to take anything away from think tanks and others or academics 
but the reality of the foot soldiers on the ground in terms of 
what the private sector brings and industry brings to the 
discussion in terms of people who have either been in these 
capacities before and they are now in the private sector or who 
are in researchers and developers and engineers onto themselves 
and the private sector have not been as involved for fear that 
there would be a best picking of winners with respect to 
identifying individual private sector organizations. That is 
something that we have tried to with the department on industry 
days that were very strong two, three, four years ago and have 
been in fact in touch with Dr. O'Toole and her team to try to 
encourage greater concentration of communication and 
cooperation between the private sector. Whether it is done 
formally or informally, Mr. Chairman, I think there has to be 
greater coordination of communication between those, the 
innovations and capabilities that exist in the private sector 
and that which exists and the desire in the long term.
    We are fighting the last war in every single way, and 
whether that is a rapid acquisition process that Dr. Carafano 
is talking about or a long term, we have to think beyond the 
corner. We have to think beyond the curve. We have to start 
thinking ahead of what is going on, and that is before, I said, 
the RFP is offered up or before the acquisition process even 
starts, whether that is through a formal advisory process or 
whether that is through an informal process, we need to move 
forward on that and certainly the Council and the members that 
are providing homeland security solutions that are members of 
the Council want to take part in those discussions as quickly 
as possible.
    Chairman Quayle. Dr. Carafano?
    Mr. Carafano. I would--I serve on the Board of Army Science 
and Technology, which is sponsored by the National Academies, 
which I think is a terrific model that S&T and DHS should look 
at so the board includes technical experts, scientists, 
operational experts and people with business experience, people 
with bench experience. I think the BAST is a really, really 
good model for that kind of support that S&T might need.
    Mr. Maurer. I think going forward, and given where the 
country is right now and this overall fiscal condition is going 
to be important set of mechanisms like this to leverage 
expertise and knowledge and insight outside the department. I 
mean, for the past several years we have been able to throw a 
lot of money at the Department of Homeland Security and I just 
don't see that continuing in the near term, so having some kind 
of mechanism to build better bridges between private sector and 
public sector is going to become increasingly important.
    Chairman Quayle. Thank you very much. I want to thank all 
of you for your valuable testimony today and for being very 
patient and the members for their questions. The members of the 
subcommittee may have additional questions for the witnesses, 
and we will ask you to respond to those in writing. The record 
will remain open for two weeks for additional comments and 
statements from members. The witnesses are excused.
    Thank you all for coming. This hearing is now adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Tara O'Toole, Under Secretary, Science and Technology, 
        Department of Homeland Security

Questions submitted by Chairman Ben Quayle

Q1.  DHS manages laboratories in multiple states, as well as FFRDCs and 
University Centers across the nation. Could you characterize how the 
University Centers of Excellence and the Department of Energy's 
National Laboratories support the research and development of DHS, and 
how their work is integrated into development, demonstration, and 
testing of technologies?

A1. The Science and Technology Directorate's (S&T) Office of National 
Laboratories (ONL) provides the Nation with a coordinated, enduring 
core of productive science, technology and engineering laboratories, 
organizations and institutions, which can provide the knowledge and 
technology required to secure our homeland. The Homeland Security Act 
of 2002 assigns ONL ``the coordination and utilization of the 
Department of Energy (DOE) national laboratories and other sites under 
Section 309 in a manner to create a networked laboratory system for the 
purpose of supporting the missions of the Homeland Security 
Department.'' In addition to oversight of the S&T laboratory 
operations, ONL coordinates homeland security-related activities and 
laboratory-directed research conducted within the DOE's national 
laboratories.
    The National Laboratories support of S&T focuses on development, 
demonstration, and testing of technologies in critical mission areas 
such as first responder technology needs, advanced passenger screening, 
explosive detection technologies, human factors and biometrics, and 
chemical and biological forensics. Examples of capabilities produced by 
S&T and National Laboratory cooperation include an early warning system 
for biological attacks; a chemical agent detection system for mass 
transit; a wireless communications system and data network to connect 
responders in the field; and a next generation liquid and gel-scanning 
system for airline passenger screening that distinguishes potential 
threat liquids from harmless ones.
    S&T's Office of University Programs (OUP) conducts multi-
disciplinary research and development in priority DHS mission areas at 
approximately 200 colleges and universities through 12 Centers of 
Excellence (COEs). The COEs align to S&T divisions and offices, to the 
DHS components, and to state and local first responders. For example, 
the National Center for Border Security and Immigration (NCBSI) aligns 
with the S&T Borders and Maritime Security Division whose partners 
include Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE), U.S. Citizenship and Immigration Services (CIS), and 
the U.S. Coast Guard (USCG). COEs improve understanding of the causes, 
elements, and consequences of a range of threats from terrorists and 
natural disasters. They also support countermeasure, mitigation, 
prevention, and resilience approaches based on both technologies and 
human behavior. The COEs work with and through the S&T divisions and 
complement other DHS research and development programs including those 
of federal laboratories and federally funded research and development 
centers (FFRDCs). They take advantage of other relevant Federal agency-
sponsored research and provide outcomes useful to federal, state, and 
local government, private sector, and international partners. The 
selection process for the COEs is highly competitive, rigorously peer-
reviewed, and merit-based.

Q2.  Given the geographic distribution of these units, how do various 
S&T units work together?

A2. The Science and Technology Directorate's Office of National 
Laboratories coordinates the work of S&T's laboratories and organizes 
annual laboratory directors meetings and regular conference calls. 
Frequent site visits by S&T leadership and staff all assure the S&T 
laboratories are properly coordinated and integrated into S&T and DHS.
    S&T's Office of University Programs (OUP) manages the COEs as a 
network. The COEs share resources, jointly fund projects and take 
advantage of each others' strengths. For example, there are 
approximately 35 projects that involve the participation of two or more 
COEs. This approach has led to a robust network of academic 
capabilities, including laboratories, experts, models and data that DHS 
and its partners can access at any time to address a wide array of 
difficult issues.S&T also leverages communication tools such as 
teleconferencing and online collaboration to minimize the effects of 
geographic distribution.

Q3.  How do the DHS internal laboratories work with the National 
Laboratories to avoid duplication of efforts?

A3. The Department of Energy's (DOE) National Laboratories have very 
different missions than the Science and Technology Directorate's (S&T) 
laboratories which inherently limits duplication of efforts. DHS 
internal laboratories are single-focused research, development, testing 
and evaluation (RDT&E) facilities in the fields of aviation security, 
biodefense analysis, chemical security analysis and technologies to 
detect nuclear and radiological threats. The DOE National Laboratories 
provide distinctive, powerful research facilities across a multitude of 
disciplines that include neutron scattering facilities, accelerators 
for nuclear and high energy physics research, large-scale field sites 
for investigating the effects of atmospherics and structures on 
radiation, chemical plumes, and other airborne hazards, and highest-end 
computing facilities.
    S&T collaborates closely with the DOE National Laboratories in 
pursuit of technologies supporting the operational needs of DHS. DHS's 
Office of National Laboratories (ONL) coordinates the efforts of both 
the DHS and DOE National Laboratories to maximize how DHS leverages 
their respective capabilities and minimizes potential duplication of 
effort. DHS also encourages partnerships among the laboratories to 
complement each other's core competencies while leveraging R&D 
investments made by others. For example, in December 2009, DHS and DOE 
agreed to create the Aviation Security Enhancement Partnership (ASEP) 
to extend and leverage this relationship with a focus on improving 
aviation security. The role of the National Laboratories is more 
research oriented and includes introduction of the basic science behind 
explosives, including Homemade Explosives (HME). S&T's Transportation 
Security Laboratory (TSL) also works collaboratively with the National 
Laboratories and will incorporate the HME research into its explosives 
detection testing program, specifically certification testing.

Q4.  Question: You have identified international cooperation as a 
priority, yet some have criticized the Directorate as having limited 
success working with our international partners. What do you see as the 
challenges in working with our international partners?

A4. The Science and Technology Directorate (S&T) conducts international 
joint research projects, technical demonstrations, scientific 
workshops, and exchanges of scientific and technological information 
and personnel. S&T has several established, formal international 
partnerships with Canada, the United Kingdom, Australia, Singapore, 
Sweden, Mexico, Israel, France, Germany, New Zealand, and the European 
Commission. Although S&T's international outreach has met with some 
success, challenges remain.
    The initial challenge has been in identifying international 
counterparts with complementary science and technology programs. Not 
all governments have an equivalent or single counterpart to S&T. 
Science and technology programs for some governments can span more than 
one ministry or government agency, requiring DHS S&T to rely heavily on 
briefings to the new and potential partners, fact-finding visits and 
program planning at both the leadership and programmatic levels. Once 
contacts have been established with the appropriate counterparts, S&T 
must undertake a series of steps in order to begin joint collaboration. 
These include work-planning sessions; negotiations of the terms and 
conditions to implement arrangements of mutual benefit, and 
establishing a model of practice for bilateral project monitoring. 
Furthermore, maintaining continuity with foreign governments that 
undergo significant changes in staff, re-organization, or policy more 
frequently than the U.S. can also slow down the process of engagement 
and implementation. A key factor in the strategic development of joint 
collaborations is conducting periodic reviews of each country's 
portfolio's interests/priorities and gaps to determine leveraging 
opportunities that can be addressed in the current or upcoming S&T 
fiscal year. Finally, another challenge to building international 
collaborations can stem from differences between the domestic laws and 
practices, restrictions, or standards of foreign countries and the 
U.S., such as in the case of procurement, intellectual property rights, 
export controls, government fiscal cycles, and currency fluctuations.

Q5.  Question: How can this cooperation be improved?

A5. International cooperation requires regular outreach for new 
collaborations, partnership engagement, and leveraging programs and 
investment. The Science and Technology Directorate has successfully 
advanced its relationships with its international partners through its 
bilateral agreements and international research program. Ongoing 
efforts by the Administration to reform export controls are anticipated 
to facilitate new and ongoing international cooperation. Further, 
improvements will be made as relationships grow with both our 
longstanding and newer partners, not simply in terms of numbers of 
collaborations, but in moving towards increased returns on investment 
and in advancing science and technology innovations that meet global 
security needs.

Q6.  What are other countries doing with homeland security research and 
development funding?

A6. Some of the Science and Technology Directorate's international 
partnerships have resulted in foreign investment in science and 
technology innovations to expand or accelerate programs that are 
serving DHS mission needs. Such foreign investment has included test 
and evaluation of x-ray systems for aviation checked baggage, 
development of a hybrid composite container for maritime cargo 
security, and an assessment of violent extremist incidents. S&T plans 
to invest internationally in the test and evaluation of x-ray systems 
for aviation checked baggage; research to develop a technological 
capability for standoff detection of explosives in a mass transit 
environment; and sequencing and characterization of unique strains of 
select agents which are high-priority biological threats and are 
otherwise unavailable to U.S. researchers. S&T also plans to invest 
internationally in the test and evaluation of x-ray systems for 
aviation checked baggage; research to develop a technological 
capability for standoff detection of explosives in a mass transit 
environment; and sequencing and characterization of unique strains of 
select agents which are high-priority biological threats and are 
otherwise unavailable to U.S. researchers.

Q7.  Are investments in other countries seen as a priority?

A7. Cooperative activity of mutual benefit with other countries is a 
priority if it meets DHS mission needs, S&Tprogram requirements, and 
augments or enhances S&T's ability to serve the Department. Such 
cooperative activities may or may not involve direct investments in 
other countries.
    ``International partners are critical to the effort to secure the 
homeland against threats that transcend jurisdictional and geographic 
boundaries,'' according to the first Quadrennial Homeland Security 
Review, published in February 2010. ``International engagement enhances 
the transparency of threat trajectories and increases our capacity to 
understand, investigate, and interdict threats at the earliest possible 
point, ideally before they become manifest, reach our shores, or 
disrupt the critical networks on which we depend. The United States 
must work with its international partners to increase global security 
against terrorism and violent extremism, the spread of infectious 
diseases, and the consequences of natural disasters.'' By acting 
together with a shared vision, collaborations that lead to improved or 
major security accomplishments in each country are a collective 
achievement of mutual interest towards global security.

Q8.  What is your view on the state U.S.-Israel Homeland Security 
cooperation?

A8. Since signing the Memorandum of Agreement between the U.S. and the 
Government of the State of Israel on Cooperation in Science and 
Technology for Homeland Security Matters on May 29, 2008, the Science 
and Technology Directorate has worked with the Israeli government on a 
variety of programs and projects. DHS S&T is actively engaged with 
Israeli science and technology offices within a multitude of Israeli 
government ministries and agencies including the Ministry of Public 
Security, Bureau of the Chief Scientist (MOPS/BCS), the Israeli 
National Security Council, the Israeli Security Agency (ISA), the 
Israeli National Police (INP), and the Israeli Home Front Command 
(HFC), a regional command with homeland security responsibilities 
within the Israeli Defense Forces (IDF). DHS S&T has also engaged 
several top researchers in Israel and has awarded grants and invited 
them to speak at DHS S&T sponsored events. During our last University 
Summit (March 30--April 1, 2011), Israel was one of two countries 
invited to speak. Dr. Boaz Ganor, founder and Executive Director of the 
International Institute for Counter-Terrorism (ICT), and the Head of 
the Homeland Security Studies Programs at the Interdisciplinary Center 
(IDC), Herzliya, Israel, presented his work on the threat of suicide 
bombers on mass transportation.
    DHS S&T is also actively engaged with the DOD's Combating Terrorism 
Technology Support Office (CTTSO) and Technical Support Working Group 
(TSWG) bilateral cooperation activities with Israel. DHS S&T and CTTSO/
TSWG work closely to ensure synergy and prevent duplication of effort 
and resources by participating in each other's regularly scheduled 
meetings and bilateral conferences.
    DHS S&T and MOPS/BCS held the second U.S.-Israel Homeland Security 
Science and Technology Bilateral Conference on November 9-11, 2010 in 
Jerusalem to discuss and report on bilateral cooperative activities. 
This meeting included working level meetings and presentations on 
planned and proposed activities within common areas of interests, 
including the Explosives, Human Factors and Behavioral Sciences, Cyber 
Security, and the Infrastructure Protection and Disaster Management 
domains. It also included site visits to several locations with the 
following themes: Aviation Security; Community Resilience; Explosive 
Device Testing; and Command, Control, and Interoperability.
    DHS S&T finds the collaboration with Israel extremely beneficial 
and is encouraged by the progress that has already been made. We look 
forward to continuing and expanding upon thechannels of cooperation and 
engagement under our Agreement that have been successfully built over 
the past three years.

Questions submitted by Representative David Wu

Q1.  The Science and Technology Directorate last published a strategic 
plan in June of 2007. In October of 2009, in testimony before the 
Technology and Innovation Subcommittee, the Acting Under Secretary for 
Science and Technology noted that the Science and Technology 
Directorate was updating its strategic plan to support the strategic 
goals and objectives determined by the Quadrennial Homeland Security 
Review. In your written testimony, you state that the Directorate has 
instituted an inclusive and comprehensive strategic planning process. 
When can we expect to see an updated strategic plan that reflects the 
goals and objectives of the Quadrennial Homeland Security Review?

A1. The Science and Technology Directorate (S&T) plans to issue its 
strategic plan in May 2011. As soon as it is issued, S&T will provide 
copies to the Subcommittee.

Q2.  Can you please describe the strategic planning process that the 
Directorate undertook after you were confirmed as Under Secretary?

A2. In February of 2010, the Science and Technology Directorate (S&T) 
began the process of developing its new five-year strategic plan. The 
process involved careful analysis of the Quadrennial Homeland Security 
Review (QHSR) and DHS priorities; review of past and current S&T 
planning documents and external evaluations; and extensive input from 
internal and external stakeholders. In addition, S&T leadership set 
forth four principles--inclusivity, transparency, open-mindedness to 
change, and responsiveness--to guide the process.
    S&T established an internal steering committee to manage an 
extensive outreach effort that included external stakeholder 
interviews, a staff questionnaire, and two retreats comprised of 
differing S&T staff groups.
    S&T sought input from the DHS components and their federal, state, 
and local partners regarding how S&T could improve its effectiveness 
over the next five years. On behalf of S&T, the Homeland Security 
Studies and Analysis Institute (HSSAI) conducted 20 interviews with 
external stakeholders. In addition, S&T senior staff conducted a series 
of external interviews with key stakeholders including congressional 
staff. Interviews captured information on stakeholder perceptions of 
S&T service and performance; effectiveness of S&T outreach and 
communication; and how well S&T priorities aligned with its customers.
    S&T conducted an online employee questionnaire to provide 
leadership with an understanding of employee priorities and concerns. 
Questionnaire results helped leadership identify areas of both strong 
and variable performance as well as gain insight about future S&T 
priorities and employee reaction to proposed S&T goals. HSSAI supported 
the effort by conducting and analyzing the results of the employee 
questionnaire.
    S&T conducted two offsite retreats (referred to as Forum One and 
Forum Two) to further harness the breadth of perspectives and expertise 
at S&T. Forum One convened managers from across S&T divisions and 
office units. Over the course of two days, participants engaged in 
lively plenary discussions and worked within small breakout groups to 
generate input on potential S&T mission, vision, goals and strategies. 
The group also provided a baseline understanding of organizational 
strengths and weaknesses, as well as internal and external forces 
likely to shape the current and future homeland security environment.
    Forum Two gathered senior management and leadership in a two-day 
engagement. To open this discussion, representatives from Forum One 
debriefed senior management on Forum One findings and recommendations 
for action. Taking into account Forum One input, the Forum Two 
participants further refined S&T's mission, goals, and key strategies. 
S&T leadership reviewed Forum Two findings for final agreement and a 
detailed final report summarized and assessed both Forum results.
    The collective contribution of staff, external stakeholders and DHS 
guidance, taken together has resulted in a five-year strategy that 
frames the priorities for achieving the S&T mission and ensures that 
S&T resources are aligned to efficiently attain plan goals.

Q3.  The FY 2012 budget includes $19 million for the Science and 
Technology Directorate's natural disaster resiliency program to help 
respond to and recover from large-scale natural disasters. To what 
extent are these natural disaster-related efforts being coordinated 
with other agencies working in this area, including agencies such as 
the National Institute of Standards and Technology, the National 
Science Foundation, the U.S. Geological Survey, and the Federal 
Emergency Management Agency which make up the National Earthquake 
Hazards Reduction Program?

A3. The Science and Technology Directorate's (S&&) FY 2012 budget 
request for natural disaster resilience includes projects such as the 
National Critical Infrastructure Protection (CIP) Research and 
Development (R&D) Plan, Standard Unified Modeling Mapping Integrated 
Toolkit (SUMMIT), Resilient Electric Grid (REG), and Recovery 
Transformer. S&T works closely with the appropriate agencies to assure 
a coordinated approach to natural disaster resiliency. For example, the 
National CIP R&D Plan is coordinated primarily with DHS Office of 
Infrastructure Protection (OIP) National Protection and Programs 
Directorate (NPPD). To prepare the Plan, S&T annually invites the 
National Institute for Standards and Technology (NIST), Federal 
Emergency Management Agency (FEMA) and National Science Foundation 
(NSF) to participate in its development through the National Science 
and Technology Council (NSTC) Infrastructure Subcommittee.
    As a second example, the Integrated Modeling Mapping Simulation 
(IMMS) Standard Unified Modeling Mapping Integrated Toolkit (SUMMIT) is 
an integrated modeling and simulation based exercise and analysis 
system in direct response to FEMA's requirements for an efficient, 
economic, repeatable, and science based capability to conduct National 
Level Exercises (NLE). IMMS/SUMMIT also supports state, local, and 
regional preparedness exercises and provides interoperability with the 
federal agencies. S&T works closely with FEMA as the source of 
requirements and the users of the IMMS system. FEMA participates in all 
program reviews and provides guidance on the direction of the program. 
Additionally, the IMMS/SUMMIT team works with the Department of Energy 
(DOE) National Laboratories and other agencies such as the Technical 
Support Working Group, National Interagency Research and Development 
Program for Combating Terrorism Requirements at Home and Abroad, to 
share and leverage technologies to stay up to date on the state of new 
technologies. For the NLE 2011 activities, the IMMS/SUMMIT Team has 
worked very closely with USGS to integrate earthquake models into 
SUMMIT.
    S&T coordinates additional efforts, such as the Resilient Electric 
Grid and Recovery Programs, DOE, Electric Research Institute (EPRI), 
Edison Electric Institute (EEI), North American Electric Reliability 
Corporation (NERC) and Federal Energy Regulatory Commission (FERC). 
These efforts also participate with FEMA via meetings/conferences such 
as at the NERC Table Top Exercises and Space Weather Enterprise Forum.

Questions submitted by Representative Lamar Smith

Q1.  Given the concerns raised about border security during the 
hearing, if one were to look at the entire $1.176 DHS S&T budget 
request approximately, how much is directed toward those efforts?

A1. Approximately $43 million of the Science and Technology 
Directorate's (S&T) FY 2012 Budget Request is directed to developing 
border security technologies. S&T is also developing technologies with 
multiple applications, which include use in border security. An example 
is S&T's work to improve biometric technology, an approximately $12.2 
million planned investment in FY 2012.

Q2.  In the strategic planning and goal setting discussions you 
described in your testimony, how did you set funding priorities for the 
seven HSARPA technical divisions?

A2. The Science and Technology Directorate (S&T) has implemented a 
process of portfolio assessment and balancing. S&T has unified the 
project evaluation and selection process so that it takes into account 
project characteristics, strengths, weaknesses and performance 
including measuring impact, transition, technical positioning, clarity 
of purpose, customer involvement, and innovation. S&T will use the 
portfolio assessment and balancing process each year to confirm 
priorities and make necessary adjustments.

Q3.  Can you rank-order the seven technical areas for funding 
priorities through established criteria for cost-benefit/bang-for-the-
buck? For example, if you had additional dollar to spend in only one of 
the seven HSARPA technical divisions, where would you spend it? If you 
had one less dollar, where would you propose to cut spending?

A3. The Science and Technology Directorate (S&T) has implemented a 
portfolio assessment and balancing process. The process allows the 
application of objective, repeatable evaluation criteria across all S&T 
projects. S&T will use this process to identify projects with the 
greatest likelihood of success that meet DHS priorities and component 
mission requirements.
    S&T is currently using its portfolio assessment process to assess 
S&T projects and identify projects with the most likelihood of success. 
Any increase in funding would first be applied those projects. 
Conversely, any project with a low likelihood of success would be the 
most likely to experience reduced funding.
                   Answers to Post-Hearing Questions
Responses by Mr. Warren Stern, Director, Domestic Nuclear Detection 
        Office, Department of Homeland Security

Questions submitted by Chairman Ben Quayle

Q1.  How does DNDO prioritize and administer basic R&D activities? How 
is the balance between conducting basic and applied research, 
development, demonstration, testing, and evaluation decided?

A1. DNDO's research and development (R&D) activities for detection 
systems focuses on addressing gaps in the Global Nuclear Detection 
Architecture (GNDA); improving performance, cost, and operational ease 
of use of detectors and systems; and transitioning successful 
technologies to system development, acquisition, and deployment, or 
commercialization. Our approach includes working with industry, 
national laboratories, and academia, while encouraging teaming and 
coordination with intra/interagency organizations (e.g., DHS/S&T, DOE, 
DOD, DNI).
    The GNDA gaps are identified in the GNDA Annual Report. These gaps 
are then integrated with strategic needs as part of the DNDO Solution 
Development Process (SDP) to develop a prioritized list of GNDA gaps 
that DNDO will address. Through the SDP, DNDO determines which gaps 
have technical or operational solutions and which gaps have no 
immediate solutions. For prioritized gaps with immediate (<2 year) 
solutions, DNDO defines and executes programs, within budgetary 
constraints, to fill these gaps. These programs may have engineering 
development, test and evaluation, and acquisition components. For 
prioritized gaps with no immediate solutions, DNDO defines and executes 
basic and applied R&D project to address these gaps. The balance 
between basic and applied research depends on how the gaps are 
prioritized and the technology readiness of potential solutions. In 
addition, it is important to maintain the proper balance between near-
term and longer term research so that investment in basic (long-term) 
research today can feed future applied (near-term) research, which in 
turn can feed future engineering development and acquisition.

Q2.  The President's FY 2012 budget request for the Domestic Nuclear 
Detection Office includes $27 million for the Securing the Cities 
Initiative. The request appears to be primarily for acquiring and 
deploying technologies and capabilities to the New York City Region, 
but the budget request also mentions that a funding opportunity will be 
announced for one additional USAI Tier I region. Can you please clarify 
how much of the fiscal year 2012 request would be allocated to other 
cities or regions?

A2. As stated in the FY 12 DHS Congressional Justification, up to 
$7,000,000 of the $27,000,000 requested is planned for allocation to an 
additional Urban Areas Security Initiative Tier I region. What criteria 
will be used to evaluate regions for Securing the Cities funding and 
will a particular threat area (chemical, biological, or radiological/
nuclear) be prioritized?
    The STC mission is to design and implement a layered architecture 
for coordinated and integrated detection and interdiction of illicit 
radiological and nuclear materials that may be used as a weapon within 
the highest threat metropolitan areas. This program deals exclusively 
with radiological/nuclear materials. Once FY 12 funding is 
appropriated, DHS will issue a competitive funding opportunity 
announcement detailing eligible applicants and the evaluation criteria 
for selection. A number of factors will be considered in the 
competition, including threat vulnerabilities, consequences to nation 
in the event of a successful attack, region's existing PRND 
capabilities, and region's proximity to existing STC implementations, 
extending the security benefits of multiple UASIs to form a more 
comprehensive security layer.

Q3.  Additionally, how is the Directorate interacting with U.S. 
manufacturers to ensure that technologies being developed under the STC 
initiative as well as other Directorate programs results in U.S. jobs?

A3. The STC program office is not directly involved in technology 
development or equipment purchases with manufacturers. The program 
grants money to S&L government agencies that then contract with vendors 
to purchase commercial off-the-shelf equipment. Per 44 CFR 13, S&L 
grantees follow S&L procurement rules in determining whether equipment 
is purchased from a U.S. or foreign vendor. In addition, the STC grant 
authorizes S&L agencies to hire full- or part-time staff or contract/
consultants using grant funds to assist with planning activities 
associated with this program.
                   Answers to Post-Hearing Questions
Responses by Mr. Marc Pearl President and Chief Executive Officer, 
        Homeland Security and Defense Business Council

Questions submitted by Chairman Ben Quayle


Q1.  "In your written testimony, you state that it can sometimes be 
challenging for the business community to comprehend the needs and 
goals of DHS, making it difficult for your members to make decisions 
about their own long-term business and technology investments. How can 
this be improved? What are some ways that greater coordination of 
communication can occur between DHS and the private sector? What do you 
see as the mutually beneficial role for R&D in both the private sector 
and DHS?"

A1. The Council and its members have a great interest in providing the 
technology, services and products--the `solutions'--our nation needs 
and deserves to respond effectively and efficiently to our nation's 
homeland security needs. Unfortunately, due to a number of extenuating 
circumstances, it is difficult for the homeland security market to 
accurately predict and/or `build-to' the needs and long-term goals of 
the Department. This, unfortunately, makes timely and proper business 
certainty decisions regarding long-term business strategy, research and 
development, and technology investments challenging.
    As my testimony pointed out, while we recognize and very much 
appreciate the great strides the Department has made over the past few 
years in this area, the Council and its members continually hope for 
even more improvements. The Council believes greater coordination of 
communication between industry and government can mitigate this 
challenge and improve the private sector's ability to meet the needs, 
priorities and goals of the Department of Homeland Security.
    The Council recommends multiple actions that could improve this 
engagement:

    First and foremost, Congress must pass a comprehensive DHS 
Authorization Bill. We can no longer exist in an environment that is 
devoid of a strategic blueprint that provides guidance from Congress to 
the Department, and, in turn, gives those who provide the tools a clear 
idea on the needs, priorities and goals. We cannot build an effective 
and efficient homeland security foundation solely off an appropriating 
structure. The relevant and active authorizing committees in the House 
and Senate should, once and for all, work through their jurisdictional 
issues that have contributed to hampering the Department's ability to 
develop long-term strategies to match congressional policies. Without a 
blueprint, policies and priorities are diluted across multiple 
committees and agendas.

        <bullet>  The Council recommends that passage of a 
        comprehensive DHS Authorization bill led through the U.S. House 
        Committee on Homeland Security with consultation from other 
        overlapping Committees, including this subcommittee. Once such 
        legislation is passed, the Department and the private sector 
        will have the information (and business certainty) they need to 
        better approach appropriate and necessary research and 
        development to effectively and efficiently meet the homeland 
        security needs and goals of the Department and the nation.

    Second, the Congress should increase and provide necessary 
enforcement tools to the Department's authority, specifically the 
Science and Technology Directorate, to direct and coordinate homeland 
security research and development efforts within the component parts of 
DHS and across the Federal government. Currently the funding and 
authority is spread across multiple operating components within DHS and 
other Federal agencies. This results in dilution and duplication, and 
equates to inefficiencies and waste that the government can ill afford. 
There must be a concerted effort to insure that there is an 
institutional system is in place--unaffected by whomever is currently 
occupying a given leadership or implementation position--to assist the 
private sector's need to know who to talk to at S&T in order to develop 
the needed solutions.

        <bullet>  The Council recommends the formation of a homeland 
        security research and development advisory council across the 
        government that could coordinate the consolidation of goals and 
        requirements development, and encourage greater communication 
        and identification of needs. This advisory council must include 
        expert representation from relevant Federal agencies, state/
        local/tribal leaders and the private sector--led by the Under 
        Secretary of the Science and Technology Directorate. The Under 
        Secretary would be able to request homeland security research 
        and development funding from Congress, allocate funding 
        according to a long-term strategy and report to Congress and 
        the advisory council on progress. This process would ensure the 
        necessary linkage between the policy requirements and the 
        funding. This level of planning and visibility would 
        significantly improve the private sector's ability to forecast 
        the technology goals and needs of the Department.

    Third, the Department should be encouraged by Congress to take the 
steps to improve the direct relationship with the private sector. The 
current level of engagement can best be described as ``hands off.'' 
Homeland security solutions providers are generally viewed as merely 
`contractors' and `vendors' though a wealth of thought leadership and a 
desire to invest huge amounts of time and dollars in developing and 
having those solutions deployed and implemented is critical. Either 
because of ethical concerns (that can be easily taken care of with 
appropriate oversight) or a lack of appreciation for the thought 
leadership the private sector can contribute, not including this level 
of substantive engagement works against the Department's ability to 
have its needs and goals be met by the private sector in a timely, 
efficient and/or effective way.

        <bullet>  The Council recommends clear pronouncements of the 
        long term technology goals linked to funding streams and points 
        of contact, as mentioned above. In addition, ``mission area 
        conferences/forums'' coordinated by the Department would allow 
        experts and decision makers to discuss long term strategy and 
        assist everyone in providing an effective strategic platform 
        allowing the best and the brightest to focus on key mission 
        areas such as aviation security, weapons of mass destruction, 
        pandemics, etc., and allow the engagement of all the critical 
        players in an iterative process to define, identify, develop 
        and implement a process that meets the goals and needs of 
        specific mission areas.

        <bullet>  The Council additionally recommends an innovative 
        approach in research such as a public private partnership that 
        brings together the universities, national laboratories, 
        industry partners, and the Department.

    We applaud your leadership in this area that will assist our nation 
become safer and more secure while ensuring the innovative thought 
leadership the Department needs to meet its goals are communicated.
    Thank you again for the opportunity to provide you and the members 
of Committee our views. Please contact me if the Council can provide 
more information.
                              Appendix II:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

     Testimony from Dr. Michael B. Silevitch, Robert D. Professor, 
    Department of Electrical & Computer Engineering and Co-Director 
  Awareness and Localization of Explosives Related Threats (ALERT), A 
     Dept. of Homeland Security Center of Excellence, Northeastern 
                               University
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
